<html>
<title> - CHILDREN WHO AGE OUT OF THE FOSTER CARE SYSTEM</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                            CHILDREN WHO AGE 
                     OUT OF THE FOSTER CARE SYSTEM 

=======================================================================

                                HEARING

                               before the

                         SUBCOMMITTEE ON INCOME
                      SECURITY AND FAMILY SUPPORT

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 12, 2007

                               __________

                           Serial No. 110-53

                               __________

         Printed for the use of the Committee on Ways and Means

                               ----------
                        U.S. GOVERNMENT PRINTING OFFICE 

43-505 PDF                      WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 





































                      COMMITTEE ON WAYS AND MEANS

                 CHARLES B. RANGEL, New York, Chairman

FORTNEY PETE STARK, California       JIM MCCRERY, Louisiana
SANDER M. LEVIN, Michigan            WALLY HERGER, California
JIM MCDERMOTT, Washington            DAVE CAMP, Michigan
JOHN LEWIS, Georgia                  JIM RAMSTAD, Minnesota
RICHARD E. NEAL, Massachusetts       SAM JOHNSON, Texas
MICHAEL R. MCNULTY, New York         PHIL ENGLISH, Pennsylvania
JOHN S. TANNER, Tennessee            JERRY WELLER, Illinois
XAVIER BECERRA, California           KENNY C. HULSHOF, Missouri
LLOYD DOGGETT, Texas                 RON LEWIS, Kentucky
EARL POMEROY, North Dakota           KEVIN BRADY, Texas
STEPHANIE TUBBS JONES, Ohio          THOMAS M. REYNOLDS, New York
MIKE THOMPSON, California            PAUL RYAN, Wisconsin
JOHN B. LARSON, Connecticut          ERIC CANTOR, Virginia
RAHM EMANUEL, Illinois               JOHN LINDER, Georgia
EARL BLUMENAUER, Oregon              DEVIN NUNES, California
RON KIND, Wisconsin                  PAT TIBERI, Ohio
BILL PASCRELL JR., New Jersey        JON PORTER, Nevada
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
CHRIS VAN HOLLEN, Maryland
KENDRICK MEEK, Florida
ALLYSON Y. SCHWARTZ, Pennsylvania
ARTUR DAVIS, Alabama

             Janice Mays, Chief Counsel and Staff Director

                  Brett Loper, Minority Staff Director

                                 ______

           SUBCOMMITTEE ON INCOME SECURITY AND FAMILY SUPPORT

                  JIM MCDERMOTT, Washington, Chairman

FORTNEY PETE STARK, California       JERRY WELLER, Illinois
ARTUR DAVIS, Alabama                 WALLY HERGER, California
JOHN LEWIS, Georgia                  DAVE CAMP, Michigan
MICHAEL R. MCNULTY, New York         JON PORTER, Nevada
SHELLEY BERKLEY, Nevada              PHIL ENGLISH, Pennsylvania
CHRIS VAN HOLLEN, Maryland
KENDRICK MEEK, Florida

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Ways and Means are also published 
in electronic form. The printed hearing record remains the official 
version. Because electronic submissions are used to prepare both 
printed and electronic versions of the hearing record, the process of 
converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.









































                            C O N T E N T S

                               __________

                                                                   Page

Advisory of July 5, 2007, announcing the hearing.................     2

                               WITNESSES

The Honorable Dennis Cardoza, a Representative in Congress from 
  the State of California........................................     7

                                 ______

Tyler Bacon, Florida.............................................    16
Anthony Reeves, Georgia..........................................    20
Nicole Dobbins, Oregon...........................................    25
Jamaal Nutall, Illinois..........................................    29

                                 ______

Cornelia Ashby, Director, Education, Workforce and Income 
  Security, U.S. Government Accountability Office................    39
Mark Courtney, Ph. D., Ballmer Chair in Child Well-Being, School 
  of Social Work, University of Washington.......................    73
Gary Stangler, Executive Director, Jim Casey Youth Opportunities 
  Initiative.....................................................    76
Sam Cobbs, Executive Director, First Place Fund for Youth, 
  Oakland, California............................................    83
Jane Soltis, Program Officer, Eckerd Family Foundation...........    87

                       SUBMISSIONS FOR THE RECORD

Child Welfare League of America, statement.......................   102
Everychild Foundation, statement.................................   106
Jennifer Cole, letter............................................   111
Job Corps Partnering with the Foster Care System, statement......   108
Kevin Drollinger, statement......................................   109
North American Council on Adoptable Children, statement..........   114
Patricia K. Jennings, statement..................................   120
Seattle University's Fostering Scholars Program, statement.......   122


                            CHILDREN WHO AGE
                     OUT OF THE FOSTER CARE SYSTEM

                              ----------                              


                        THURSDAY, JULY 12, 2007

             U.S. House of Representatives,
                       Committee on Ways and Means,
        Subcommittee on Income Security and Family Support,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 10:04 a.m., B-
318, Rayburn House Office Building, Hon. Jim McDermott 
[Chairman of the Subcommittee] presiding.
    [The advisory announcing the hearing follows:]

ADVISORY

FROM THE 
COMMITTEE
 ON WAYS 
AND 
MEANS

                            SUBCOMMITTEE ON

                   INCOME SECURITY AND FAMILY SUPPORT

                                                CONTACT: (202) 225-1721
FOR IMMEDIATE RELEASE
July 05, 2007
ISFS-9

                     McDermott Announces Hearing on

           Children Who ``Age Out'' of the Foster Care System

    Congressman Jim McDermott (D-WA), Chairman of the Subcommittee on 
Income Security and Family Support of the Committee on Ways and Means, 
today announced that the Subcommittee will hold a hearing on children 
emancipating from the foster care system. The hearing will take place 
on Thursday, July 12, 2007, at 10:00 a.m. in room B-318 Rayburn House 
Office Building.
      
    In view of the limited time available to hear witnesses, oral 
testimony at this hearing will be from invited witnesses only, 
including a number of former foster children. However, any individual 
or organization not scheduled for an oral appearance may submit a 
written statement for consideration by the Committee and for inclusion 
in the printed record of the hearing.
      

BACKGROUND:

      
    Eligibility for federal foster care assistance generally ends at 
age 18, although some States extend this limit with their own funds. 
The number of children who emancipate from (or ``age-out'' of) the 
foster care system upon reaching this age has increased from 19,000 in 
2001 to over 24,000 in 2005 (the most recent available data). This 
increase in the number of youth discharged from foster care has 
occurred at the same time that the overall number of children in the 
system has decreased, from 544,614 in FY2001 to 513,131 in FY2005.
      
    Studies indicate that youth who have ``aged out'' of foster care 
fare poorly relative to their counterparts in the general population on 
outcome measures related to employment, education, homelessness, mental 
health, medical insurance coverage, involvement with the criminal 
justice system, early pregnancy, and poverty. For example, research 
suggests that one in seven youth suffer from homelessness after they 
are discharged from foster care and over half lack health coverage.
      
    Children who are at risk of aging out of foster care, as well as 
those recently discharged upon reaching the age of 18, may receive 
services under the Chafee Foster Care Independence Program, including 
counseling, life-skills training, educational assistance, mentoring, 
job placement services, and a limited amount of housing assistance. 
While funding for this program was increased in 1999, its impact on 
outcomes for former foster children is still uncertain because an 
assessment and data collection system for the program has yet to be 
established in final form by the Department of Health and Human 
Services.
      
    In announcing the hearing, Chairman McDermott stated, ``When most 
children reach the age of 18, their parents continue to support and 
help them during their transition into adulthood. As the de-facto 
parents of foster children, we should do no less. We need to evaluate 
whether we are meeting that obligation, or whether we are simply 
showing these kids the door without sufficient support, resources and 
skills to succeed. ''
      

FOCUS OF THE HEARING:

      
    The hearing will focus on services and outcomes for children who 
``age out'' of the foster care system.
      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Please Note: Any person(s) and/or organization(s) wishing to submit 
for the hearing record must follow the appropriate link on the hearing 
page of the Committee website and complete the informational forms. 
From the Committee homepage, http://waysandmeans.house.gov, select 
``110th Congress'' from the menu entitled, ``Hearing Archives'' (http:/
/waysandmeans.house.gov/Hearings.asp?congress=18). Select the hearing 
for which you would like to submit, and click on the link entitled, 
``Click here to provide a submission for the record.'' Once you have 
followed the online instructions, completing all informational forms 
and clicking ``submit'' on the final page, an email will be sent to the 
address which you supply confirming your interest in providing a 
submission for the record. You MUST REPLY to the email and ATTACH your 
submission as a Word or WordPerfect document, in compliance with the 
formatting requirements listed below, by close of business August 2, 
2007. Finally, please note that due to the change in House mail policy, 
the U.S. Capitol Police will refuse sealed-package deliveries to all 
House Office Buildings. For questions, or if you encounter technical 
problems, please call (202) 225-1721.
      

FORMATTING REQUIREMENTS:

      
    The Committee relies on electronic submissions for printing the 
official hearing record. As always, submissions will be included in the 
record according to the discretion of the Committee. The Committee will 
not alter the content of your submission, but we reserve the right to 
format it according to our guidelines. Any submission provided to the 
Committee by a witness, any supplementary materials submitted for the 
printed record, and any written comments in response to a request for 
written comments must conform to the guidelines listed below. Any 
submission or supplementary item not in compliance with these 
guidelines will not be printed, but will be maintained in the Committee 
files for review and use by the Committee.
      
    1. All submissions and supplementary materials must be provided in 
Word or WordPerfect format and MUST NOT exceed a total of 10 pages, 
including attachments. Witnesses and submitters are advised that the 
Committee relies on electronic submissions for printing the official 
hearing record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. All submissions must include a list of all clients, persons, 
and/or organizations on whose behalf the witness appears. A 
supplemental sheet must accompany each submission listing the name, 
company, address, telephone and fax numbers of each witness.
      
    Note: All Committee advisories and news releases are available on 
the World Wide Web at http://waysandmeans.house.gov.
      
    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TTD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.

                                 <F-dash>

    Chairman MCDERMOTT. The meeting will come to order.
    Today we are going to have a hearing on children who age 
out of foster care, and at any given time, there are over half 
a million children in the foster care system.
    Ultimately, they will either return home or find an 
adoptive family, but some of these kids will stay in the system 
until they reach 18, at which point they are turned out into 
the world with little support, few skills, and sometimes 
nowhere to live.
    It is like getting an eviction notice from the Government 
for doing nothing other than turning 18.
    I am going to ask everyone here today to remember your life 
when you were 18. Had you been raised in a safe and stable 
family up to that point? Were you receiving any kind of support 
and guidance from your family? Did they help you with a place 
to live and a way to pay for your education?
    Imagine if the answer to all those questions was a 
resounding no. How might that have changed the course of your 
own life?
    As the de facto parents of foster kids, all of us have an 
obligation to give these young people the best possible chance 
to succeed.
    To achieve this goal, we need to focus on three big 
targets. The first is ensuring stable, supportive and loving 
environments for children while they are in foster care. It 
goes without saying that a nurtured child is much more likely 
to mature into a productive adult.
    The second priority is to connect these children to a 
family. In a perfect world, that means adoption. A child is 
never too old to benefit from an adoptive family, but it also 
can mean finding relatives who may have lost touch with the 
child but who are willing to provide guidance and support 
during the child's transition to adulthood.
    Of course, there also are other caring adults--mentors, 
case workers, teachers--who could make a huge difference in the 
life of a young person learning to find their way in the world.
    Finally, we need a support system for young people after 
they turn 18. While we all thought we were invincible when we 
were 18, we learned over time just how vulnerable we and every 
other 18 year old really is. Let's not forget that when we move 
ahead.
    The Chafee Foster Care Independence Program was partly 
designed to fulfill such a need, although it also focuses on 
young children who are at risk of aging out of foster care.
    The program provides counseling, life skills training, 
educational assistance, mentoring, job placement services, and 
a limited amount of housing assistance.
    Funding for this program was increased and made more 
flexible in 1999 but its impact on outcomes for former children 
is still somewhat uncertain in my view.
    The Department of Health and Human Services (HHS) is at 
least partly to blame for our limited understanding in this 
area because the agency has yet to implement an assessment and 
data collection system for the Chafee program, nearly 8 years 
after being mandated by Congress to do so.
    As we consider this last issue of providing adequate 
support for foster youth when they turn 18, we ultimately have 
to ask the question of whether there is an appropriate age for 
Federal foster care to end. It is certainly not when most 
parents end support for their kids. You never get rid of them, 
I can tell you, even when they are 40 years old.
    In fact, one study found the average American youth 
receives about $38,000 from their parents after they reach the 
age of 18 for tuition and financial assistance.
    We also need to consider that research is beginning to show 
that youth who stay in care longer have better outcomes than 
those who exit from foster care at age 18. Some States have 
actually taken it upon themselves to extend foster care beyond 
18.
    Roughly 24,000 young people are pushed out of the foster 
care system every year when they reach their 18th birthday, and 
I hope today's hearing begins a longer conversation about how 
we can better support these kids in foster care. They really 
are our children.
    Before yielding to the Subcommittee Ranking Member, Mr. 
Weller, I want to yield the remaining portion of my time to Mr. 
Stark for a few comments. Mr. Stark?
    Mr. STARK. Why do I not withhold, Mr. Chairman, until we 
have heard from our colleague, Mr. Cardoza, and Mr. Weller, and 
then I will chime in later. Thanks.
    Chairman MCDERMOTT. I will turn the mike over to Mr. 
Weller, the Ranking Member.
    Mr. WELLER. Thank you, Mr. Chairman. Good morning.
    Today's hearing explores the challenges faced by children 
who age out of the foster care system at age 18 and the 
effectiveness of assistance available to help them.
    In 2005, over 24,000 youth aged out of the nation's foster 
care system. Among many serious challenges, these young people 
have lower high school graduation rates, higher rates of 
homelessness, and a higher rate of being incarcerated than 
other youth their age.
    The simple fact is that too many youth who age out of 
foster care stumble and fall on their way to adulthood. Some 
never recover. Others, including the young people we will hear 
from today, find their way through extraordinary personal 
effort, involvement of dedicated relatives, as well as other 
adults, a little luck, or all of the above.
    The odds against their success is not what any of us would 
want for our own children. It is equally unacceptable for kids 
in foster care whose care is our responsibility.
    Under current law, key support to help these young people 
make the transition to adulthood comes from the Chafee Foster 
Care Independence Program, which funds what are called 
``independent living services.''
    Today, the Federal Government provides States $140 million 
per year, which is twice what was provided a decade ago. 
Another $44 million per year has more recently been added just 
for education and training vouchers for college and other 
postsecondary training expenses.
    We know funding has been going up to help youth aging out 
of foster care. What we do not know is whether this increased 
spending has had a positive effect.
    As the Government's Accountability Office testimony says, 
little information is available to assess program outcomes. 
That is unacceptable.
    I urge the Department of Health and Human Services (HHS) to 
finalize whatever regulations or instructions are needed to 
help States report and analyze data about youth who access 
those services so that we know what is working and what is not.
    Despite these gaps in our knowledge, I am encouraged to 
learn of several promising demonstrations, especially involving 
the education of youth in foster care. School stability and 
high school completion are strongly associated with better 
outcomes for young people making the transition to adulthood. 
We should do whatever it takes to ensure more foster youth 
complete at least high school.
    We are fortunate to have a panel of young people today who 
have aged out of foster care. One of them, Jamaal Nutall of 
Joliet, lives in the congressional district I represent, and is 
spending the Summer working in my office here in Washington as 
an intern.
    Jamaal and his peers will discuss their own experiences 
making the transition to adulthood, how current programs have 
helped and how they might do more.
    We will also hear from an array of other experts on these 
issues starting with my friend and colleague, Representative 
Cardoza of California.
    I look forward to all our witnesses' testimony.
    Thank you, Mr. Chairman, for convening this hearing.
    Chairman MCDERMOTT. Mr. Stark?
    Mr. STARK. Let me add before our friend, Mr. Cardoza, 
enlightens us, that there is a cost to ignoring these young 
people. I hate to put this in dollar terms. If we think about 
crime, for instance, as a young person's game, Dr. McDermott 
and I are probably not agile enough to be second story people 
any more. We could probably hardly walk up the stairs much less 
climb through the window.
    For those of you who worry about being mugged, you are not 
going to be mugged by people our age. This is a young person's 
game, and we know that if a person is convicted of a felony 
before they are 20, the odds are that between 20 and 50, they 
will spend half of that time in some kind of system.
    In California, that costs $60,000 a year, if you want to 
put it in dollars.
    Whatever we can invest to prevent that transition into the 
justice system, to keep them in the standards of society, I 
think it is worthwhile.
    I wanted to just add to Mr. Cardoza's suggestion one 
problem that we have. About 30,000 foster children are eligible 
for Social Security benefits either supplemental Security 
income or survivor's benefits.
    Many States are sending private contractors out to mine the 
field of foster children and get their Social Security 
payments, and the States are taking that money and putting it 
into their general fund.
    For other children, that money is usually protected by a 
guardian appointed by the State or whomever is in charge of 
that child. If the money is because the child has a disability, 
that money should be used for extra medical care and treatment.
    If the child has that extra Social Security payment because 
a parent or parents have died, that money should be set aside 
for the child. That child has a worse or extra problem coming 
out of foster care, and that money could be set aside as it is 
for other children to be used when they mature. It could be 
used for college, for education, for transportation, buy a car 
to get to work.
    It is a small amount and really does not belong to the 
States. It belongs to those children.
    My amendment would suggest that the States be required to 
find out where children are entitled and become the trustee for 
that child and see that the money is either used for the 
child's particular needs or is there and saved for the time 
when they mature out of the system.
    I hope to talk with my colleagues about that legislation 
later. I want to thank Dennis for being here today.
    Thank you very much. Thank you, Mr. Chairman.
    Chairman MCDERMOTT. Thank you. Mr. Cardoza, welcome to the 
Committee. We are glad to have you here because you not only 
are a distinguished Member but somebody who has actually done 
the heavy lifting of having foster kids. We welcome your 
testimony.

STATEMENT OF THE HONORABLE DENNIS CARDOZA, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. CARDOZA. Thank you, Mr. Chairman.
    Chairman MCDERMOTT. Your whole testimony will go into the 
record, so if you want to try to stay within 5 minutes, we 
would appreciate it.
    Mr. CARDOZA. I will do my very best. Thank you.
    Thank you, Mr. Chairman. I want to just start today by 
thanking you very much for this hearing on behalf of all these 
young people and the people that have crowded this room today. 
This is a very important issue.
    I could not agree more with Mr. Weller and Mr. Stark that 
this is a compelling issue that needs attention. Your 
leadership, Mr. Chairman, on this has been fantastic and I 
appreciate your allowing me to testify today.
    As you say, I have a written statement that will also be 
submitted to the record.
    I have discussed this with many of you. I have a very 
personal interest in this issue. Seven years ago, my wife and I 
adopted foster children. They are not foster children any more. 
They are our children.
    Since then, I have advocated on behalf of adoption and 
foster children with the California legislature and here in 
Congress.
    Too many children in foster care sit waiting for permanent 
families. There are 118,000 children in foster care waiting to 
be adopted and numerous barriers keep them in limbo. Children 
often bounce from one system to another, from child welfare to 
juvenile justice, as Mr. Stark said, to mental health as their 
needs intensify.
    Moreover, each year 20,000 children age out of foster care 
without being adopted or reunified with parents. Often these 
youth have no permanent connection to a caring adult.
    When children turn 18, society considers them adults. For 
children lucky enough to have loving and caring parents, they 
have the luxury, as you said, Mr. Chairman, to turn to their 
parents in times of financial or emotional distress or in need 
of aid.
    Unfortunately, foster children who have aged out of the 
system do not have anyone to turn to. These children often have 
no one they can rely on as they make the difficult transition 
to adulthood.
    Foster care studies have shown that in the 4 years after 
leaving foster care, nationwide, 25 percent of aged out youth 
have been homeless at least a partial period of that time. 
Forty-2 percent have become parents themselves. Fewer than 20 
percent are able to support themselves, and only 46 percent 
have graduated from high school.
    Since they lack the support systems most young adults take 
for granted, aged out foster care teens are at risk for 
substance abuse, domestic violence, poverty, and falling into 
the trap that Mr. Stark so well illuminated at the beginning of 
his State.
    In the face of these daunting statistics and challenges, 
the problems can seem overwhelming. However, there are concrete 
steps that we can take to improve the lives of these at risk 
youth.
    One of the bills that I have introduced this session is 
H.R. 1376, a bill which would extend Medicaid coverage for 
foster children who have aged out of the system, by encouraging 
State health care coverage through age 21.
    The Medicaid Foster Care Coverage Act of 2007 would provide 
health care coverage for emancipated foster children, many of 
whom face these daunting physical and emotional problems as 
they transition to adult life.
    I am particularly concerned about youth on mood stabilizing 
medications. Given the fact that a number of these young people 
are on these medications to cope with their challenges, and 
frankly, the post-traumatic stress of being in the system, the 
very day they turn 18 and society asks them to assume the 
obligations of adulthood, the rug is pulled out from under them 
by having their access to these vital medications taken away.
    This is simply unfair and frankly counterproductive, and as 
Mr. Stark said, it is not a good cost/benefit analysis if we 
take a close look at it.
    We need to rectify this situation and that is exactly what 
my bill will do.
    In addition, I am currently working on legislation to 
ensure that every child has a court appointed special advocate, 
Children and Adolescent Services Advocate (CASA). CASAs are 
trained community volunteers to speak for the best interest of 
abused and neglected children in court. All too often, the 
needs of children can get lost in judicial proceedings. CASA 
volunteers are there to ensure that the best interest of the 
child are safeguarded in these court proceedings.
    I would just like to mention to the Committee that my 
children were brought to us by an observing CASA volunteer, who 
was my children's kindergarten teacher. They saw that my kids 
were under distress and were being abused a second time in the 
foster care system. She was able to remedy that because of her 
training and her vigilance.
    Moreover, other Members have introduced thoughtful pieces 
of legislation that address other aspects of the problems 
facing these disconnected youth: homelessness, helping 
runaways, lack of educational opportunities, and a myriad of 
challenges encountered by foster youth.
    However, the problem will not be solved by legislation 
alone. There needs to be a broader societal shift and 
understanding that we can simply not neglect these children any 
longer. Until we start to think of these children as Mr. Stark 
said, as our children, progress will be stymied.
    Unless we embrace these children as our own and start to 
think of their problems as our problems, we will be tackling 
this problem with one arm tied behind our back.
    I think we first and foremost must do everything possible 
to encourage adoption. There is simply no substitute for 
ensuring that these children are placed in stable and loving 
homes and we should support policies that enhance our ability 
to find qualified people to become adoptive parents and 
moreover, we should find ways to financially help these parents 
who are willing to assume this responsibility.
    I am going to leave the rest of my testimony for the 
record. I thank you for the opportunity. I stand ready to 
answer any of your questions about the trials and tribulations 
and the joy of adopting children.
    [The prepared statement of the Hon. Dennis Cardoza 
follows:]
Prepared Statement of The Honorable Dennis Cardoza, a Representative in 
                 Congress from the State of California
    Thank you for giving me this opportunity to testify at this 
important hearing on the problems facing foster kids as they age out of 
the system. I have a written statement that I have also submitted for 
the record.
    I have a very personal interest in this issue. Seven years ago, my 
wife and I adopted two foster children. Since then, I have advocated on 
behalf of adoption and foster children in the California Assembly and 
in Congress.
    Too many children in foster care sit waiting for permanent 
families. There are about 118,000 children in foster care waiting to be 
adopted and numerous barriers keep them in limbo. Children often bounce 
from one system to another--from child welfare, to juvenile justice, to 
mental health--as their needs intensify.
    Moreover, each year about 20,000 children age out of foster care, 
without being adopted or reunified with their parents. Often these 
youths have no permanent connection to a caring adult.
    When children turn 18, society considers them adults. For children 
lucky enough to have loving and caring parents, they have the luxury of 
turning to their parents for financial and emotional support during 
this time. Unfortunately, foster children who have aged out of the 
system do not have this luxury. These children often have no one they 
can rely on as they make this difficult transition to adulthood.
    Foster care studies have shown that in just four years after 
leaving foster care, nationwide 25 percent of aged-out youth have been 
homeless, 42 percent have become parents themselves, fewer than 20 
percent are able to support themselves, and only 46 percent have 
graduated from high school. Because they lack the support systems most 
young adults take for granted, aged-out foster care teens are at high 
risk for substance abuse, domestic violence and poverty.
    In the face of these daunting statistics and challenges, the 
problem can seem overwhelming. However, there are concrete steps we can 
take to help improve the lives of these at-risk youth.
    One of the first bills I introduced this session of Congress is 
H.R. 1376, a bill which would extend Medicaid coverage for foster 
children who have aged out of the system by encouraging state health 
coverage through the age of 21. The ``Medicaid Foster Care Coverage Act 
of 2007'' would provide health coverage for emancipated foster 
children--many of whom face daunting physical and emotional problems--
as they transition to adult life.
    I am particularly concerned about the youth on mood stabilizing 
medications. Given the fact that a number of these young people are on 
these medications to cope with their challenges, the very day they turn 
18 and society asks them to assume the obligations of adulthood the rug 
is pulled out from under them by having their access to these vital 
medications taken away. This is simply unfair and counterproductive. We 
need to rectify this situation and my bill will do that.
    Current law provides pathways that enable states to access federal 
funding to extend Medicaid coverage for youth who have aged out of 
foster care. Currently only 18 states--including my home state of 
California--take advantage of this. My bill would mandate that every 
state offer coverage under Medicaid for foster children through the age 
of 21.
    Let's give these children every opportunity to succeed. No child 
should be denied health care due to circumstances beyond their control; 
it is unfair and immoral. As you continue to debate the reauthorization 
of SCHIP, I urge you to carefully consider how my bill compliments 
these efforts and may be a salutary addition to a more comprehensive 
approach to children's health care.
    In addition, I was proud to introduce and pass a resolution, H. 
Res. 263, recognizing May as National Foster Care month. By 
highlighting this fact and bringing more national awareness to this 
issue, it will hopefully make Congressional action to address these 
needs easier and self-evident
    Finally, I am currently working on legislation to ensure that every 
child has a Court Appointed Special Advocate (CASA). CASA are trained 
community volunteers to speak for the best interests of abused and 
neglected children in court. All too often the needs of children can 
get lost in judicial proceedings and CASA volunteers are there to 
ensure that the best interests of the child are safeguarded in court 
proceedings.
    CASA has significantly grown and matured from its early roots in 
1977. In the course of the last thirty years, CASA has grown to a 
network of more than 50,000 volunteers that serve 225,000 abused and 
neglected children through 900+ local program offices nationwide.
    However, despite these impressive numbers, more needs to be done. 
We must do everything possible to ensure that EVERY child has a CASA 
volunteer. My bill, which I hope to introduce soon, will give 
incentives to states to guarantee that all children receive the special 
attention and care that only CASA volunteers can provide.
    Moreover, other Members have introduced thoughtful pieces of 
legislation that address other aspects of the problems facing these 
disconnected youth: homelessness, helping runaways, lack of educational 
opportunities, and the other myriad challenges encountered by foster 
youth.
    However, the problem will not be solved by legislation alone. There 
has to be a broader societal shift and understanding that we simply 
cannot neglect these children any longer. Until we start to think of 
these children as OUR children, progress will be stymied. Unless we 
embrace these children as our own and start to think of their problems 
as OUR problems, we will be tackling this problem with one arm tied 
behind our back.
    There are things we can do as policymakers and in our everyday 
lives to make the lives of these children just a little bit better.
    First and foremost, we must do everything possible to encourage 
adoption. There is simply no substitute for ensuring that these 
children are placed in stable and loving homes. We should support 
policies that enhance our ability to find qualified people to become 
adoptive parents and, moreover, we should find ways to financially help 
these parents who are willing to assume this responsibility.
    For the children we cannot place in permanent homes, we should do 
more to encourage people to be mentors. Mentoring relationships begun 
while foster care kids are in their mid-teens can be beneficial as the 
kids become more independent.
    There are many innovative programs that we can learn from. For 
instance, the City of Los Angeles in my home state of California has 
done some exciting work in this area and we can draw on their 
experience as we think about ways to encourage more people to be 
mentors.
    The challenge of helping foster youth is vast and daunting. 
However, if we can provide these children with the health care they 
desperately need; if we do everything in our power to place them in 
stable and loving homes or, in the alternative, help them find a mentor 
who they can look up to and learn from, we can make the lives of these 
children just a little bit better.
    There is no time to wait; these children need our help now. We must 
act now if we want to help ensure these kids a bright future and 
reverse some of these alarming and burgeoning social ills.
    I applaud this Committee for holding this series of hearings on the 
unique challenges facing our foster youth. As these hearings illuminate 
the plight of these kids, I sincerely hope we can build a consensus on 
a set of common-sense policies to help these children. Every child, no 
matter what station they may be born to, deserves a chance to be raised 
in a stable and loving home. Thanks again for holding this hearing and 
I look forward to working with the Committee on this issue.

                                 <F-dash>

    Chairman MCDERMOTT. You skipped over part of your history 
in that it is not all roses.
    Mr. CARDOZA. It is not.
    Chairman MCDERMOTT. To the extent you would be willing to 
talk about that, I think it would be useful for Members to hear 
what happens to somebody when they adopt kids. It is really 
about stories that make it so people understand what the issues 
are.
    Mr. CARDOZA. I would be very happy to tell our story. In 
fact, I have asked my children if it is okay with them to share 
their story. They understand that by telling their story, it 
may help other children, and they have asked me to do that.
    In fact, I shared with you earlier this year that they 
asked me to sponsor National Foster Care Month, and you 
graciously allowed me to take that bill to the floor, and thank 
you for that.
    The story of my children is this. They were living in a 
community in California. The children are of migrant 
farmworkers. The mother had mental health issues and 
correctional issues. She probably had suffered from some 
emotional issues that caused her to have these issues as I 
looked at the medical records that we got from the kids.
    They were placed in the care of a grandparent who had 12 
children living in a one bedroom house. The grandmother was 80 
years old. She could not take care of them, put them in foster 
care. They were removed from that home.
    They were in a second foster care family where they were 
being abused in the system. This kindergarten teacher who was a 
CASA volunteer recognized their stress and was able to get them 
to us. My wife and I had decided that we had one biologic child 
and we wanted to adopt some children. We had gone through the 
process of becoming adoptive parents.
    As we moved forward, we had a very difficult time. We are 
not people without understanding and means. We had the 
financial ability to go about the adoption process. My wife is 
a doctor, so she had the medical background and the knowledge 
necessary. Myself being a legislator, I knew how to work the 
bureaucratic process.
    Still with all that, there were significant hurdles to 
making the adoption happen. We had to fight hard. It took over 
a year to make it work. We finally got the custody and went 
through all the challenges.
    All those processes need to be examined and streamlined. 
Just getting the new birth certificates and the Social Security 
cards were significant challenges.
    To access the parental rights and all that were significant 
hurdles. If we were able to streamline that and give more 
guarantees to adoptive parents, I have a lot of my friends in 
the community who have asked me about adoption, and their 
biggest fear is going through this process, bonding with 
children, and then somehow having those children removed.
    If we can figure out a way to streamline these processes, 
that would be a tremendous advantage.
    As we move forward, I will tell you that there are 
challenges. Adoptive kids come with some baggage. All children 
have baggage. Parenting is the toughest thing that any of us 
will ever do, much tougher than being in Congress.
    The reality is, and I know from personal experience, my 
wife and I talked about this just the other day, there are 
challenges with our children, but without their having gotten a 
permanent and stable home, there would be no chance for them 
with the issues they have.
    That is the one compelling message that I would like to 
leave with this Committee today, that we have to provide the 
support and we absolutely have to do everything we can to get 
them into permanent and stable families that can then help them 
for the rest of their lives.
    I will tell you one last thing, that is there has been no 
greater joy in my life than bringing these children into our 
lives. With all the challenges and all the hurdles that we 
have, from the minute I set eyes on them through the one way 
mirror in the Social Services Department in a county in 
California, they were our kids.
    Anyone who wonders whether or not they will bond with young 
people they bring into their home, they absolutely will.
    Chairman MCDERMOTT. Thank you. Mr. Weller?
    Mr. WELLER. Thank you, Mr. Chairman, and Mr. Cardoza, thank 
you for your testimony but also thank you for your leadership 
on these issues.
    Recently, we had Michele Bachmann of Minnesota who has also 
been active on these issues before this Subcommittee. I know 
the two of you have worked together in a bipartisan way. For 
that, I salute you.
    You mention in your testimony, and I am going to ask you a 
couple of pretty practical questions here, you mentioned the 
legislation you propose, H.R. 1376, the Medicaid Foster Care 
Coverage Act of 2007, which would require States to provide 
Medicaid coverage for children that age out of foster care 
until they reach the age of 21.
    Many States currently have the authority if they choose to 
provide this type of coverage. Does California currently 
provide this coverage?
    Mr. CARDOZA. Yes, I believe they do.
    Mr. WELLER. Do you know how many States currently provide 
the coverage?
    Mr. CARDOZA. Seventeen out of 33.
    Mr. WELLER. Unfortunately, I have not checked whether or 
not my home State of Illinois does, but maybe you know.
    Mr. CARDOZA. I do not.
    Mr. WELLER. From a practical standpoint, have you scored 
this legislation?
    Mr. CARDOZA. We have not. I would ask that the Committee 
assist us in receiving a score so we know exactly how much it 
would cost. I do not think it is that expensive, to be honest 
with you.
    While our rules do not allow it to be considered this way, 
the cost/benefit analysis of making sure these kids have every 
opportunity to stay out of the system, as Mr. Stark indicated, 
while our scoring mechanism does not allow us to look at that, 
I think it certainly is important for us to think about the 
bottom line cost to Government.
    Mr. WELLER. Since we have these PAY-GO rules that our 
Committee has to operate under, have you proposed your----
    Mr. CARDOZA. I have not. I will tell you this is one that 
is God sent, and we need to do everything we can to try and 
figure out how to pay for this. I was an advocate of PAY-GO, as 
I am sure you probably were as well. We need to find this 
offset.
    The reality is this is going to be budget dust in the 
greater scheme of things, but it is important to follow our 
rules and to honor PAY-GO.
    Mr. WELLER. I look forward to seeing your proposed God 
sent. Again, thank you for your leadership on these issues. 
What I really appreciate is that you work in a bipartisan way 
on so many issues. I want to thank you for coming this morning.
    Mr. CARDOZA. Thank you.
    Chairman MCDERMOTT. Mr. Stark?
    Mr. STARK. Dennis, thank you. Thank you for sharing your 
experiences and those of your children with us.
    I think it is through efforts like yours that we can be 
encouraged to find, as you say, the budget dust, necessary for 
us to fulfill the PAY-GO requirements.
    I might just say that all of this type of legislation has 
perhaps the broadest bipartisan participation, if I can be 
allowed a little bit of political trivia.
    It is interesting to note that Tom Delay's very last 
legislative act was the Delay/Stark bill which allowed foster 
children more convenience in traveling across State lines. It 
is probably a very little known fact that Tom and his wife were 
foster parents and designed in Texas an idea of foster parents 
living in cul-de-sacs so they could share babysitting.
    Tom Delay was one of the outstanding geometry tutors for 
foster children in his galaxy. As I say, this has a history of 
working together to achieve a wonderful result. I hope this 
Committee can continue that. I certainly will work with my 
colleagues to find whatever is necessary to fund the programs 
that we think will help improve the lives of these children.
    Thank you, Mr. Chairman. Thank you, Dennis, for your work.
    Mr. CARDOZA. Thank you.
    Chairman MCDERMOTT. Mr. Herger?
    Mr. HERGER. I really do not have anything to add, but I do 
want to add in thanking you, Mr. Cardoza, for your work in this 
area. This is incredibly important to our country. There is no 
greater asset that we have as a nation than our young people.
    To see the tragedy that is taking place every day in the 
lives of so many tens of thousands of these young people who 
through no fault of their own are left out there. It is tough 
enough for the children that we raise that have two parents 
every day, as you mentioned.
    As a father of nine, what you are saying is so true. There 
is no tougher challenge we have than raising children, nor as 
you said, is there any greater joy that continues to grow than 
having children.
    Thank you for what you are doing. This is a bipartisan 
effort. It is something that behooves each and every one of us 
when we are setting the priorities in these tough budgetary 
times to find the means and make sure we can work this out.
    Again, thank you for your leadership. I commend you and I 
commend all those on this Committee who have also been very 
involved in this area. Thank you.
    Mr. CARDOZA. Thank you, Mr. Herger. If I could just say in 
response that we have talked several times about this when you 
were Chair of the Committee and all. I appreciate working with 
you.
    I wanted to make one point that I forgot in my previous 
testimony. Mr. McDermott, with your prior background, you 
probably are much more experienced to talk about this than me.
    I am well aware even based on my own kids' experience in 
foster care of the post-traumatic stress they go through and 
the problems of abandonment issues they will carry through the 
rest of their lives.
    I am told by psychological professionals that the post-
traumatic stress is greater often times than troops in the 
field of combat. If you think about it in those kinds of terms, 
it speaks to how important it is.
    We have to help these young people through this process, 
much the same way that we are responsible for helping our own 
soldiers get through their experience.
    Mr. HERGER. That point is so well made. I have a daughter 
and son-in-law who have adopted, too. These are the most 
beautiful children, as are yours, that you could ever see. They 
adopted them at a young age, relatively young age. Yet, the 
challenges that these children have had and the counseling. 
Fortunately, they are in a position to afford to have the 
counseling that they have had to help grow these children. It 
is really a major undertaking.
    As you have mentioned, any child that goes through this 
traumatic time of being without parents or being in these 
troubled homes where their parents really did not possess the 
ability to be able to give them the attention is traumatic on 
them and is something that is engraved in their minds and their 
pscyhes for really the rest of their lives.
    It really takes working through this for them to be able to 
become the active, productive young people that they can be.
    Again, thank you. Very important.
    Mr. CARDOZA. Thank you.
    Mr. HERGER. Thank you, Mr. Chairman.
    Chairman MCDERMOTT. Mr. Lewis?
    Mr. LEWIS OF GEORGIA. Thank you very much, Mr. Chairman. 
Mr. Chairman, I do not have any questions, but I want to thank 
our friend and our colleague, Mr. Cardoza, for being here 
today, for his leadership, for his commitment and dedication, 
and for telling his story. I admire you, my friend, for doing 
something I call from time to time getting in the way. Continue 
to get in the way. Thank you.
    Mr. CARDOZA. Thank you. You told my son that one day on the 
Floor of the House, on the day of the Voting Rights Act bill. I 
do not know if you recall that.
    Mr. LEWIS OF GEORGIA. I do recall.
    Mr. CARDOZA. He thinks very highly of you, Mr. Lewis, and 
so do I. Thank you for your State.
    Chairman MCDERMOTT. Mr. Camp?
    Mr. CAMP. Thank you, Mr. Chairman. Thank you, Mr. Cardoza, 
for your testimony and for what you and Kathy are doing. It is 
tremendous. I do think, as we talk about foster care, adoption 
is such a critical part of the solution. Thank you for doing 
that and having been involved in these issues for a number of 
years. I am very impressed with what you have done.
    I do think there is an area that we need to look at, and 
that is when children are languishing in foster care, it is 
something that we have all tried to deal with. Obviously, this 
hearing today and your bill is an attempt to make that a little 
bit easier.
    I also think we have to look at the issue of when children 
have relatives in another State that are willing to take the 
kids but often are overlooked because of the laws. That is 
something that I think we need to address so that we can keep 
family members together, when there are suitable and willing 
family members available. I hope that is something that we can 
look at.
    Again, thank you for being here. Thank you, Mr. Chairman.
    Chairman MCDERMOTT. Mr. Meek?
    Mr. MEEK. Thank you, Dennis.
    Mr. CARDOZA. Thank you.
    Chairman MCDERMOTT. I just want to say in response to what 
you said about the post-traumatic issues for youngsters, I was 
the consultant at the Juvenile Detention Clearinghouse for the 
State of Washington for about 7 years.
    One of the standard questions you ask young kids is tell me 
your three wishes. I never met a kid whose first wish was not I 
want to go back to my mother. No matter what the chart would 
show me about the place they came from and what they had been 
through, that still was there and it never went away. I think 
you are absolutely correct, that is why you deal with the 
issues as long as you do.
    It is a pleasure to have you here and thank you very much. 
We will do what we can to improve the situation.
    Mr. CARDOZA. Thank you.
    Chairman MCDERMOTT. For our next panel, we are very 
fortunate to have four young people. Come on up.
    [Applause.]
    These are young people who have navigated their way through 
the foster care system. Three of them are represented by 
Members of this Committee, so I would like to recognize Mr. 
Weller, Mr. Lewis, and Mr. Meek in a moment to acknowledge 
them.
    I also want to thank the National Foster Care Coalition for 
helping three of them make the trip to Washington, with special 
thanks to the ninth grade social studies class at North Eugene 
High School in Eugene, Oregon, which made a donation toward 
their travel.
    We will start with Tyler Bacon of Florida. Mr. Meek?
    Mr. MEEK. Thank you, Mr. Chairman. Being the only Member 
from Florida, I get the opportunity to introduce Mr. Bacon.
    Tyler is at the age of 22. He lives in Jacksonville, 
Florida. He was abandoned by his mother. Tyler entered the 
Florida foster care system at the age of 13. He struggled 
through a series of group home placements and never formed a 
supportive attachment needed for his success in life after 
foster care.
    Homeless at 18, jobless and faced with many medical bills, 
Tyler is successfully overcoming these early difficulties. 
Tyler just secured an apartment a few weeks ago after 
approximately 1 year of being homeless. Today, he sits on local 
State and national boards working to improve the foster care 
system.
    His dream is to become a national public speaker for the 
improvement of foster care and 1 day starting a mentor program 
for kids and youth in care.
    Tyler was selected to serve as a Foster Club All American 
in 2005 and is a board member of the National Independent 
Living Association. He is a member of the National Foster Youth 
Advisory Board.
    He was recently promoted to manager at Blockbuster. Hook me 
up.
    [Laughter.]
    He enjoys running, playing basketball, and participating in 
flag football tournaments.
    Mr. Chairman, as it relates to Tyler, we just met when we 
walked in the room. We tried to get together earlier today. I 
am glad, as I said in the past, that he is here along with the 
other young people that are here to share their personal 
stories, to be able to help us legislate and stand up for 
children and young people that are going through the system 
now.
    Thank you for being here before the Committee.

               STATEMENT OF TYLER BACON, FLORIDA

    Mr. BACON. Thank you. Mr. Chairman, Ranking Member Weller, 
and Members of the Subcommittee, thank you for allowing me to 
come speak to you and share my experience of the foster care 
system, my knowledge and expertise on foster care.
    My name is Tyler Bacon and I am 22 years old. I entered the 
foster care system at the age of 13. I remember the day I 
entered as if it were yesterday. I was in a court because we 
were going through some family therapy. I remember the judge 
asking my mother what she wanted to do with me. My mother 
responded this is not my child, I do not want anything to do 
with him and I do not care what happens.
    He paused, looked over at my father and asked my father 
what he wanted to do. I turned and looked at my father as he 
said nothing, no response, not standing up for his own son and 
not knowing what to say or how to respond.
    That day, I was placed in the foster care system.
    While in the foster care system, I grew up in several group 
homes, attended several high schools and educational programs 
to try to succeed. While in the group homes, I was with 20 to 
60 other young men at one home with staff, five per home. Under 
staffed and not able to ask questions or get the proper 
assistance that I needed to be able to learn how to be a 
successful adult, I struggled through the group homes.
    I did not know what to ask. I did not know how to ask, how 
to become a man, how to become an adult, what I needed to know 
when I turned 18. I thought when I turned 18 that I was going 
to be prepared. I thought I was going to be ready. I was 
looking forward to my 18th birthday, because I was finally 
going to be on my own and I was finally going to be a man.
    My 18th birthday was the scariest day of my life. On my 
18th birthday, I thought I was going to have a good birthday. I 
woke up to see my bags packed and told I was too old to be in 
the foster care system. I was an adult in the State's eyes, 
that I had to go.
    I had nowhere to turn. No family. No friends. Nothing. 
While in the foster care system, I was not able to connect with 
a family. I was told I was unadoptable. No family wanted me 
because I was too old and I had too many family issues.
    On my 18th birthday, instead of a cake, I was walking to a 
homeless shelter so I had somewhere to live. I struggled but I 
was determined to be successful and get back on my feet.
    While I was homeless, I was still in high school, afraid to 
tell someone I was homeless because I was afraid they would 
kick me out of school and I would not finish my education. I 
was determined to succeed and graduate.
    I finally graduated in 2004 in the top 5 percent of my high 
school. Determined. I was finally able to get back on my feet 
and achieve my own apartment and have a house to call my own. I 
still struggled, still had obstacles that I had to face.
    I did not know how to do anything. I did not know how to 
pay bills, how to budget, basic stuff that normal every day 
people take advantage of. I did not know how to be a man and 
how to be a successful independent civilian in society.
    Again, because of financial issues, I needed someone to 
turn to. This caused me to want to turn back to my bio family, 
the family who gave me up. I thought everybody is talking about 
if you ever need help, you can turn back to your family. I 
tried to reconnect with my family but nothing changed.
    They still did not want me. In an altercation and a 
confrontation with my family, I was stabbed, ended up in the 
hospital having immediate surgery. Given that situation, I was 
unable to work. I was unable to pay for my bills, and I ended 
up once again homeless, evicted from my apartment because I was 
not able to pay my bills and I had no one to help me.
    I had no family to turn to. I had no one to go home to. I 
had no one to help me get back on my feet. Again, I was 
homeless.
    I struggled for a year, bouncing from friend to friend, 
whoever would let me stay, ending up in a hotel. I had nowhere 
else to go. I had to pay for my own hotel so I had a roof over 
my head while I was working at minimum wage at a part time job. 
The hotel cost me $1,200 a month, unable to save up some money 
to find my own apartment or fix the eviction notice that I had, 
to be able to pay off that.
    I had nowhere else to go. Fortunately, I had family and 
friends within the foster care system. My brothers and sisters 
that I looked to that are foster youth, I looked to them as 
brothers and sisters.
    They financially helped me and gave the opportunity to get 
back on my feet. They gave me financial support a family would 
give me and helped me get my own apartment. Again, I am 
thankful for them.
    There are a lot of issues. No foster youth should have to 
go through the struggles that I went through in life. No one 
should have to go through these struggles.
    People in a family setting take advantage because they are 
able to go back to their family in times of economic need. If 
something were to come up, people who grew up in a family 
setting would be able to go back to them and live in that home.
    Foster youth do not have that family to turn back to. 
Instead, we fall back on homeless shelters, jail systems, or 
potentially if you are able to financially afford it, hotels.
    I ask and I push for Congress to take action now. I ask for 
simple things. I ask that we look into extending foster care up 
to the age of 21.
    I ask that because when you are 18, you are still 
struggling to learn how to be an adult, how to financially 
support yourself and take care of yourself. Most people who are 
18 are still struggling through high school, not yet graduated, 
and we look at our success, the foster youth success of 
graduating and it is very, very low.
    This is because we are forced out at the age of 18 and 
struggling to maintain our own lives. Education is not our 
first priority. Our life and our shelter is our first priority.
    I can say that from experience. I have yet to attend 
college because my main priority was to get on my feet and find 
shelter for myself.
    I also ask that we help provide health insurance up to the 
age of 21. Most youth who live in a family setting still 
receive health insurance through their parents' medical 
insurance up to the age of 21. I ask just because we are foster 
youth, why should we not receive the same?
    I also ask that we push for permanency for all youth in the 
foster care system. I ask that we try our best to set foster 
youth up with family. Family is a very, very important thing. I 
ask if we cannot find a family for them, we find a successful 
mentor to help them through the obstacles that everybody faces 
in life.
    Permanency is having someone to talk to and you do not need 
an appointment to talk to them.
    I ask Congress, when you look into the issues that foster 
youth face and look at what we need to change, I ask you to 
look at yourselves and ask what would you do if we were your 
child? If we were your child, would you help us and provide us 
with medical insurance, financial stability, and opportunities 
for us to be able to succeed in life?
    We do not ask for much. We just ask to be treated like 
every other kid.
    Thank you.
    [The prepared statement of Mr. Bacon follows:]
               Prepared Statement of Tyler Bacon, Florida
    Chairman McDermott, Ranking Member Weller, and members of this 
Subcommittee, thank you for allowing me to appear before you today on 
behalf of the thousands of children and youth in foster care who can 
not be here in Washington to share their stories and to ask you to take 
action to help them.
    My name is Tyler Bacon and I am 22 years old. I entered Florida's 
foster care system at the age of 13. I was placed in care after my 
mother told a judge I was not her child and she wanted nothing to do 
with me. Abandoned to the foster care system, I grew up in group homes 
with between 20 and 60 young men. I was never given the opportunity to 
enter a Foster Home or build a relationship with a mom or dad. I never 
had anyone to talk to or go to for my problems, no one who cared when I 
had an issue.
    At the age of eighteen I was told I was an adult and I aged out of 
the system. I ended up homeless on my 18th birthday. I had a bigger 
plan for myself, however, and I was finally able to get on my feet and 
get my own place.
    With no other people to call family, at age twenty one I tried to 
reconnect with my bio family, but nothing had changed. They still did 
not want me in their lives. The strain of the relationship led to an 
argument with a family member in which I was stabbed. I ended up in the 
hospital with no health insurance, adding to my financial strain. After 
being hospitalized I was unable to return to my warehouse job as I 
could not do the heavy lifting required by the position. Because I 
could not work and had no family support, I found myself evicted and I 
ended up homeless once again. I stayed with friends as long as possible 
because trying to get my own apartment proved too difficult. Even 
though I had access to housing funds from the state to help pay for an 
apartment, landlords didn't want to rent to a young adult with an 
eviction on his record and I could find no one to co-sign or help with 
the application process.
    Because I had nowhere else to stay, I ended up in a hotel for four 
months. While this arrangement kept me from staying on the street, it 
was impossible to save money due to the expensive rate of $1,200 a 
month, and an impossible arrangement to maintain with my minimum wage 
job.
    The good news is that after a year of homelessness, I was finally 
able to save enough money to rent my own 1 bedroom apartment. I moved 
in last month. I am now employed full-time as a manager with 
Blockbuster Video and am excited that I once again am able to spend 
some of my time advocating for improvements of the foster care system.
    I take this opportunity to ask you to consider these goals for the 
foster care system to improve the odds for the thousands of young 
people who will celebrate, or fear, their 18th birthday this year:
1. Extend foster care until age 21
    Foster youth deserve the same resources, tools and support that 
parents provide for their own child. The state serves as our parents. 
We are looking to policy makers to provide the safety net a family 
provides. By terminating assistance at age 18, the state abandons youth 
at a time when they are still in great need of supervision and support. 
My story is a single story which approximates the struggle facing over 
20,000 of my peers this year alone.
2. Provide health coverage until age 21
    I urge Congress to extend health insurance to all youth from foster 
care to age 21. Medical expenses to young person struggling to 
establish independence can be crushing. In my case, medical bills have 
proven to be a grave obstacle to establishing myself.
3. Make permanency a priority for all youth
    Most importantly, I urge Congress to provide states with the 
incentives and flexibility in financing to assure that everything is 
done to provide permanence for young people before they leave foster 
care. We need more funding to help former youth get into a family 
setting. We must provide older youth with the lifelong support a family 
grants their own child. Foster youth are place in the system for their 
best interest. How is their best interest looked after if we are 
sending them unprepared into the world, vulnerable, and with no safety 
net?
    I believe the hardships I faced through my emancipation from foster 
care were avoidable. If I had experienced some form of permanency in my 
life before I left care, I know my transition would have been easier. 
Permanency is having someone there to help you when you need it, 
someone you don't need an appointment to talk to. Permanency is having 
someone to lean on for support when obstacles come your way. Without 
some permanency, many foster youth face desperate options like 
homelessness, shelters, jail, or if they are fortunate to be employed 
like me, temporary and unstable refuge in hotels.
    I am determined to succeed despite the obstacles that have been 
placed in my path. But I implore members of Congress to act now, to 
make changes to improve the odds for my 513,000 younger brothers and 
sisters coming up through the system.
    Thank you for the opportunity to share my story and thoughts with 
you.
            Respectfully,
            Tyler Bacon

                                 <F-dash>
    Chairman MCDERMOTT. Thank you very much. Mr. Lewis, would 
you like to introduce Mr. Reeves?
    Mr. LEWIS OF GEORGIA. Thank you, Mr. Chairman. First of 
all, Mr. Chairman, I want to thank you very much for holding 
this hearing today.
    I am particularly proud and pleased to introduce Mr. 
Anthony Reeves from Atlanta, Georgia to the Committee. Mr. 
Reeves is a survivor, a leader, an inspiration to many in my 
district, the State of Georgia, and across the country.
    Mr. Reeves entered the Georgia foster care system at the 
age of 11, when his grandmother was no longer able to care for 
him, and his mother could not be found. While in foster care, 
Mr. Reeves lived in five to six different foster homes and 
shelters before finally receiving permanent placement and 
stability with Families First, a non-profit agency in Metro 
Atlanta that offers individuals family counseling.
    Blessed by the support and guidance of two mentors, Mr. 
Reeves grew stronger and upon completing high school, he earned 
an associate's degree in electronic engineering from DeVry 
University.
    He now works at Families First as a relief parent, where he 
gives back to children in the same way that his mentors did.
    Mr. Reeves is also an intern consultant for the Supreme 
Court of the State of Georgia, Office of Child Advocacy, and he 
works with Metro Atlanta Youth Opportunities.
    Last year, the First Lady of Georgia selected Anthony to 
help institute policies for foster care parents and foster care 
agencies. A few months later, Mr. Reeves was selected as a 
FosterClub All-Star. He now travels throughout the country as a 
foster care advocate and helps speak on behalf of youth in 
foster care.
    Two months ago, he was more than lucky but blessed to be 
recognized by the Georgia State legislature who passed a 
resolution commending his work with foster care.
    He is in the process of starting his own music group and 
music label and will focus on everything from rock and roll to 
rap. He is working on a Bachelor of Science in electronic 
engineering.
    Mr. Reeves finds time to volunteer with a youth counselor 
that I have for the young people in my district in Atlanta.
    Mr. Reeves, we are thankful that you are here today and we 
look forward to your testimony.
    Chairman MCDERMOTT. Mr. Reeves, thank you for coming.

              STATEMENT OF ANTHONY REEVES, GEORGIA

    Mr. REEVES. Thank you, Mr. Chairman, and the Subcommittee, 
as well as Mr. Lewis and others, here in D.C. as well as in 
Atlanta.
    My name is Anthony Reeves. I am 23 years of age, actually 
24 now. I as well as some of my peers here, we have the 
experience of the foster care system. We work for it and we 
have also been through it. We understand everything that goes 
along with the foster care system.
    Growing up is a big challenge for everyone. I am pretty 
sure like a lot of you had your parents gritting their teeth 
because when transitioning out, they do not know if you are 
going to sink or

swim, but they were still there to back you up. Even when going 
through your teenage phases, they still held on strong and they 
loved you and everything.
    Often we as foster youth, we are misunderstood when we go 
through our normal teenage phases, and sometimes we are either 
put on medication, just to calm us down, or ``calm us down,'' 
and that kind of takes away from the childhood experience. You 
are supposed to be kind of like out there but not too far.
    When transitioning out into life on your own, your parents 
are there to help you fill out those different applications, 
make sure that you are buying the correct car. I know I have 
ran through a couple of cars because I did not know what to 
buy. They are even there if you need food or if you want to go 
back and stick your hand in the refrigerator, you can grab food 
out of their refrigerator.
    We do not have that option. We do not have that luxury of 
like going back to our parents because we are in the foster 
care system. We cannot go back to our biological families.
    When we transition out, we are basically just put in the 
basic survival modes, fight or flight by any means necessary.
    I spent 12 years in foster care. After being abandoned by 
my mother, I was sent to live with my grandmother. At the time, 
she really was not able to care for me. I guess I was kind of 
like out of hand too much for her. She had already raised one 
so she could not go through another one.
    I was sent to a shelter. Upon entering the shelter, it is 
almost like being sent to a jail because when I walked through 
those doors, I heard the door shut and lock behind me meaning I 
could not go back out. It gave me a fear of being in enclosed 
spaces.
    The first couple of years, I moved around a lot. I went 
from shelter to foster home to foster home to shelter. It is a 
lot of different placements. Each time when moved around, you 
feel like you are being rejected by these different people and 
you really did not have anything to do with why you are in the 
system. You really do not understand, and sometimes we just 
buildup a big barrier, a big wall, we do not want to deal with 
anybody at all.
    I finally found placement, permanency, in a group home. I 
found stability. I found a whole lot of brothers. That is what 
we called each other, we called each other family. I called 
them my family.
    I still had not seen my brother for quite a bit of time, 
and that is even before I was sent in the system. I had not 
seen my brother for like probably three or 4 years. Just to let 
you know how valuable or how important that is to me, the times 
I could remember living with my mother, I was basically a 
father figure to my little brother.
    I would clean up the house. I made sure he had something to 
eat. I cleaned up everything from the dishes to even picking up 
drug needles and pipes so that he would not stick himself or 
put his mouth on it because he was just a little baby. At the 
time, I was only like five or something like that.
    As I transitioned, as I grew up, my social worker there, he 
finally took the time, he said I am going to go ahead and find 
your little brother for you. He did all the research and work 
and come to find out, my little brother stayed a couple of 
exits down the highway from me. It was kind of crazy because we 
were both in the same system and he only stayed a couple of 
exits down, and I had not seen him for at least 4 years.
    Me not seeing my brother is like you not seeing your son or 
seeing your daughter or someone like that. It did not make too 
much sense to me. That is when I found out the value of 
siblings being together, sibling separation.
    I was lucky enough to have different mentors as well as the 
social worker to instill in me to keep going to school and go 
on to college. I did not like school or whatever.
    When I was transitioning out, I had to make a choice of 
like college, like most people, they choose what is the best 
college to go to. My decision was based on who offered year 
round school. Let me tell you, I did not like school at all.
    To try to figure out who has year round school was hard in 
itself because of the fact if I chose a traditional college 
that had summers off, that means I had to find some place to 
stay during the summer or else I would be homeless, and I have 
an extreme fear of being homeless.
    Besides that, I really wanted to go to Georgia Tech because 
of the fact that I love basketball and I wanted to play 
basketball. During the summertime, what was I going to do then.
    I chose to go to DeVry because I loved electronics as well. 
I obtained my associate's degree and I kind of transitioned out 
with the help of my mentors and through like a program with 
Metropolitan Area Youth Opportunities Initiative, I was able to 
get my apartment. That was a big ordeal in itself. My mother 
had like past due bills in my name. When I go to get my 
electricity and stuff turned on, I had these high deposits as 
well as a past due bill of $150, and I did not know.
    I was kind of stuck. That almost left me homeless. If I had 
not had my mentors there to help me through my financial 
crisis, I would be stuck on the streets because of the fact 
that I could not afford the $179 deposit plus the $150 past due 
payments and everything else that goes along with that. 
Luckily, I had that support.
    When my brother grew up in the system, he really did not 
have those supports. Nobody told him that he could go to 
college or what have you. When he turned 18, he had his bags 
and left. He was homeless for a good bit of time.
    I let him stay with me at the college which was against all 
policies there. Eventually, it was like fight or flight. He 
ended up in jail for doing some things that he needed to do to 
survive, and even during that time, he fathered a child. She's 
beautiful. She always calls me uncle.
    I guess what I would like to say today is that this 
decision or any decision that is made today will not affect me, 
it will not affect Tyler, because we have already transitioned 
out, but for our 20,000 other brothers and sisters that come 
behind us, we would like to see them have a very successful 
transition.
    I believe we are obligated to help them because of the fact 
that we did not ask to be put in these situations. When you 
drop your little kids off at the day care center and they are 
grabbing and screaming and pulling on you, that just symbolizes 
they do not want to be taken away or they do not want to be 
separated from you.
    We did not want to be separated from our families. We 
wanted that connection. For many of us in foster care, we spent 
our whole lives crying for that connection.
    Some things that we could do is extend foster care to the 
age of 21. I watch the news often. A lot of times you see like 
when a youth does something bad, they say if there was 
something that I could do to help him, I would have done it. 
This is something you can do, to help the youth, so you do not 
have to say that, if I could have or what would happen if I 
would have.
    I just appeal to extend the support service to age 21 for 
all our young people in foster care. I would like the States to 
have more flexibility and Federal funding to support families 
who stay together and can share placement and recruit caring 
foster parents and encourage adoption while establishing 
permanency for youth.
    I ask that you also help siblings to stay together because 
that is a big deal for me.
    Thank you.
    [The prepared statement of Mr. Reeves follows:]
             Prepared Statement of Anthony Reeves, Georgia
    Chairman McDermott, Ranking Member Weller, and members of this 
Subcommittee, thank you for allowing me to appear before you today on 
behalf of my brothers and sisters in foster care who need your help to 
make a successful transition from foster care to adulthood.
    My name is Anthony Reeves. I am 23 years old and live in Atlanta, 
Georgia. I have worked with the First Lady of Georgia, instituting 
policies for foster parents and foster agencies through the First 
Lady's Children's Cabinet and Project Embrace. In 2006-07, I was 
selected to serve as a FosterClub All-Star intern, traveling the 
country to motivate and educate my younger peers in foster care. Now I 
work for Families First as a Relief Parent (the same organization I 
grew up with), and with Metro Atlanta Youth Opportunities Initiative 
(M.A.Y.O.I.), an organization that helps current and former foster care 
clients that are transitioning out of the foster care system. I am 
working with Georgia's Supreme Court bettering life for youth 
transitioning from foster care. I am also in the process of starting my 
own music label and music group.
    Growing up is a big challenge for everyone; you have your 
rebellious stages and your experimental stages, which I'm sure had many 
of your own parents gritting their teeth--but your parents were always 
there to forgive you. And then when you get ready to transition out of 
their home into a life on your own, you know that they are going to be 
there to help you with your rental applications and job applications, 
moving in to your first apartment and giving you the old pots and pans 
and the couch from the family room, just little things that make a big 
difference. Most importantly, your parents are there for you to make 
sure that you have food or to help if you need transportation or can't 
figure out how to run the dishwasher. Whether the challenges are big or 
small, your mom or dad will try and help you.
    Growing up in foster care is so much harder because when we foster 
youth go through our normal teenage phases, we are usually living with 
people who do not know us very well, or we might even be in a placement 
where our caretakers or staff may be quite disconnected from us. We are 
often punished for doing the things that most teenagers do, and may 
even be put on medication as a means to calm us down or as a 
consequence.
    Then, when we are transitioning out of care into a life on our own, 
we have to be nothing short of perfect, because we don't have our 
parents to help us move in and show us how to fill out applications. 
Most of us aren't allowed to get a drivers license, so we are stuck 
without transportation if we are in rural areas. Life is tough because 
we are really put in the most basic of survival modes, ``fight or 
flight,'' ``by any means necessary.''
    I spent 12 years in care. I entered foster care after being 
abandoned by my mother and having a grandmother unable to adequately 
care for me. The first couple of years I moved around a lot and led a 
very lonely and unstable life growing up. Then I was placed in a group 
home which was bitter sweet. I found some stability, but I lost all 
contact with my little brother for who I served as a parent to during 
our younger years. During that time, I would clean the house, do 
dishes, make sure we had food, and even cleaned up drug paraphernalia 
to make sure the home was safe for us. I was only 5 years old.
    It took the social worker of the group home--now a mentor and 
permanent father figure in my life to me--to finally do everything in 
his power to locate my brother. After a diligent search by mentor, I 
came to find out my brother had lived just a few exits down the highway 
from me for at least three years. When I finally found my little 
brother, I began to understand the importance of staying connected to 
my sibling.
    With the support of my mentor, I was motivated and encouraged 
enough to graduate high school and go on to college. After high school, 
I had to make a choice of which colelge to attend. Unlike most youth or 
teenagers who transition out of their family's house, their decision is 
mainly based on who has the best school. Mine, on the other hand, was 
based on who offered school year round. The reason? If I went to a 
traditional college then I would have to worry about where I was going 
to sleep for the summer (I have an extreme fear of being homeless). It 
was a tough decision, because in addition to a talent a technology, I 
also had a love for basketball and I really wanted to wear the gold and 
black colors for Georgia Tech.
    I achieved my Associates degree at DeVry University and now I am 
working on my Bachelors degree in Electronic Engineering. I have my 
apartment--which was drama in itself--because I was unaware and ill 
prepared for the expenses that come with getting your first apartment, 
and because my biological mom has past due bills that she had placed in 
my name. These challenges almost left me homeless. With the help pf my 
mentor, I was able to overcome these obstacles and get my own 
apartment.
    However, when I re-connected with my brother, I realized how truly 
dangerous transitioning is for some foster youth who cannot make their 
way safely to adulthood. Some of us get lucky and can find the support 
and resources we need when transitioning out of care, but some of us 
don't.
    When my brother transitioned out at 18, he had not found the 
stability I had found or connected with supportive adults in his life 
that could provide the type of mentorship that I relied on. With no 
guidance, he never attained his high school diploma or G.E.D. He 
fathered a child. From there, things kind of fell apart for him, and 
then he became homeless. With a criminal record and no education, it is 
now almost impossible for him to get a decent job.
    We are two brothers in foster care with different experiences and 
luck and very different outcomes. What is important to me now is not to 
take chances with all my other brothers and sisters--about 20,000 this 
year alone-- transitioning out of foster care. While my transition 
won't be affected, I hope to improve the odds for successful 
transitioning for all foster youth coming up behind me.
    Changes must be made because we, young people in foster care, do 
not ask to be put in the system. When you drop your child off at the 
day care, they usually cry their lungs out, signifying that most 
children don't want to be away from their family. For many of us in 
foster care, we spent our childhood quietly crying for family. Life is 
tough enough when transitioning out of care, and it is even tougher if 
you don't have the support that you need from people who care about 
you, or if you don't have resources and skills packed along with the 
rest of your belongings as you are shown out the door.
    The child welfare system--the people who decide to place us in 
foster care for our own good--have a responsibility to help guide us 
into a stable adult life. I think that if we were able to receive 
support up until age 21, or even until we finish a college education or 
a training program, that transition to adulthood would be way more 
successful for many of us.
    I appeal to Congress to extend support services to the age of 21 
for all young people in foster care across the country. I recommend 
that Congress extend eligibility for the Chafee Foster Care 
Independence Program to youth under age 25, which should include 
eligibility for room and board and for education and training vouchers.
    It is also my dream that every young person in foster care is 
provided with support from adults in their lives like I was. I believe 
it made all the difference in my life, and led to the divergent paths 
between my brother and me. I would like states to have flexibility in 
federal funding to support families staying together in the first place 
or to reunite families that can safely and healthily be back together. 
Flexible funding could support kinship placement for children within 
their families, recruit caring foster parents, and encourage more 
adoptions--establishing permanency for our youth. Providing states with 
more flexibility in federal funding would help families stay together 
or be created--so siblings, like my brother and me--could walk the same 
successful path to adulthood together.
    Thank you for opportunity to speak with you today.
    Anthony Reeves

                                 <F-dash>

    Chairman MCDERMOTT. Thank you very much. Nicole Dobbins is 
from my area of the country. You have already been introduced 
by your school that gave some money to get you here, and we 
welcome you here.
    Nicole has been in and out of foster care for six years. 
She is 24. In June 2006, she graduated from Oregon State with a 
Bachelor's degree in exercise and sports science.
    I suspect you are an athlete more or less. We welcome you 
here and it is your turn to tell your story. Thank you for 
coming.

              STATEMENT OF NICOLE DOBBINS, OREGON

    Ms. DOBBINS. Chairman McDermott, thank you for making us so 
welcome. Ranking Member Weller and Members of the Subcommittee, 
I thank you for hearing my testimony on behalf of the 24,000 
teens aging out of the foster care system each year.
    Good morning. My name is Nicole Marie Dobbins. Like 
Chairman McDermott said, I am 24 years old. I am a former 
foster youth and a life long resident of Portland, Oregon.
    I spent a total of 6 years on and off in the State foster 
care system, entering at the age of two with my younger sister, 
due to my mother's drug addiction and inability to care for us.
    My sister and I were reunited after a couple of years with 
my bio mom, but only to be put back in foster care at the age 
of 14 due to other issues, and again, drug abuse on my mother's 
behalf.
    Foster care is where I remained for the next 4 years until 
only 1 day after graduating high school, I was kicked out of my 
foster home, a place I had been living in for 2 years prior. I 
was forced to hand over my key with no explanation of what was 
going on other than now I was 18, graduated, and not allowed to 
stay any longer.
    I did not attend any closing court hearing nor did I 
receive any farewell from my caseworker. I recall having a 
meeting a week or so later in which they asked me what I 
planned to do, as if I were to have all the answers at that 
time.
    This is how I exited the foster care system, and on that 
note, I was expected to be an adult. Sadly, the State played no 
active role in my transition. I was 18 years old and homeless, 
without any permanent connections to adults in my life, I had 
no one and there was no one to understand my struggle. I was 
forced to find a way all on my own.
    The difficult part was not that I was homeless or that I 
was kicked out. The difficult part was I thought I had found 
someone in my foster mother that would be there for me beyond 
foster care and be there for me in the long run through trials 
and tribulations.
    I was wrong, and now I had to figure it out on my own. At 
18, I was not prepared for the loss of adult support.
    Growing up in and out of the system provided me with little 
stability and poor connections to people who cared about me. I 
left foster care hurt and angry. I longed for someone to be 
that person I could rely on. I longed for a healthy family. I 
longed for what every child longs for. I longed to be loved.
    I found hope and stability and education because when I had 
nothing else, I always turned to that for an escape.
    When I was only 10 years old, I was in the fourth grade. I 
knew I wanted to go to college, not because I wanted to be 
anything special or because of any one particular thing 
fascinated me. I wanted to go to college so that I could 
support my family and be a role model to my younger sister. 
Mostly, because I did not want to end up like my mother.
    I knew I had to take a path my mother did not. She never 
graduated from high school, which made me the first in my 
family to get a high school diploma.
    At the age of 18, I made the transition from foster care to 
what caseworkers call ``independence.'' With the plan in mind 
to attend college, I was accepted into Oregon State University. 
However, there was one huge problem. I was now a graduate of 
high school and homeless.
    It was only June and school did not start until September. 
Before I would ever see college, I had to get through the 
Summer. It was a struggle that I managed to tackle.
    In some ways, education saved my life. I felt very blessed 
to have my financial needs for school met. I am thankful for 
the resources such as Chafee educational training vouchers, 
which was a huge help to me and lessened my stress in receiving 
that each year.
    However, these resources were not given to me at the time 
of transition. I had to seek them out after my sophomore year 
in college.
    Education alone was never enough. I was a freshman in dorms 
with many new friends and excited about the opportunity to 
start a new life. Externally, I appeared to be happy, but what 
I kept from everyone was how I felt inside.
    I was sad and lonely and hurting and often cried myself to 
sleep. I was too scared to ask for help and too proud to say I 
needed any. My peers did not understand me. They had family 
visiting and care packages arriving when I barely had people 
calling and checking in on me.
    It was not long before I was diagnosed with depression. I 
dealt with depression without any medication because I had no 
health coverage. I was diagnosed by the Student Health Services 
and allotted five free counseling visits based on the student 
health fees that I paid to go to Oregon State.
    I purchased a month's worth of medication but chose not to 
take them based on knowing that I would not have the financial 
commitment to continue the education, so I did not want to 
cause more harm to the depression than already was there.
    I am one of the youth that could have benefited from 
Representative Cardoza's bill for health insurance to be used 
in foster care. That is something I would like to see put in 
place so that youth like myself will not have to struggle as 
much as I did.
    Take this journey with me, as I recall one of the hardest 
times in college. Being kicked out of the dorms for the 
holidays. Thanksgiving came around and I did not realize I was 
going to have to leave until a week beforehand. My new friends 
all had family plans and I was not about to be anyone's burden 
by asking to join.
    On holidays, I waited. I waited to be asked over to 
friends' houses. Looking back, I was thankful that I always was 
asked. Now I cannot help but wonder and I hope you do, too, 
where do youth go when they do not get asked?
    I owe great gratitude to organizations such as FosterClub 
and the National Foster Care Coalition for offering an outlet 
for me to make change in the child welfare system.
    Before my work with FosterClub, I never heard of 
permanency. I have now learned what permanency means and 
because of that, I have been given the chance to establish it 
in my own life.
    Permanency just does not appear. It is nurtured. As foster 
youth, we do not know what healthy relationships look like. It 
is up to someone to teach us.
    I have been given the divine opportunity to change child 
welfare professionals around the importance of permanency, as 
well as share my own experience with thousands of foster youth 
around the Nation because of these organizations.
    Now I have acquired a huge network of supportive people in 
my life and I can honestly say that today, I would not be 
sitting here a college graduate, an educated professional, 
without the support and love from adults currently in my life.
    I pose this question or these questions. What about the 
youth currently in care scheduled to transition without 
permanent families, without support, without health care, 
without education, and without a plan or worse, without anyone 
at all?
    What will we do for them? I want to remind you this is only 
my story.
    I want to thank you for listening to my testimony and I 
want to thank you on behalf of all the foster youth 
transitioning. You have the chance to make a difference. I just 
want to thank you again for hearing us.
    [The prepared statement of Ms. Dobbins follows:]
              Prepared Statement of Nicole Dobbins, Oregon
    Chairman McDermott, Ranking Member Weller, and members of this 
Subcommittee, thank you for allowing me to appear before you today on 
behalf of the 24,000 teens who will age out of foster care this year 
without a family or the supports and services they need to make a 
successful transition to adulthood. I hope my story helps inform the 
subcommittee on ways that Congress can improve the system.
    My name is Nicole Dobbins. I am 24 years old and a lifelong 
resident of Portland, Oregon. At age 2, I entered the State foster care 
system. I was reunited with my biological family only to reenter the 
system again at the age of 14. While in foster care, I adjusted to my 
new living arrangements and persisted with my studies until I became 
first in my family to graduate from high school. My sights and hopes 
were set on a college degree. Applications made, I was accepted to 
Oregon State University and looking forward to beginning my freshman 
year in higher education.
    Then, my great shock: at age 18, only one day after graduating high 
school, I was kicked out of my foster home without warning. My 
relationship as a ``ward of the State of Oregon'' was over. This is how 
I exited the foster care system. Sadly, my state played little role in 
my transition, although I was very grateful to receive Chafee 
Educational And Training Voucher funds for college. I spent my senior 
year in high school focusing on my studies and had not focused on what 
life on my own would be like. I had made no preparations. I had little 
support and no place to call home.
    Age 18, college bound, and completely on my own, I made my way to 
college. I found myself in a new place with no one I knew. I had little 
guidance for what the process of college was like and how lonely my 
journey was going to be. The most difficult part of it all was that I 
had no connections to any supportive adults in my life. I had no 
relationship with my biological family and my only sibling stayed in 
the same foster home I was kicked out of, which made it difficult to 
stay in contact with her. I was focused on school, but I soon learned 
that life for an 18 year old wasn't easy without support. School was 
hard; I was lonely, and very unhappy.
    As a sophomore I was diagnosed with depression. I had no health 
insurance and worse off, I had no one to turn to. The only support I 
had was from my peers, who couldn't help or offer the support I needed. 
For the most part they just didn't understand. I was feeling like my 
life had no direction, and no purpose. Being depressed in college was 
debilitating and very difficult for me to manage alone. I wish that I 
could have had better support through this time of difficulty. I waited 
in limbo for a friend to extend an invitation as I wondered where I 
would go for Holidays and school breaks.
    It would have been very beneficial if I had been given help in 
establishing some sort of permanency before my transition into 
adulthood. At eighteen, I was not prepared for the loss I had to face, 
the loss of the adult supports in my life. I felt very blessed to have 
most of my financial needs for school met, but at the same time I 
needed love, support, and encouragement as well, just like any young 
adult, and especially as a young adult transitioning from foster care.
    Somehow along the way I had the good fortune to find FosterClub who 
took me in as an All-Star intern. Along with the National Foster Care 
Coalition, FosterClub offers encouragement and an outlet for me to make 
change in the child welfare system. Before my work began with these 
organizations I hated the system and felt ashamed to say that I was 
ever apart of it. However, through training and adult support, I have 
now learned what permanency means and I have established it in my own 
life. I presently have many support systems and I am now a college 
graduate!
    In my experiences advocating for foster care reform, I have had the 
opportunity to share my story with thousands of youth around the nation 
and to speak with people who can improve life for my younger peers 
still coming through the system. Recently, I went to Capitol Hill, 
along with over thirty of my peers from foster care, and met with 
Members of Congress. I spoke at an event sponsored by the Kids Are 
Waiting, a project of The Pew Charitable Trusts, as part of its 
campaign calling for reform of the federal financing system for foster 
care. The Campaign and Jim Casey Youth Opportunities Initiative 
recently released a report which reveals how flexible, reliable federal 
funding, would enable States to keep families together, recruit more 
foster and adoptive parents, or subsidize guardianships for relatives 
and others.
    As a nation, we must do a better job of making certain that youth 
in foster care have family relationships and are prepared for 
adulthood. As people with the power to make change, I ask that you take 
an active interest in the need for foster youth to establish permanency 
before they exit foster care and ensure that they have support and 
services as transitioning young adults so that they can have a less 
risky and less despondent transition than I did myself. Every day we 
fail to act, 67 children like me leave foster care without a safety 
net.
    Thank you for this opportunity and for taking the time to hear my 
testimony.
            Respectfully,
            Nicole Dobbins

                                 <F-dash>

    Chairman MCDERMOTT. Thank you for telling your story.
    Mr. Weller.
    Mr. WELLER. Thank you, Mr. Chairman.
    Chairman MCDERMOTT. Do you want to introduce Mr. Nutall?
    Mr. WELLER. Thank you, Mr. Chairman. It is a pleasure for 
me to welcome and introduce Jamaal Nutall before our 
Subcommittee. As I noted in my opening state, Jamaal is a 
resident of Joliet, the largest city in the congressional 
district that I have the privilege of representing.
    He has been an intern in our Washington office this Summer, 
and I am proud to say he has made a terrific contribution to 
our Congressional office.
    He is a great intern. He is a young man with tremendous 
potential. He currently attends University of St. Francis where 
he will receive a degree in social work in May of 2008, after 
which he plans to pursue a Master's degree in school social 
work.
    He is a member of the University's football team, a member 
of Phi Beta Sigma Fraternity, and an active member of the 
Student African American Brotherhood.
    I want to welcome Jamaal and thank him for agreeing to 
appear before our Subcommittee this morning.
    Thank you, Mr. Chairman. I look forward to your testimony, 
Jamaal.

              STATEMENT OF JAMAAL NUTALL, ILLINOIS

    Mr. NUTALL. Chairman McDermott, Ranking Member Weller, and 
Members of the Committee, good morning.
    It is an honor for me to testify before the Committee today 
on child welfare.
    My name is Jamaal Nutall and I live in Mr. Weller's 
Congressional district. I know a lot about the foster care 
system because I was a part of that system for about 10 years. 
In addition, I attend the University of St. Francis where I 
plan to receive my Bachelor's degree in social work in May of 
2008.
    I also plan to work in the system to help kids by advising, 
mentoring, coaching and setting a good example. I would do so 
by receiving my Master's degree in school social work the 
following year after graduation.
    Imagine for a moment being a kid at age 8 one day playing 
with your toys at home and wake up the next day in someone 
else's house. How would this make you feel? That is what 
happened to me.
    Before that day, I was living with my grandmother, as I had 
been for most of my life, and there were problems between my 
grandmother and my mother, which was my mother actually 
suffered from post-partum depression after giving birth to her 
first child, which was a baby girl, my only sister, which now I 
am the only child because my mother actually killed my sister, 
but I always forgave her for that. My father was never in my 
life.
    Overnight, I was placed in a foster care situation. In 
hindsight, my grandmother was trying to protect me. However, 
the foster care system could have done a better job. For one 
thing, they could have reached out to my extended family to see 
if I could have lived with any of them.
    The foster care home I was placed in, Henry and Dorthea 
Burton, they did the best they could. They fed me, tried to 
instill good values, and took me to church. What they could not 
do was change the environment outside the house.
    On the south side of Chicago, kids can stay in the house or 
choose friends. Friends can be a positive or negative 
influence. The friends I chose at the time were not a very good 
influence. I made some bad choices like not going to school and 
not studying at all, and pretty much depending on myself at the 
time, which is tough for a young kid.
    The street life corrupted me to the point that I was 
stealing, involved in robberies, burglaries, and even selling 
drugs. I can that I was money hungry at that age. I was so bad 
that I was out of control.
    During sixth grade, a social worker told me that we were 
going to her office to wrap Christmas presents. That is not 
what happened. Instead, I was taken to a group home and once 
again was in one home one day and another home the next day.
    At the group home, I was fortunate to meet up with a 
counselor who had faith in me and a teacher who told me I was 
smart and I was going to do good things. I also was able to 
take advantage of an reward system in place at the group home 
that gave more responsibility and freedom to those who had good 
behavior. I did more, more than most.
    During all this time, my mother was appearing in court 
trying to regain custody. My aunt and other family visited at 
holidays and brought me items like shoes and clothing. I was 
not completely cut off from my family although most of the 
other foster kids never saw or heard from family members.
    After a couple of years in the group home, one of my aunts 
became my legal guardian. I would like to express my gratitude 
to her for that. She was determined to make me a better person. 
She told me what to do and what not to do. She taught me how to 
wash clothes, manage money, and reach goals.
    She took me to church and helped me find my first job. Her 
daughter, which is my cousin, became my older sister, who has 
helped me so much over the past few years.
    It was in high school that sports became a big part of my 
life. This really was a positive experience for me as I learned 
about team work, responsibility, leadership, and made very good 
friends.
    Sports also helped me with college, as I was awarded a 
football scholarship. Being in sports kept me busy and kept me 
from hanging out with the wrong people. All kids need an 
opportunity to keep busy, whether it is an after school 
program, Young Men's Christian Association, Boys and Girls 
Club, or interested parents.
    By the time I transitioned into adulthood, I was depending 
on myself, my family and my friends. This combination of 
support helped keep me motivated and contributed to my knowing 
that I can do anything I want.
    That is a great feeling. One day and one time I never knew 
I would have. I feel blessed by my experiences. Most kids 
growing up like I did do not make it. I was able to learn from 
each of my experiences and allow them to contribute to who I am 
today.
    Now I am looking forward to changing the world. I started 
with myself first and will take it one person at a time.
    As I look over my life, I would not change many things but 
some. My struggles only made me stronger as a person. I learned 
how to become a man the hard way. Through these challenges I 
learned responsibility, respect, hard work, dedication and I 
learned from my mistakes. I also developed lifelong friendships 
with many.
    I would like to express my gratitude to those who have 
given me the opportunity to better myself.
    I have a lot of suggestions for improving the foster care 
system that would include treating foster care kids as people 
rather than as cases that need to be moved along quickly to 
clear off a desk. Placing foster care kids with family members 
if at all possible.
    Better screening of foster parents, trying to keep kids in 
the same school rather than bouncing them around from school to 
school, and I encourage foster parents to monitor kids in their 
care.
    Thank you for this opportunity. I am glad to answer any 
questions you may have.
    [The prepared statement of Mr. Nutall follows:]
             Prepared Statement of Jamaal Nutall, Illinois
    Chairman McDermott, Ranking Member Weller and Members of the 
Committee, good morning. It is an honor for me to testify before the 
Committee today on foster care. My name is Jamaal Nutall and I live in 
Mr. Weller's Congressional district. I know a lot about the foster care 
system because I was part of that system for about 10 years. In 
addition, I attend the University of Saint Francis where I plan to 
receive my Bachelor Degree of Social Work in May of 2008. I also plan 
to work in the system to help kids by advising, mentoring, coaching, 
and setting a good example. I would do so by receiving my Masters 
Degree in school social work the following year after graduation.
    Imagine for a moment being a kid at age 8 who one day is playing 
with his toys at home and wakes up the next day in someone else's 
house. How would you feel? That's what happened to me.
    Before that day I was living with my grandmother, as I had been for 
most of my life, and there were problems between my grandmother and my 
mother. Overnight I was placed in a foster family situation. In 
hindsight, my grandmother was trying to protect me. However, the foster 
care system could have done a better job. For one thing, they could 
have reached out to my extended family to see if I could have lived 
with any of them.
    In the foster care home I was placed in Henry and Dorthea Burton 
did the best they could. They fed me well, tried to instill good 
values, and took me to church. What they couldn't do was change the 
environment outside the house. On the south side of Chicago, kids can 
stay in the house or choose friends. Friends can be a positive or a 
negative influence. The friends I chose at that time were not very good 
influences. I made some bad choices--like not going to school and not 
studying at all--and pretty much depended on myself at that time, which 
is tough for a young kid.
    The street life corrupted me to the point that I was stealing, 
involved in robberies, and selling drugs. I can say that I was money 
hungry. I was so bad that I was out of control.
    During 6th grade, a social worker told me we were going to her 
office to wrap presents. That's not what happened. Instead I was taken 
to a group home and once again was in one ``home'' one day, another 
``home'' the next day.
    At the group home I was fortunate to meet up with a counselor who 
had faith in me and a teacher who told me I was smart and I was going 
to do good things. I also was able to take advantage of a reward system 
in place at the group home that gave more responsibility and freedom to 
those who had good behavior. I did more, more than most.
    During all this time, my mother was appearing in court, trying to 
regain custody. My aunt and other family visited at the holidays and 
brought me items like shoes and clothing. So I wasn't completely cut 
off from my family, though most of the other foster kids never saw or 
heard from a family member.
    After a couple of years in the group home, one of my aunts became 
my legal guardian. I would like to express my gratitude to her for 
that. She was determined to make me a better person. She told me what 
to do and what not to do. She taught me how to wash clothes, manage 
money, and reach goals. She took me to church and helped me find my 
first job. Her daughter, my cousin, became my older sister who has 
helped me so much over the past few years.
    It was in high school that sports became a big part of my life. 
This really was a positive experience for me as I learned about 
teamwork, responsibility, and leadership and made very good friends. 
Sports also helped me with college as I was awarded a football 
scholarship. Being in sports kept me busy and kept me from hanging out 
with the wrong people. All kids need an opportunity to keep busy, 
whether it be in an after school program, a YMCA, a boys and girls 
club, or interested parents.
    By the time I transitioned into adulthood, I was depending on 
myself, my family, and my friends. This combination of support helped 
keep me motivated and contributed to my knowing that I can do anything 
I want. That's a great feeling--one that at one time I never knew I 
would have.
    I feel blessed by my experiences. Most kids growing up like I did 
don't make it. I was able to learn from each of my experiences and 
allow them to contribute to who I am today. Now I am looking forward to 
changing the world. I started with myself first and will take it one 
person at a time.
    As I look over my life I would not change many things but some. My 
struggles only made me stronger as a person. I learned how to become a 
man the hard way. Through these challenges I learned responsibility, 
respect, hard work, dedication, and I learned from my mistakes. I also 
developed life long friendships with many. I would like to express my 
gratitude to those who given me the opportunity to better myself.
    I have a lot of suggestions for improving the foster care system. 
That would include treating foster care kids as people rather than as 
cases that need to be moved along quickly to clear off a desk, placing 
foster care kids with family members if at all possible, better 
screening of foster parents, trying to keep kids in the same school 
rather than bouncing them around from school to school, and encouraging 
foster parents to monitor kids in their care.
    Thank you for this opportunity. I'll be glad to answer any 
questions you may have.

                                 <F-dash>

    Chairman MCDERMOTT. We want to thank all four of you for 
your stories. I have just one question I would like to ask all 
four of you and you can think while somebody else is answering.
    Who was the person and what did they do that had the most 
impact on stabilizing you coming out of foster care or living 
through foster care? Any one of you can start. I would like to 
hear who the person was and how you got in touch with them.
    Mr. NUTALL. For me, I believe my family, my aunt, my 
biological aunt, which took me out of the system, which I 
appreciate so much. I had many coaches and mentors in my life 
that preached to me positive, be positive and you will prosper 
from your positive actions.
    Just taking me out of the system, I was encouraged to 
actually do better for myself instead of hanging around the 
streets and doing wrong all the time, I was encouraged to read 
a book, actually do better for myself, or play sports, so I can 
utilize my talent. I ended up being very talented at any sport 
I tried. I was naturally athletic.
    When I got to college, I had many older fraternity members 
which recruited me and gave me the opportunity to network and 
brotherhood and draw me in and became my immediate family. 
That's pretty much it.
    Chairman MCDERMOTT. Tell me who was the person that turned 
you around?
    Mr. REEVES. My situation is kind of two people plus myself. 
In the group home, the social worker there helped find my 
brother. I call him all the time now because I work for the 
same agency that I grew up with. He is like my father. I call 
him. He actually helped me furnish my apartment and everything. 
I still call him to this day. We sit down and talk about 
anything. He helped motivate me to go on through high school or 
to finish high school and go on to college. He was even there 
at all of my graduations.
    There was another lady that I met. She was my mentor. She 
took the place as my mother. She was also there. She helped me 
with my deposits, the security deposit that was $250. She told 
me what to do as far as my identity from my biological mom for 
the $150.
    They also instilled in me that I have to set an example for 
not only the brother that my mentor found but my other two 
siblings that I did not know that I had. They said I had to set 
that example for myself as well as for them.
    They really became like my driving force and they still are 
pushing me. As a matter of fact, they probably are going to 
call me right after this.
    Ms. DOBBINS. For me, it was never just one person. I just 
cannot help but think about it takes a village to raise a 
child. There were different people along the way, but there was 
not one consistent person.
    Definitely some of the things that helped were being placed 
with my sister in the same foster home. It was a familiar face. 
It was someone who helped me through the times, even though we 
were not the best of sisters through foster care, she helped me 
through, just being placed with someone I knew.
    There were various people through high school and friends' 
parents. It was never one consistent person. I think had it 
been, it could have been an easier transition. I think a lot of 
us said a lot of things that were a struggle because that is 
the way to make the system better, we reported our struggles, 
but I think a lot of people played a part in supporting us or 
supporting me at least during different times. It just was not 
a consistent thing.
    Mr. BACON. I do not know if I can say one person. When I 
grew up in foster care, I struggled with trust issues. I had 
that wall, that barrier, that I put up because I was afraid 
that people would come into my life and leave me. I figured if 
my family left me, other people would leave me.
    I contribute a lot of my success to my advocacy that I do. 
I go out and I speak and I advocate for foster youth because 
that helps me understand what I am going through and helps me 
deal with what I am going through.
    I am able to go out there and make a difference for those 
growing up under me so they do not have to struggle. I 
contribute a lot of the success to a lot of the agencies that I 
work with, and a lot of the other foster care alumni, such as 
Nicole and Anthony, that advocate with me because I know in the 
middle of the night, if I have an issue, if I am dealing with 
some type of problem, I know I can pick up the phone and call 
one of them, no matter what time it is, they will pick up the 
phone. They may have to wake up a little, but they will be 
there to pick up the phone.
    That is how all foster youth feel. We feel that natural 
connection with aeach other. As soon as we find out you are a 
foster youth, it is that natural bond. It is a family bond.
    I contribute my success to my advocacy and all the foster 
youth that I have been in touch with and that I advocate for 
and the agencies that give us such support and fulfilling our 
passions in life and helping us move forward, giving us that 
little tough love sometimes when we need it and that push to 
keep us moving forward instead of staying in one spot.
    Chairman MCDERMOTT. Mr. Weller?
    Mr. WELLER. Thank you, Mr. Chairman. Jamaal, you stated in 
your testimony that you suggest children in foster care should 
be living with family members whenever possible. You shared 
some of your experience.
    Can you elaborate a little more on the difference you feel 
from speaking with your peers as well as from your own personal 
experience about the difference between being with family 
members and outside the family?
    Mr. NUTALL. I think the family system is a more genuine 
support system than a foster care system. The foster care 
system is basically based on stipends paying for individuals to 
actually stay in your home. You get parents who do not really 
care about the kids at all, all they care about is that payment 
and do not really take care of these kids.
    In a blood line family, they will do to their best ability, 
not even your mother and father, you have cousins, aunts, many 
relatives that will look out for you because you are a part of 
their blood line.
    Family structure is basically based on like a long life 
line, you always have your family to look back on. If you can 
call anybody, it is your family. If all else fails, your family 
is going to be there for you through anything.
    Like the saying says, blood is thicker than water. That is 
true. Your blood will never lead you astray. That is the reason 
why kids are aging out of the system at 18, these foster 
parents are afraid to adopt kids. All they really care about is 
these payments. I am not going to say that for all foster 
parents. There are some excellent foster parents out there.
    Everyone is not fortunate to actually have a foster parent 
that will actually take care of them and make sure they go 
through college, connect with them, and adjoin them to their 
family. It seems like they are afraid of foster care.
    Same reason why younger kids are most likely to be adopted 
than older kids. They feel like they can actually connect with 
younger kids and kind of manipulate them to be a part of their 
family instead of an older kid that is stubborn, knows their 
family and wants to go back with their family.
    Mr. WELLER. Jamaal, in your experiences, you talked about 
moving around. When you moved around, did you move from one 
school to another, you were changing schools while you were 
young?
    Mr. NUTALL. Yes, I did. Numerous schools. I felt like that 
really affected my education. I feel like I really did not 
become more educated until I reached college. The college level 
actually opened up my mind to different areas and kind of 
exposed me to grammar and all this stuff that I was kind of 
lacking.
    Just from switching schools, you go to a school that really 
does not teach you as much and then move to a school that is 
really grounded in grammar, emphasis of educating you strong, 
but you lack the skills that you should have learned earlier.
    I ended up failing one of the grades when I was younger 
because I lacked the understanding of how to actually read 
fully, how to understand words.
    Mr. WELLER. In your life time, how many schools did you 
attend during the age of eight and when you entered St. Francis 
University?
    Mr. NUTALL. I do not know if it is accurate, six/seven, 
could be eight.
    Mr. WELLER. Did you find every time that you began 
attending another school, it took a while just to get 
established there and develop relationships and figure it out?
    Mr. NUTALL. Yes, it is a major problem. You lose your 
friends that you try to create a bond with, and then you move 
along to somewhere else, you create new friends, and then you 
move on again. Do I keep these friends or should I just toss 
them. You are never going to see them again.
    It is hard on kids to go through this process. It is one of 
the hardest things you could do.
    Mr. WELLER. Would you think it is a good idea for us to 
find ways to help ensure that children in foster care are able 
to continue attending the same school that they were in 
previously, so they do not have to go through that transition?
    Is that something you think is a good idea?
    Mr. NUTALL. Definitely. I think that would help. From 
coming from different hearings, I heard different proposals as 
grants being proposed to schools like private schools or public 
schools that actually allow foster youth to attend that same 
school even if they are moved or something like that.
    Get the structure right. That would help tremendously in 
the future of a youth. They will get a chance to actually bond 
with friends they want to bond with, and get the support system 
they need at a school, instead of moving around to different 
schools. Then you start losing faith and trust.
    That is why you have kids that do not really trust their 
teachers or do not listen because they really do not care. They 
moved from this part and this part. It really does not matter.
    Until recent, school was not a big thing for me. I really 
did not like school. School was never--I never saw myself going 
to college. I always thought that maybe I would do something 
else with my life, but I got into sports, and that kind of 
opened the door for choices.
    Even when I applied to colleges, I never thought that I 
could actually get in the colleges I got into. I got into at 
least nine different schools. I was very impressed by that. Six 
was because of academics and three was because of football.
    I had my options to actually choose a school to go to, 
which my family really disapproved of St. Francis because it 
was still in Joliet, but I really thought the smaller 
environment would be better for me. I had time to actually 
study and be coached, and actually listen to people, instead of 
going somewhere big where there was the possibility I could 
drop out because of partying at big schools is more dominant.
    Mr. WELLER. Jamaal, you have done a great job. I am very 
proud of you and how you presented yourself today. Thank you 
for appearing before the Subcommittee.
    Mr. NUTALL. Thank you.
    Mr. WELLER. I know my time has expired.
    Chairman MCDERMOTT. Mr. Lewis, do you have a question?
    Mr. LEWIS OF GEORGIA. Thank you, Mr. Chairman. I am not so 
sure that I have any questions. I do not feel adequate really 
to ask questions.
    I want to thank each of you for being here today, for 
telling your story with such courage. It is my hope that it 
will help educate and sensitize all of us. I know it will help 
me a great deal.
    The four of you are really heroes for being able to survive 
and not giving up, not giving in. You do not appear to be 
bitter or hostile. I do not know what I would have done if I 
had to go through what you have gone through.
    I just want to thank you for being here today. Thank you, 
Mr. Chairman.
    Chairman MCDERMOTT. Thank you all four for coming. We want 
you to know that what you tell us, we will try to deal with. It 
is important for you to come and publicly say it. You have done 
us a real service. Thank you.
    Mr. MEEK. I am sorry, Mr. Chairman.
    Chairman MCDERMOTT. Excuse me.
    Mr. MEEK. No. I stepped in when you were making closing 
comments. I was in the back here. I am sorry. You know how it 
is, trying to juggle meetings here.
    Chairman MCDERMOTT. Go ahead.
    Mr. MEEK. I know there were a couple of recommendations 
that were made and I know there are two States that have 
extended foster care assistance beyond 21 to 23. I think it is 
Colorado and another State which escapes me at this time.
    I think it is important as we look at this extended care, 
and Mr. Chairman, you talked in your opening comments about the 
$36,000 that an average kid receives. I was jokingly saying I 
just got that last year.
    [Laughter.]
    I think it is important as it relates to young adult care. 
I know many of the Members, and I overheard as I was back here 
in a meeting in another room, many of the Members commending 
you for coming before the Committee. I think it is important to 
open your lives up and share so we can learn, so we can avoid 
the situations that you all have gone through.
    As it relates to the health care that was mentioned in all 
of your testimony, extension of health care, and also making 
sure there was assistance for like some sort of family 
assistance after the age of 18, how do you legislate. It is 
very difficult for us to kind of legislate that process.
    The unification with family, need it be cousins or nephews 
or nieces, and I know in some instances, Tyler, you tried to do 
it and it did not work out the way it was supposed to.
    What are some best practices? I am sorry. Maybe it was 
already answered and I was out of the room. What are some of 
the best practices that you all have found talking to other 
folks in other parts of the country?
    You have an opportunity that I have not had even as a 
Member of Congress to come before Congress and share your 
thoughts and ideas.
    Hearing some of the people that you have talked to after 
they are 18, after they go through that kind of sink or swim 
effect in the deep water, what have been some of the things 
that have worked for others that have not worked for you that 
you wish could have worked for you or that we can endorse?
    Ms. DOBBINS. I would like to say that I have done 25 
trainings in the State of Oregon around permanency, and this is 
something I get asked often, and I would like you to take a 
look at not all or nothing, so necessarily you cannot place a 
youth with a family member or if you cannot establish some sort 
of family, that does not mean that you do not nurture the 
relationship still.
    For me, I had relatives living 20 minutes away. For 
whatever reasons, I was not placed with them. Nurturing those 
relationships and even with my grandmother who was out of State 
could have been possible support for me as I exited the foster 
care system.
    Looking at it as not all or nothing is a very good approach 
in figuring out what ways to nurture the relationships that do 
exist with family members that are healthy members of the 
family.
    Mr. MEEK. Presently today, I guess you would say that there 
is not a system in place, and I know many States are doing 
different things, a system in place when they see 18 
approaching, someone, a caseworker, someone identifying family 
members.
    Now this person is kind of an adult, you can brush your own 
teeth and do all those kinds of things, and you do not have to 
worry about the guardian, do not leave the house after 8:00 
kind of thing.
    These are young adults, matching them up with blood 
relatives. I take it that does not exist today and is something 
that can be explored?
    Ms. DOBBINS. Not as much as it should. It did not exist in 
my case.
    Mr. BACON. I just want to speak on that, too. A lot of 
situations, the option of putting them back in the family is 
not a safe situation, in my instance. One of the things we need 
to look at is developing programs to set up foster youth with 
mentors before they turn 18.
    A lot of the situations, they wait until they turn 18 and 
we forget in years growing up, at 16/17, you learn more. That 
is the age that you learn more. You are more able to take more 
in and you are more acceptable to help.
    We need to look at those ages as providing help for youth 
at those ages. We need to set youth up with if not supportive 
adults, supportive foster care alumni. I know there are 
several, like myself, foster care alumni, that would willingly 
go in and help develop mentoring programs for foster youth.
    That is one of the things that we need to look at, getting 
the foster care alumni into the mentoring stages for foster 
youth because again, like I said, previously when a foster 
youth meets another foster youth, they have that automatic 
bond.
    When you set up a foster youth with a mentor who has not 
experienced the foster care system, the first thing in the 
foster youth's thoughts is you do not know where I am coming 
from, how can you help me.
    When you set them up with a foster youth, that thought may 
come up but we are able to say, hey, I have been through the 
foster care system. I know what you are going through and I am 
a prime example of how you can succeed.
    We can also provide tough love for foster youth. A lot of 
foster youth when they are set up with a mentor who has not 
experienced the foster care system, they give excuses. When 
they give excuses to other foster youth, no, that is not an 
excuse. We have been through that, too, look, we have made it 
and this is how you make it through.
    I am a big advocate and I think until we get foster care 
alumni in as mentors and to assist and work within the foster 
care system and the child welfare agencies within each State, 
the major changes will not be done. We need to get foster care 
alumni.
    We do not need to wait for foster care alumni to come to 
us. We need to seek them out and give them an invitation to 
come and help us in the foster care system to make the change.
    When a foster youth is given the opportunity to make a 
difference, they are more than willing to accept it. A lot of 
foster youth struggle to make a change because they do not know 
how to and they are waiting for someone to ask them.
    Mr. MEEK. Thank you all very much. Mr. Chairman, this is 
kind of the two outfielders and the ball falling between the 
two outfielders kind of situation.
    This is my first time on the Committee on Ways and Means, 
after being here three terms, but I think it is important as we 
start to look at how we can make life better, there has to be 
incentives for not only those that have gone through it with 
different kinds of experiences--I have been a State legislator 
in Florida when you were in the system.
    Knowing what I needed to know, just having one house down 
from where I grew up a foster home, and meeting and playing 
with all the friends as I was coming up as a young person does 
not qualify me to know all I need to know.
    I think the young adult mentoring piece is very, very 
important, and also making sure that we provide that 
opportunity. Many parents and young professionals say I can 
barely take care of myself, how can I go--maybe with a young 
adult, it is a different kind of experience and something that 
I think we could possibly work with.
    Thank you for your testimony. Thank you, Mr. Chairman.
    Chairman MCDERMOTT. We thank you very much for coming. 
Unfortunately, you have heard the bells go off and we are going 
to have to go over and vote. We have three votes which should 
bring us back around 12:30.
    I would ask the panel if they would go get a little lunch 
and we will see you back at 12:30. Thank you very much.
    [Recess.]
    Chairman MCDERMOTT. We will come back to order. Thank you 
for waiting. I hope you enjoyed a sumptuous and elegant lunch 
in the Longworth Dining Room. Maybe you went to the Rayburn one 
where they have carpeting.
    We are back here to finish. We have lost the crowd, 
unfortunately. We are glad to have you here because you can 
give us some practical suggestions about what needs to be done.
    We have Cornelia Ashby, who is the Director of Education, 
Workforce, and Income Security at the U.S. Government 
Accountability Office (GAO) that goes out and sorts out what is 
going on.
    Dr. Courtney, who is the Ballmer Chair in Child Well-Being 
at the School of Social Work at the University of Washington.
    Gary Stangler, who is Executive Director of the Jim Casey 
Youth Opportunities Initiative, and Sam Cobbs, Executive 
Director of First Place Fund for Youth in Oakland, and Jane 
Soltis, who is the Program Officer for the Eckerd Family 
Foundation.
    We want to thank you all for coming. Your full state will 
be put in the record. We would like you to try and hold to 5 
minutes for whatever comments you want to make out of your full 
states.
    Thank you.

STATEMENT OF CORNELIA ASHBY, DIRECTOR, EDUCATION, WORKFORCE AND 
     INCOME SECURITY, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. ASHBY. Mr. Chairman and Mr. Weller, thank you for 
inviting me here today to discuss services for youth who age 
out of the foster care system without the support of an 
adoptive or other permanent home.
    Overall, Federal funding for State independent living 
programs doubled with the passage of the Foster Care 
Independence Act. While we could not determine the exact amount 
of funding States had available to spend on each eligible youth 
because of the lack of data on eligible youth emancipated from 
foster care, data available at the time of our 2004 report 
indicated that States' maximum funding allocation for each 
eligible youth in the foster care system ranged from between 
$476 and $2,300.
    Some States were not able to spend all of their Federal 
allocations in the first 2 years of increased funding under the 
program. For example, in 2001, 20 States returned nearly $10 
million in Federal funding to HHS, and in 2002, 13 States 
returned more than $4 million. Data provided in A July 2007 
Congressional Research Service Memo to Congress shows that nine 
States returned less than 1 percent of total Chafee funding in 
2004.
    While States expanded and improved independent living 
services, under the Chafee program, States differed in the 
proportion of eligible youth served. In our 2004 survey, 40 
States reported serving about 44 percent of eligible youth in 
their States. About one-third of reporting States were serving 
less than half of their eligible foster care youth while an 
equal percentage was serving three-fourths or more. Certain 
gaps in the availability of critical services were reported, 
which may explain at least in part why more eligible youth were 
not served. For example, States continued to be challenged in 
providing youth with a smooth transition between the youth and 
adult mental health systems. Of the four States we visited in 
2004, three cited difficulties due to more stringent 
eligibility requirements in the adult system, different levels 
of services and long waiting lines for services. Challenges 
with mental health services remained in 2006. Thirty-two State 
child welfare directors responding to our survey reported 
dissatisfaction with the level of mental health services. There 
is also a housing gap. Youth we spoke with in the four States 
we visited in 2004 said that locating safe and stable housing 
after leaving foster care was one of their primary concerns in 
their transition to independence.
    This service gap was also identified in our 2006 survey 
when 31 State child welfare directors reported dissatisfaction 
with the level of housing for foster care youth transitioning 
to independence. Under the Chafee program, many States began 
offering new services to support youth who had emancipated from 
foster care, including education and training vouchers for 
postsecondary education and Medicaid health insurance. In July 
2007, Congressional Research Service (CRS) data showed that 26 
States did not spend all of their fiscal year 2004 ETV funding 
with one State returning almost all of its funds and 14 other 
States returning over 20 percent of their funding allotment. 
Overall, more than 14 percent of fiscal year 2004 ETV funding 
was returned to the U.S. Treasury. In 2007, the American Public 
Human Services Association reported that 22 States planned or 
have already started using the Chafee option to offer Medicaid 
coverage to youth who age out of foster care. The study also 
found the remaining 28 States and the District of Columbia were 
reported to be using other methods, such as the State 
children's health insurance program or the Medicaid waiver 
demonstration program to extend coverage to youth.
    Usage of existing Federal social service programs outside 
the child welfare system could help reduce the gap in available 
services for youth aging out of foster care. While in our 2004 
survey 49 States reported increased coordination with Federal 
as well as State and local programs that can provide or 
supplement independent living services, barriers hindered 
access to services across programs. In our 2006 survey, States 
revealed that they were least likely to address challenges in 
providing services such as those pertaining to mental health, 
services that are typically provided outside of the child 
welfare system. Access barriers include the lack of information 
on the array of programs available in each State or local area, 
and differences in program priorities. In the November 2004 
report and May 2007 testimony before this Subcommittee, we 
recommended that HHS make information available to States and 
local areas about other Federal programs that may assist youth 
in their transition to self sufficiency. HHS continues to 
disagree with our recommendation.
    Services provided to youth aging out of the foster care 
system must be effective in preparing these youth for self 
sufficiency. However, how well the Chafee program has worked to 
improve outcomes for emancipated youth is still unknown 8 years 
after passage of the Foster Care Independence Act, and HHS has 
not yet implemented its information system that is intended to 
meet the Act's requirements for monitoring State performance.
    Further, while regional staff conduct much of the Federal 
oversight of the Chafee program, their current oversight tools 
do not provide standard information needed to measure 
performance.
    Our 2004 report includes a recommendation that HHS develop 
a standard reporting format for State plans and progress 
reports and implement a uniform process regional offices can 
use to assess States' progress in meeting the needs of youth in 
foster care and those recently emancipated from care. These 
recommendations have not been implemented.
    Mr. Chairman, this concludes my statement. I would be happy 
to answer any questions.
    [The prepared statement of Ms. Ashby follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman MCDERMOTT. Thank you.
    Dr. Courtney.

STATEMENT OF MARK COURTNEY, PH.D., BALLMER CHAIR IN CHILD WELL-
     BEING, SCHOOL OF SOCIAL WORK, UNIVERSITY OF WASHINGTON

    Dr. COURTNEY. Thank you, Mr. Chairman. I am here to share 
the findings of a study being conducted by my colleagues and I 
in the States of Illinois, Wisconsin, and Iowa of young people 
aging out of foster care in those three States.
    Our study involves three interviews with young people. We 
interviewed 732 young people when they were 17 to 18 and still 
in care in those three States back in 2002/2003. We followed up 
in 2004 with about 82 percent of them when they were on average 
about 19.5 years old.
    The information I present today comes from those 
interviews. We just finished last year interviews when they 
were 21, but the Committee beat me to the punch, and we will 
not be releasing those results for a few more weeks, but later 
this Summer, we will.
    Our study informs child welfare policy, I believe, in at 
least three ways. First, it provides the first comprehensive 
view of how foster youth are faring in the transition to 
adulthood in the wake of the Foster Care Independence Act.
    Second, it provides a natural experiment regarding the 
effects of allowing young people to remain in care past 18.
    Illinois allows youth to remain in care through their 21st 
birthday whereas Iowa and Wisconsin generally discharge youth 
around their 18th birthday and almost never after their 19th 
birthday.
    Third, our interviews include questions used in nationally 
representative studies allowing us to compare outcomes of 
foster youth to youth generally.
    I will focus on four study findings I believe help inform 
policy and practice.
    First, although some of the young people we were following 
are faring reasonably well, more of them are having significant 
difficulties during the transition to adulthood.
    I will give you a few examples. More than one-third had 
neither a high school diploma nor a general equivalency degree 
compared to one-tenth 19 year olds nationally. Whereas 57 
percent 19 year olds nationally are enrolled in a two or 4 year 
college, this was true for less than one quarter of the young 
people we are studying.
    Only about two-fifths of our study participants were 
employed at age 19 compared to nearly three-fifths of their 
peers, and even among those who were employed, 75 percent 
earned less than $5,000 in the last year.
    Foster youth in transition were twice as likely as other 19 
year olds to report not having enough money to pay their rent 
or mortgage or being unable to pay an utility bill. They were 
one and a half times more likely to report having their phone 
service disconnected.
    Of the young people who had already left care--a lot of 
them in Illinois stayed in care--14 percent had been homeless 
at least once since leaving care and most of them had only been 
out of care less than a year.
    Compared to other 19 year olds, foster youth in transition 
were more likely to report that health conditions limited their 
daily functioning and reported more emergency room visits and 
hospitalization.
    About one-third of our participants suffered from mental 
health problems, nearly half of the young women in our study 
had been pregnant by age 19, that is twice the rate of their 
peers, about one quarter reported having children, and while 
both males and females were more than twice as likely as their 
peers to have children, they were much less likely to report 
being married or cohabiting.
    Many of the young people in our study had experienced 
trouble with the law. Thirty percent of the males and 11 
percent of the females reported being incarcerated at least 
once between 17 and 19. Many more had been arrested.
    A second major study finding is that receipt of independent 
living services during the transition to adulthood is arguably 
spotty at best. We asked the young people questions about the 
services they received between our first and second interviews 
in areas of education, vocational training and employment, 
budgeting, health education, housing, and youth development. 
The only domain in which at least half of the young people 
reported at least one service was education, and that was only 
slightly more than half.
    The third finding is that we found that a majority of young 
people, and this is probably the most relevant to you, the 
other ones might not sound that new to you, the majority of 
young people would remain in care past 18 if given the 
opportunity, and doing so appears to convey significant 
benefits to young people.
    Among study youth in Illinois, that is the State that 
allows young people to stay in care past 18, the vast majority 
remained in care past their 19th birthday and over half 
remained in care past their 20th birthday.
    About half of the young people remaining in care, however, 
did not live in traditional foster homes or kinship foster 
homes or group care. They had actually moved into some kind of 
supervised independent living setting. Illinois has massive 
investment in transitional housing.
    Remaining in care past 18 was associated with increased 
receipt of independent living services, better access to health 
and mental health care, a double likelihood of being enrolled 
in school and a triple likelihood of being in college, and a 
one quarter reduction in the risk of pregnancy between ages 17 
and 19. It was also associated with a decreased risk of some 
forms of criminal justice system involvement.
    Fourth, our study provides evidence and supports what the 
young people said earlier of the need for practitioners and 
policy makers to focus much more on the family relations of 
foster youth given the importance of these relationships to 
most if not all of these youth.
    Over one-third of our study participants actually lived 
with a relative at the time of our follow up interview with 
them, and the vast majority, over 75 percent, reported feeling 
very close to one or more members of their family of origin.
    In summary, many of the young people are not doing well. 
The glass is still less than half full with respect to the 
independent living service provision. Most young people, at 
least from what we can find, would choose to stay in care, 
affiliated with a system, connected to the system, if they had 
the choice, staying in care conveys significant benefits to 
them.
    Lastly, we really need to pay more attention to family 
relations. I look forward to answering your questions.
    [The prepared statement of Dr. Courtney follows:]
  Prepared Statement of Mark Courtney, Ph.D., Ballmer Chair in Child 
      Well-Being, School of Social Work, University of Washington
    Today I share with you the findings of a study being conducted by 
the Chapin Hall Center for Children at the University of Chicago and 
the state public child welfare agencies in Illinois, Iowa and 
Wisconsin, following young people as they ``age out'' of the foster 
care system. Our study involves three interviews with young people. We 
interviewed 732 youth in 2002 and 2003 who were 17 or 18 years old and 
still under the jurisdiction of the child welfare agency and followed 
up in 2004 with 603 (or 82 percent) of these young people when they 
were on average about 19 and a half years old. The information I 
present today comes from these interviews. Reports from a third wave of 
interviews conducted last year when the respondents were 21 will be 
available later this summer.
    Our study informs child welfare policy in at least three ways. 
First, it provides the only comprehensive view of how foster youth are 
faring in the transition to adulthood since the Foster Care 
Independence Act became law. Second, it provides a natural experiment 
regarding the effects of allowing youth to remain in foster care past 
age 18; Illinois allows youth to remain in care through their 21st 
birthday, whereas Iowa and Wisconsin generally discharge youth around 
their 18th birthday and almost never later than their 19th birthday. 
Third, our interviews include questions used in nationally 
representative studies, allowing us to compare experiences of foster 
youth to those of other young people. I will focus on four study 
findings that I believe help inform policy and practice.
    First, although some of the young people are faring reasonably 
well, more of them are having significant difficulties during the 
transition to adulthood. Few of them are obtaining the education 
necessary to succeed in today's economy. More than one third had 
neither a high school diploma nor a general equivalency degree compared 
to one-tenth of 19 year olds nationally. Perhaps most troublingly, 
whereas about 57 percent of 19 year olds nationally are enrolled in a 
two--or four-year college, this was true for less than one-quarter of 
the current and former foster youth in our study. Only about two-fifths 
of our study participants were employed at age 19, compared to nearly 
three-fifths of their peers; over three-quarters of those who had 
worked in the past year had earned less than $5,000. Foster youth in 
transition were twice as likely as other 19-year-olds to report not 
having enough money to pay their rent or mortgage (12 percent) or to be 
unable to pay a utility bill (12 percent) and 1.5 times more likely to 
report having their phone service disconnected (21 percent). Fourteen 
percent of those discharged from care reported having been homeless at 
least once since leaving care. Compared to other 19 year olds, foster 
youth in transition were more likely to report that health conditions 
limited their daily functioning and reported more emergency room visits 
and hospitalizations. About one-third of our study participants 
suffered from mental health problems we assessed, including post-
traumatic stress disorder, substance abuse, and depression. Nearly half 
of the young women in our study had been pregnant by age 19, twice as 
many as their peers. About one-quarter of the young people reported 
having children. While both males and females were more than twice as 
likely as other 19 year olds to report having a child, they were less 
likely to report being married or cohabiting. Many of the young people 
in our study had experienced trouble with the law; 30 percent of the 
males and 11 percent of the females reported being incarcerated at 
least once between our first and follow-up interviews. They were more 
likely than other 19 year olds to report engaging in criminal behavior 
and being victims of crime.
    A second major study finding is that receipt of independent living 
services during the transition to adulthood is arguably spotty at best. 
We asked the young people questions about the services they received 
between our first and second wave of interviews in six domains: 
education; vocational training and employment; budgeting and financial 
management; health education; housing; and services to promote youth 
development. The only domain in which at least half of the young adults 
reported receiving at least one service was educational support.
    Third, we found that a majority of young people would remain in 
care past age 18 if given the opportunity and that doing so appears to 
convey significant benefits. Among study youth in Illinois, the vast 
majority remained in care past their 19th birthday and over half 
remained past their 20th birthday. About half of the young people 
remaining in care lived in traditional family foster care, kinship 
care, or group care, but about half moved on to various forms of 
supervised independent-living. Remaining in care past 18 was associated 
with increased receipt of independent living services, better access to 
health and mental health care, a doubled likelihood of being in school 
and tripled likelihood of being in college, and a one-quarter reduction 
in the risk of pregnancy between ages 17-18 and 19. It was also 
associated with a decreased risk of some forms of criminal justice 
system involvement.
    Fourth, our study provides evidence of the need for practitioners 
and policymakers to focus more on the family relations of foster youth, 
given the importance of these relationships to foster youth in 
transition to adulthood. Over one-third of our study participants lived 
with a relative at the time of their follow-up interview and the vast 
majority of all the young people reported feeling very close to one or 
more members of their family of origin.
    I look forward to answering your questions and discussing the 
policy implications of our study's findings.

                                 <F-dash>

    Chairman MCDERMOTT. Thank you.
    Mr. Stangler.

STATEMENT OF GARY STANGLER, EXECUTIVE DIRECTOR, JIM CASEY YOUTH 
                    OPPORTUNITIES INITIATIVE

    Mr. STANGLER. Thank you, Mr. Chairman. My name is Gary 
Stangler. I am Executive Director of the Jim Casey Youth 
Opportunities Initiative. We are a national foundation devoted 
exclusively to the issue of youth aging out of foster care. We 
were formed by the Annie E. Casey Foundation out of Baltimore 
and Casey Family Programs out of Seattle.
    We have been doing this work for 6 years and prior to this, 
I was the Director of the Missouri Department of Social 
Services under both Republican and Democratic Governors.
    I was the Commissioner during the nineties when we did 
welfare reform, with the passage of the Temporary Assistance to 
Needy Families.
    I would say that at that time, the creativity, the 
innovation, the ideas that were bubbling up in the States and 
that were promoted in the Federal Act is something that we have 
not seen in Chafee.
    As the GAO report just noted, the States have been pretty 
slow to even spend the money that Congress made available. They 
have been slow to exercise the Medicaid option.
    I would say in my experience over the last couple of years, 
this has really begun to change. I think the States lacked good 
practice models. They lacked good notions of what to do with 
this difficult population.
    Since then, we have had Mark Courtney's research, Peter 
Pecora's, Casey Family Programs, alumni studies, and I think as 
GAO just noted, you have seen the States increasing the uptake 
of the spending.
    What I would argue is what we need for Congress to do to 
capture the momentum we are just beginning to see over the last 
2 years in the States in several areas. The first, Mr. 
Chairman, you started by saying you have not met a foster kid 
who did not want to go home or who did not want to stay 
connected to their parents or family. I would say I have not 
either, in the 25 years I have been doing this.
    I have come to believe that the drive for family is hard 
wired in us and that it should be national policy and a 
national goal that no child leaves foster care that does not 
have a connection to an adult, a supportive adult, preferably a 
legal relationship, guardianship, kinship, reunification, 
adoption, something that has a sense of forever and 
unconditional support attached to it.
    You heard it eloquently from the young people earlier. I 
think the States are starting to make progress in this area for 
a couple of reasons. One innovation is paying attention to what 
the youth themselves have to say. We have largely ignored them 
over the past years in child welfare practice and ignoring the 
fact that they often knew who the family members were, who the 
relatives were that could provide support and be a permanent 
placement.
    I think second we should for those kids who cannot be 
reunited, that we need to move quickly on termination of 
parental rights, but there are going to be kids who are going 
to be considered--Tyler sat up here and said I was considered 
unadoptable. There are going to be kids for whom adoption is 
not an option.
    For them, we need kinship care. We need guardianship. We 
need Federal subsidies, and we need to extend Title IV-E 
reimbursement to the States for foster care to 21. Stopping at 
age 18 is arbitrary in my opinion, and as you heard eloquently 
from them, we need to extend this to 21 on a voluntary basis, 
but importantly, I think, with a clear right of return.
    Again, citing Tyler. He thought he was going to be 18. He 
thought he was going to be a grown up. He was going to be a man 
now. He was going to go out there. He quickly found it ain't so 
great out there and it's a little harder than he thought.
    We need to allow kids to come back into care and for many 
States after discharge, that is it, case is closed. There is no 
right of return. We need to allow a right of return.
    I believe all States should exercise the Medicaid option 
under Chafee that Congress has provided. In the past 6 months, 
I think you have seen Michigan, Florida, Washington State, 
Missouri following now to exercise the Chafee option. I think 
States are starting to move toward it. I think any incentive or 
push that can come from Congress would be a good thing.
    The progress with the education and training vouchers, this 
is an area where the States had great difficulty. I think we 
have seen great progress there through innovations in 
marketing, in reaching out to kids.
    I would cite a case in Northern Michigan where they 
assigned a part time worker to exclusively work with this 
population. She alone was able to triple the number of kids 
moving to postsecondary education.
    Finally, in the Jim Casey Youth Opportunities ten projects, 
we have what we call an Opportunity Passport. It is a matched 
savings account. We are just now getting data from 2,000 kids 
who have had these matched savings accounts. What we are 
finding is that foster kids can save. In our IDA, they can save 
for a car or a security deposit on an apartment in addition to 
the normal educational expenses, medical expenses.
    Anthony Reeves mentioned that he was able to save a 
security deposit. That is how he did it, with this Opportunity 
Passport. It is a critical way to overcome the barrier of not 
having the financial resources to buy a car, that allows you to 
go to school and work in this country.
    I think that is a critical necessity if you are going to do 
that, and our data is beginning to show that not only kids can 
save, but they can save for assets that lead to better economic 
and educational outcomes.
    I would urge the Congress as you explore other options a 
demonstration project with IDAs that would include this. It may 
be relevant to Mr. Stark's notion of a trust fund for foster 
kids because anything that a kid can save whether it would come 
from child support payments or other payments on his behalf 
could be suitable for this kind of model.
    I thank you for inviting me and I would be happy to answer 
your questions.
    [The prepared statement of Mr. Stangler follows:]
  Prepared Statement of Gary Stangler, Executive Director, Jim Casey 
                     Youth Opportunities Initiative
    Good morning, Mr. Chairman, Representative Weller, and members of 
the Committee. Thank you for inviting me to testify today.
    The Jim Casey Youth Opportunities Initiative is a national 
foundation focused solely on helping states and communities assist 
older youth in foster care make successful transitions to adulthood. We 
are a grantmaking foundation, supporting demonstration projects in both 
rural and urban areas in 10 States from Michigan to Georgia to Maine to 
California. Our strategies focus on improving the outcomes of 
transitioning youth, outcomes that ultimately build into two key areas 
that we know will help these young adults thrive: providing 
opportunities to achieve economic success and helping them build 
permanent relationships in their lives. We were created by the Annie E. 
Casey Foundation and Casey Family Programs, the nation's two largest 
foundations devoted to disadvantaged youth and their families.
    Our foundation has been doing this work for six years, and I have 
been involved in child welfare for 25 years. Prior to this position, I 
was the director of the Missouri Department of Social Services, 
appointed first by Republican Governor John Ashcroft and re-appointed 
to office by Democratic Governor Mel Carnahan.
    We have learned a great deal about older youth in foster care these 
past several years. Out of more than half a million kids placed in 
foster care due to parental abuse or neglect, more than 100,000 are 
over age 16. Roughly 24,000 young people ``age out'' every year--that 
means they are discharged from the child welfare system when they turn 
18. In fact, the number of young people leaving foster care without a 
permanent family is at an all-time high, according to a new report by 
The Pew Charitable Trusts' Kids Are Waiting campaign and the Jim Casey 
Initiative. Even though the total number of children in foster care has 
decreased, the number who ``age out'' of the system has grown by 41 
percent since 1998. In total, more than 165,000 young people aged out 
of foster care between 1998 and 2005--nearly 25,000 in 2005 alone. At 
the same time, that study also found that those young adults who ``age 
out'' spent more time in the foster care system: nearly five years, 
compared to the national average of 2\1/2\ years.
    These young people, unlike mine or yours, lack a stable family 
foundation from which they can move into adulthood. Many of these youth 
have not had the typical experiences growing up that teach skills for 
self-sufficiency, especially those youth emancipating from group care. 
Suddenly, at age 18, they're on their own. As a result, they often have 
trouble finding a place to live, finding and keeping a job, getting 
health insurance, continuing their education, avoiding financial 
trouble and making good decisions. For these youth, there are no 
parents there to advise them or help them recover from the bad 
judgments that teenagers are prone to make.
    Imagine your old 18-year-old trying to make it alone. What state 
your child lives in determines what choices and options are available. 
In most states, there will be financial aid for college; in some states 
a waiver of tuition at public colleges that mimics the absent parental 
support. In a few states, there will be health insurance available 
under Medicaid. For a limited number of youth, there will be some 
financial assistance for a place to live.
    With our own children, we don't tell them they can have college 
help, but no health insurance. For many of us, our employer-based 
health insurance covers our dependents into their twenties. And, most 
important, we would be there to cheer their successes and console them 
during the inevitable crises of growing up.
    The picture for youth who have aged out of care is fairly bleak, 
according to recent research at the Chapin Hall Center for Children at 
the University of Chicago. Those who left foster care by age 18 were 
nearly three times more likely than their peers to be out of work and 
school. They were twice as likely to be unable to pay their rent and 
were four times as likely to be evicted. Fewer than half had bank 
accounts. Nearly half of the young women had been pregnant at least 
once by age 19. Significant numbers were incarcerated or homeless at 
some point.
    Only half of youth in foster care finish high school, which is not 
at all surprising considering that most youth are discharged at age 18, 
an age when most kids are likely to still be in high school. Only 20 
percent who are qualified for college actually go on to post-secondary 
education. And only 5 percent of those in college finish their degrees. 
Low educational attainment guarantees poor economic and financial 
outcomes.
    Clearly, this is one of our nation's most vulnerable populations of 
young people, with high social costs for homelessness, unemployment, 
and, for some, correctional costs. As you well know, in 1999, Congress 
provided assistance for these young adults through the Foster Care 
Independence Act. The act doubled federal funding to $140 million for 
the John H. Chafee Foster Care Independence Program, which provides 
funds for states to help youth in foster care with life skills 
training, education and employment supports, connections to adults, and 
housing assistance. States are required to contribute a 20 percent 
match for Chafee funds. Overall, the amount of funding available isn't 
enough to provide a comprehensive array of services to all emancipating 
youth. States find themselves patching together additional educational, 
mental health, and job training services across various agencies, but 
often, these services are not well coordinated. Many youth are left to 
navigate multiple bureaucracies on their own.
    During the years since passage of Chafee, states have had 
difficulty taking advantage of these flexible funds. I was the Missouri 
state director and chair of the National Council of State Human 
Services Administrators during the years when welfare reform was 
launched. At that time, new ideas and innovations were widespread, and 
they led to significant improvements on a national scale. I have not 
seen that kind of innovation and creativity with Chafee, until very 
recently.
    I believe that the difficulty for the states arose because states 
lacked good practice models and good policies for helping this 
population. With the research from studies like Mark Courtney's Midwest 
Evaluation and Peter Pecora's alumni studies, we have a clearer picture 
of the difficulties faced by this group of young people. And with 
advances in helping youth connect to families and build for economic 
success, this picture is beginning to change.
    Part of this change is better understanding of what it takes to 
improve the bleak outcomes. The Jim Casey Youth Opportunities 
Initiative has five strategies that, we believe, taken together will 
improve the outcomes in education, employment, health, housing, 
personal connections, and community engagement for this population. We 
are learning that actively engaging youth, increasing opportunities, 
building community partnerships and resources, collecting the research 
data and communicating effectively, and building public will to improve 
state policy and practice must all take place for progress to be 
achieved. As is the case for our own children, we weave together the 
stability of permanent family and building the skills to be successful 
in modern society.
    This work has shown us repeatedly that what these young adults want 
most is permanence. They want a family relationship--reunified with 
their parents, safely living with relatives, legal guardians, or 
adoptive families, but certainly living in a relationship that has a 
strong sense of ``forever.'' For many of these youth, their closest 
relationships are ephemeral, professional ones with social workers and 
attorneys. This is not a family.
    We no longer accept that teens in foster care do not need permanent 
connections as they enter adulthood. On the contrary, we know that 
preparation for adulthood is inextricably linked to permanence.
    It should be national policy, and a nationally measured goal, to 
ensure that every youth leaving foster care be connected to a family 
for ongoing support.
    In policy terms, the federal government should set this clear 
expectation for the States. I also strongly support the recommendation 
of the Pew Commission on Children in Foster Care that the federal 
government should provide financial incentives for all forms of 
permanency: reunification, kinship, guardianship, and adoption.
    In addition to this primacy on permanence, the federal and state 
governments should:

    <bullet>  strongly encourage the states to take advantage of the 
option under Chafee to extend Medicaid to age 21;
    <bullet>  extend Title IV-E reimbursement for foster care to age 
21, including the right to return to foster care after discharge or 
case closing; and
    <bullet>  provide reimbursement to subsidize kinship and 
guardianship.

    These are the basic building blocks of health, safety, and 
permanence, which are the goals for children taken into our custody.
    If there is one clear finding that emerges from the Midwest 
Evaluation, it is that those young adults who could remain in foster 
care past age 18 until 21 had better outcomes. This is intuitively 
obvious given what we understand about the importance of permanence. 
But states have been very slow to extend foster care past age 18. Only 
a handful have made progress in this area, largely due to the fact that 
the federal government stops sharing in the cost. We need to extend the 
availability of federal support and incentives for foster care to age 
21 in all states with reimbursement from Title IV-E. This must include 
the right to return to foster care after discharge or case closing. For 
many teenagers, the need for such support becomes clear only after 
being on their own for a period of time. We must allow them the 
opportunity to return to foster care for critical supports.
    States are beginning to innovate on ways to connect youth to 
supportive family members. Perhaps the single most important 
``innovation'' has been to listen to the youth themselves, who are 
often the best resources on who might be appropriate family members. 
Youth are often excluded even from the judicial processes that direct 
their lives, many not even aware that they have legal representation. 
The move to engaging youth directly in decisions that affect their 
lives is an overdue and critical change in policy, practice, and in how 
we approach casework training.
    Recently, 60 Minutes featured a software service called Family 
Finding, which searches public databases to identify extended family 
members. Oklahoma has co-located child welfare and child support 
enforcement staff to increase the potential connections to family. Many 
jurisdictions are using intensive Team Decision Making practice models 
to identify and prepare family members to support youth aging out.
    Let me give you additional examples of state innovation. With most 
youth emancipating at age 18, continuing their education is essential 
to their chances of life and economic success. Congress created the 
Education and Training Vouchers (ETV) to help address this issue, but 
the states have been slow to take advantage of this federal support. 
This has begun to change. In Michigan, only 127 youth received the 
supports of the Education and Training Vouchers in FY2004. In fact, 
Michigan had only been asking for half of the funds available to the 
state. In FY2006, the number of youth had doubled to almost 300, and in 
the first eight months of this year, already 220 youth have received 
ETVs.
    How did they do this? They accomplished this through significant 
increase in marketing, plus lots of education by youth panels and 
professionals targeted to Department of Human Services staff, college 
financial aid officers, high school counselors, foster parents, court 
staff, guardians ad litem, multi-agency state permanency task force, 
and foster youth. Of course the efforts of all the Michigan Youth 
Opportunities Initiative sites to get the word out had an impact.
    In the ten-county area in the rural north of the state, having a 
part-time education planner (10 hours/week for 10 counties) more than 
tripled post-secondary enrollments in one year. This caseworker began 
working with the youth in junior and senior years of high school to 
help make sure they had a plan to graduate from high school, identify 
financial resources, and fill out paperwork for financial aid and 
applications.
    Ashley, from northern Michigan, says: ``Without Kallie (caseworker) 
I just wouldn't have gone to college. I probably would have stayed home 
and taken a couple of classes from the community college but I didn't 
ever think I could be a real student at a 4-year college. She helped me 
believe that I could do it, but most of all helped me get through all 
the paperwork I needed to do, like FAFSA and the things I need for ETV, 
and applications just to get in. I just finished my freshman year and I 
can't wait to go back in the fall.''
    Arrica (Macomb County, near Detroit): ``For me, ETV has been a 
major financial contributor to me being able to go to college. I will 
be graduating from Oakland University next spring and it would not be 
possible if it was not for the ETV. I no longer worry about being able 
to pay for college, along with the Pell grant and TIP all my worries 
are gone, now I'm able to focus on contributing to society in a 
positive way and not focus on my past that may result in a cycle (of 
foster care) for my family.''
    Michigan is a good example of innovation to help kids continue 
post-secondary education. The creative deployment of a part-time 
caseworker tripled the number of youth continuing their education.
    Michigan is not alone in helping youth continue their education. 
Florida just eased restrictive polices to allow part-time school 
attendance, and extended the age of assistance through the 23rd 
birthday. Iowa just passed legislation greatly expanding the amount of 
aid available, and extended it to private colleges and universities as 
well as state schools. These innovations have also led to clearer 
notions of what it takes to promote educational success for youth 
lacking traditional family supports, such as the expenses of off-campus 
housing, child care to attend school, and things as simple as where one 
can go during school breaks when other young people head home to their 
families.
    And recently, the number of states exercising the option under 
Chafee to provide Medicaid has increased. Yet still, fewer than half of 
the states have taken advantage of this option and the matching funds. 
But just this year, Colorado, Florida, Michigan, Washington, and 
Missouri have extended Medicaid to youth aging out of foster care to 
age 21. In Colorado, the expansion included better coordination with 
the state mental health services system.
    States have also developed innovations recognizing the importance 
of sibling connections. The disruption of sibling relationships is the 
most frequently expressed concern by young people across the 
Initiative's sites. In Maine, the local youth leadership board led the 
successful effort to pass legislation for sibling visitation rights. 
Iowa's legislature recently funded a demonstration project to promote 
sibling relationships. Colorado just passed legislation creating a 
statewide task force on permanence and foster care.
    We must also continue to develop and support innovations and 
promising ways to help these young adults achieve independence 
successfully. Our goal must be to integrate family permanency and 
preparation for adulthood, which is what we do as parents for our own 
kids. Economic success in modern society requires post-secondary 
education, financial literacy, and building personal and financial 
assets.
    We have several key components we believe will provide 
opportunities for both economic success and permanence for these young 
people. To date, the communities in our Jim Casey Youth Opportunity 
Initiative have worked with more than 2,100 young people, ages 14 to 
23, who have or will transition from foster care. One key component is 
the Opportunity Passport<SUP>TM</SUP> which is designed to organize 
resources and create opportunities for young people leaving foster 
care. The Opportunity Passport? has three distinct elements:

    <bullet>  A personal debit account to be used to pay for short-term 
expenses;
    <bullet>  A matched savings account, also known as an Individual 
Development Account (IDA), to be used for specific assets, such as 
education expenses and housing down payments/deposits.
    <bullet>  Door openers, a host of opportunities to be developed on 
a local basis. Examples include pre-approval for registration for 
community college courses or expedited access to job-training or adult 
education courses.

    The Opportunity Passport<SUP>TM</SUP> helps participants learn 
financial management; obtain experience with the banking system; save 
money for education, housing, health care, and other specified 
expenses; and gain streamlined access to educational, training, and 
vocational opportunities.
    Through the Opportunity Passport<SUP>TM</SUP>, young people are 
trained in financial literacy: money matters, such as how to budget, 
how to balance a checkbook, how to use credit wisely, how to avoid the 
predatory lending system, and getting a loan that they can repay. All 
Opportunity Passport<SUP>TM</SUP> participants have bank accounts, 
compared to only half of young people who have aged out of care in the 
Midwest Evaluation. Saving is encouraged with a one-to-one match in an 
Individual Development Account, or IDA, that they can use to buy assets 
that build future economic success, such as educational expenses, 
housing, and cars to get to work and school, medical expenses or to 
start a business.
    The Opportunity Passport<SUP>TM</SUP> IDA differs from that in the 
Assets for Independence Act (AFIA). This design provides match for the 
purchase of cars and security deposits for rental apartments or houses, 
not just down payments for home purchase. The security deposit is often 
the barrier to being able to find a place to live. The match for their 
savings for down payment or purchase of a car includes licensing fees 
and insurance. A car is an absolute necessity to have a job and/or 
continue going to school. Consider rural northern Michigan, or the 
state of Maine, where transportation to school and work is nearly 
impossible without a car. Transportation is no less a barrier in 
Atlanta or Denver. Being able to save for a car is also a motivator to 
continue saving, thereby learning money management skills.
    We have seen a level of success: One in four of Opportunity 
Passport<SUP>TM</SUP> participants have purchased assets with the most 
common purchases being cars, housing and education expenses. To date, 
these young people have saved more than $1.33 million and have bought 
715 assets, including, 363 vehicles, 144 home or apartment security or 
down payments, 119 education expenses, 45 investments, 23 medical 
expenses and 21 starting businesses. That's actually more than low-
income adults who participated in the American Dream Demonstration, the 
national IDA evaluation. In three years and with a two-to-one match, 
those adults saved $1.31 million and bought 631 assets.
    The Opportunity Passport<SUP>TM</SUP> has helped Bill Schramm, 21, 
start a very successful DJ business in Traverse City, Michigan as well 
as buy a 1985 Toyota and pay off some medical bills. In Nashville, it 
has helped Dakota Irsik, 20, invest his savings to build a reserve 
fund. And several young people in Atlanta, Detroit, and elsewhere have 
used it to buy their very own homes. In some of those cases, our sites 
work with the local United Ways who support IDAs and have funds under 
AFIA. They are able to raise the level of match to 4-1 for home 
purchases, an approved asset under the federal program.
    I urge Congress to enact authorization for matched savings 
accounts, or IDAs, for youth transitioning from foster care that would 
include assets such as a car and security deposits for housing rentals. 
Particularly in rural areas, there is no alternative to a car to get 
work or school. And at least one research project, Wheels to Work, has 
shown significant increases in income for people able to buy a car. 
States also can support an IDA that would match savings, child support 
payments made on behalf of the youth, and any other income for youth in 
foster care, and use the Jim Casey Youth Opportunities Initiative model 
of approvable assets for purchases with the match.
    It is important to stress that our experience in 10 sites across 
the country confirms the necessity to integrate connections and 
permanence with financial and economic strategies. We conclude from our 
data that a stand-alone IDA is unlikely to succeed. The ability to 
build assets and manage financially is closely linked to connections 
and supports.
    As I mentioned earlier, a cornerstone of the work of the Jim Casey 
Youth Opportunities Initiative is youth engagement and youth 
leadership. All 10 of our sites have youth leadership boards. These 
have proven to be remarkable and invaluable sources of connections, 
peer support, and leadership development.
    We firmly believe that youth voices need to be heard in decisions 
affecting their case deposition and that youth engagement permeates 
policy and legislative decision-making. Youth boards in Michigan and 
Georgia have become national models that others seek to emulate. In 
Michigan, for instance, the youth board published a set of policy 
recommendations to policymakers, called Voices, and presented it to 
Department of Human Services Director and key DHS staff. Youth board 
members also met with their legislators as well as key committee 
members and chairs. Governor Jennifer Granholm invited them to meet 
with her and her Cabinet to present Voices. That meeting resulted in 
top government officials volunteering to be mentors for older youth in 
and out of care and in several departments giving priority to foster 
youth for paid internships and summer jobs. The Michigan youth boards 
from Detroit and the northern counties are now working on a second 
edition, noting that 16 of their 21 recommendations have been achieved 
or seen significant improvement. Georgia has produced a similar 
document called Empowerment.
    We need better data about what states are doing with their 
independent living programs under Chafee. The Department of Health and 
Human Services (HHS) finally has proposed rules about this, that if 
adopted may require states to report data next year to the National 
Youth Transition Database. Still, the HHS proposal has shortcomings: 
States will have to report on outcomes for 60 percent of youth who have 
left care (or for all youth in small states). The challenges of data 
collection are immense, but the penalties for noncompliance are 
nominal. We are concerned that states will risk the penalties rather 
than track down youth who have left care. Without this data, we have no 
measure of how our funding, policies, and practices are impacting the 
life outcomes for these youth. These long-awaited rules for a National 
Youth Transition Database should be implemented soon.
    To summarize, I would respectfully ask the Congress to adopt the 
following recommendations to make major progress in improving the bleak 
outcomes that we see in the population of young people aging out of 
foster care:
    1. It should be the national policy, and a nationally measured 
goal, that every child emancipating from foster care have a connection 
to a supportive family.
    2. Federal financial participation should be available to the 
states for kinship, guardianship, and adoption, and the financial 
incentives to the states should be for all forms of permanence.
    3. Reimbursement under Title IV-E should be available to the states 
for foster care up to age 21, on a voluntary basis and with a clear 
right to return to foster care.
    4. All states should exercise the Medicaid option under Chafee for 
youth emancipating from foster care to age 21.
    5. Congress should recognize the progress made by the states by 
continuing the Education and Training Vouchers, with incentives to the 
states to recognize the flexibility needed for this highly vulnerable 
population, allowing part-time school attendance, extending the age of 
eligibility to 25 to allow for college completion, and recognizing the 
unique needs of this population for housing, child care, and options 
for housing during school vacations.
    6. Congress should recognize the need for financial literacy and 
assets for this population and authorize Individual Development 
Accounts demonstration projects for youth emancipating from foster 
care, including more flexibility to include cars and rental housing as 
assets necessary to economic success and as incentives for 
participation. Traditional youth IDAs have a poor record, and must be 
altered for those lacking the support of family members.
    There is momentum building among the states to implement innovative 
strategies to improve the outcomes for this population. I urge Congress 
to capture this momentum, and exert national leadership. Our knowledge 
base on what we need to do has grown greatly the past few years, and 
the opportunity to make substantial progress is at hand. The net 
benefit, and the net savings, are measurable and within our reach.
    Young people in transition display a remarkable spirit of 
resiliency. They have a powerful drive for family--one that I believe 
is hard-wired in our beings. They show it in every setting and in every 
way. Resilience is amazing. Resilience based on stability and 
permanence in their lives is priceless. And it is the base for the 
success in life that we want to see for all our children.
    Thank you very much for this opportunity to address the committee.
    This concludes my testimony, and I welcome your questions.

                                 <F-dash>

    Chairman MCDERMOTT. Mr. Cobbs?

  STATEMENT OF SAM COBBS, EXECUTIVE DIRECTOR, FIRST PLACE FOR 
                             YOUTH

    Mr. COBBS. Thank you, Mr. Chairman.
    My name is Sam Cobbs. I am the Executive Director of First 
Place for Youth. I would once again like to thank you for the 
invitation to appear this prestigious body.
    First Place for Youth is a community based social service 
agency located in the San Francisco Bay area, whose mission is 
to support youth in their transition from foster care to 
adulthood by promoting choices and strengthening individual and 
community resources.
    First Place works to ensure that all foster youth have the 
opportunity to experience a safe supported transition from 
care.
    Before I continue on, I would actually like for you to take 
a trip down memory lane with me.
    Please think back to your 18th birthday or your high school 
graduation, whichever trip is shorter. Think back, what was 
that like for you? Did your parents throw you a big party? Was 
it a quiet day with a few family and friends? What presents did 
you receive?
    What was next for you? College? Taking a year off to 
travel. How excited were you about what your future held? How 
confident were you that you could do anything that you wanted 
and that you had people who were a part of your life that would 
help you accomplish it?
    Now, put yourself in the shoes of transitioning foster care 
youth and think about those days again. The same days that most 
of us just thought about with feelings of happiness and 
excitement are the same days that former foster youth describe 
as having a huge knot in their stomach from anticipating a 
pending doom, because it is on a foster youth's birthday that 
we tell them happy birthday, and now get out and fend for 
yourself.
    A year ago I received a phone call from a young lady that 
illustrates the conflict of emotions youth have leaving the 
foster care system. The call from this young woman started on a 
happy note because she had received news that she had enough 
high school credits to graduate in 2 weeks. The call ended with 
her in tears. She realized that her social worker would have no 
other choice but to release her from their care and that she 
had nowhere to go.
    Cheryl, now a participant in the First Place program, 
reported that she was so angry on her graduation night because 
she had to pack her bags in preparation to move from her foster 
home instead of hanging out with her friends and enjoying her 
accomplishments.
    Then she added that at least she had luggage. It was not 
like the other friends exiting foster care that moved the year 
prior who had to pack their belongings in black plastic bags. I 
will come back a little later to tell you about that luggage.
    As I have so often heard Karen Bass, an Assembly member in 
the California State legislature say in regards to this issue 
``It is not just wrong what we do to your foster youth in this 
country, but it is morally unacceptable.''
    At First Place, we pick up where our Government system 
abruptly ends its responsibility for youth it once removed from 
their families and homes and agreed to care for.
    We provide critical services for transitioning youth for 
the first time when they need it most, when they are attempting 
to make the critical transition from adolescence to adulthood.
    First Place provides support services that at their core 
offers permanency, provides safe affordable housing, and the 
opportunity for true self sufficiency through vocational and 
education support.
    ``Permanency'' is a word that you will hear thrown around 
as you research this issue. You may have a hard time 
understanding what this word means in the context of 
transitioning youth as I once did. However, I think I can spare 
you a lot of time by telling you what I found when I stopped 
reading the literature and started looking around me and 
listening to the youth.
    ``Permanency'' to them means having their picture on 
somebody else's wall in their house. ``Permanency'' means 
having someone to call, not only when you need support, but to 
also share important occasions in your life, like your wedding, 
your graduation from college, or because you have just 
spearheaded policies that will improve the lives of America's 
foster youth.
    Connecting young people to adults that they choose to be a 
part of their life versus someone else choosing for them is a 
critical element of the success of the First Place program.
    However, if I had to give you the key ingredient to the 
First Place secret sauce of success, it would be that for the 
first time in these youth's lives, it is all up to them. They 
now have the opportunity to take control of their own lives and 
whatever happens from that day that they walk into our building 
to a future where their potential is limitless, this is a very 
important aspect to consider as you propose legislation and 
move policy changes forward.
    Please do not duplicate the ``luggage solution.'' Remember 
my story about Cheryl? She recalls seeing other foster care 
youth move their belongings out to the streets of our cities in 
plastic garbage bags that were chosen because they were big 
enough to fit the contents of their entire lives.
    After independent living skills programs and child welfare 
officials found out about this, they began to buy luggage for 
youth who were leaving care. However, I contend they were 
shortsighted and missed the point. Cheryl and other youth took 
their luggage to homeless shelters when they left the system.
    I ask that you not enact legislation whether or not it is 
the extension of Title IV-E funding until age 21, which 
provides critical support to foster youth at this critical 
transition, but do it in a way that replicates what we do at 
First Place, through an unique partnership with State, social 
service, and private resources. We give the youth the chance to 
practice being interdependent, to make mistakes that they can 
learn from, and to have reference points and supporters to come 
back to in the future.
    Policy reform must seek to integrate youth in a positive 
safe community that is diverse and does not relegate them to 
the former foster youth compound.
    Create a way that they are not only being cared for and 
supported, but that there are also high expectations for them 
that they can and will live up to.
    We often talk in the field that foster youth are our 
children and that we must treat them as we would our own 
children. We must then have the same expectations for foster 
youth that we have for our own children, in the unwavering 
commitments all parents have to help their children achieve 
their dreams and create a future where they are safe, healthy, 
and feel valued by society in their community.
    Our laws and how we allocate funds must reflect this widely 
felt and often repeated commitment. By cutting them off from 
meaningful support on the day they leave care rather than 
contemplating a bright future that they are in charge of, they 
are concerned with where they will sleep that night.
    We know how to facilitate a successful transition for 
youth. It is very cost effective. It costs First Place about 
$20,000 a year to provide these services. I would hope that you 
would do this not only because it is a financial savings, but 
because we are morally obligated to support our youth.
    Thank you. I am sorry I went over.
    [The prepared statement of Mr. Cobbs follows:]
 Prepared Statement of Sam Cobbs, Executive Director, First Place Fund 
                     for Youth, Oakland, California
    Hello. I am Sam Cobbs, Executive Director of First Place for Youth 
and I would like to thank you for the invitation to appear before this 
prestigious body today. First Place for Youth is a community-based 
social service agency located in the San Francisco Bay Area whose 
mission is to support youth in their transition from foster care to 
adulthood by promoting choices and strengthening individual and 
community resources. First Place works to ensure that all foster youth 
have the opportunity to experience a safe supported transition from 
foster care. Before I continue, I would like you to indulge me in a 
trip down memory lane.
    Please think back to your 18th birthday or your high school 
graduation, whichever trip is shorter. Think about what that was like 
for you. Did your parents throw you a big party or was it a quiet day 
with just a few family and friends? What presents did you receive? What 
was next for you--college or taking a year off to traveling? How 
excited were you about what your future held? How confident were you 
that you could do anything that you wanted and that you had people who 
were a part of your life that would help you accomplish it? Now, put 
yourself in the shoes of transitioning foster care youth and think 
about those days again. The same days that most of us just thought 
about with feelings of happiness and excitement are the same days that 
former foster youth describe as having a huge knot in their stomach 
from anticipating a pending doom. Because it is on a foster youth's 
18th birthday that we tell them happy birthday and now get out and fend 
for yourself!
    A year ago, I received a phone call from a young lady that 
illustrates the conflicted emotions youth leaving foster care face. The 
call from this young woman started on a happy note because she had 
received the news that she had enough high school credits to graduate 
in two weeks. The call ended in tears because she realized that her 
social worker would have no other choice but to release her from their 
care and that she had no place to go. ``Cheryl,'' now a participant in 
the First Place program, reported that she was angry on her graduation 
night because she had to pack her bags in preparation to move from her 
foster home instead of hanging out with her friends and enjoying her 
accomplishment. Then, she added that at least she had luggage and was 
not like her other friends exiting foster care that moved the year 
prior and had to pack their belongings in black plastic bags. I will 
come back a little later to tell you more about that luggage.
    As I have so often heard Karen Bass, a Senator in the California 
State legislature say in regards to this issue . . . ``It is not just 
wrong what we do with to our foster youth in this country but that it 
is morally unacceptable.'' At First Place we pick up where our 
government system abruptly ends its responsibility for the youth it 
once removed from their families and homes and agreed to care for. We 
provide critical services for transitioning foster youth at the time 
that they need it most--when they are attempting to make the critical 
transition from adolescence to adulthood. First Place provides support 
services that at their core offers permanency, provide safe affordable 
housing, and the opportunity for true self-sufficiency through 
vocational and educational support.
    ``Permanency'' is a word that you will hear thrown around as you 
research this issue. You may have a hard time understanding what that 
word means in the context of transitioning youth as I once did. 
However, I think I can spare you a lot of time by telling you what I 
found when I stopped reading the literature and started looking around 
me and listening to the youth. Permanency to them means having their 
picture on someone else's wall in their house. Permanency means having 
someone to call not only when you need support but to also to share 
important occasions in your life like your wedding, your graduation 
from college, or because you have spearheaded policies that will 
improve the lives of America's foster youth. Connecting young people to 
adults that they choose to be a part of their lives versus someone else 
choosing for them is a critical element of the success of the First 
Place Program.
    However, if I had to give you the key ingredient to the First Place 
secret sauce of success, it would be that for the first time in these 
youths' lives, it is all up to them. They now have the opportunity to 
take control of their own lives and whatever happens from the day that 
they walk into our building to a future where their potential is 
limitless. This is a very important aspect to consider as you propose 
legislation and move policy changes forward. Please do not duplicate 
the ``luggage solution.''
    Remember my story about Cheryl? She recalled seeing other former 
foster care youth moving their belongings out to the streets of our 
cities in plastic black garbage bags that were chosen because they were 
big enough to fit the contents of their entire lives. After Independent 
Living Skills Programs and child welfare officials found out about this 
they began to buy luggage for youth who were leaving care! However, I 
contend they were shortsighted and missed the point because Cheryl and 
the other youth took their luggage to a homeless shelter when they left 
the system. I ask that you enact legislation, whether or not it is the 
extension of Title IV-E funding until age 21, which provides meaningful 
support to foster youth at this crucial transition, but do it in a way 
that replicates what we do at First Place through a unique partnership 
between state social services and private resources: we give youth the 
chance to practice being interdependent, to make mistakes that they can 
learn from, and have reference points and supporters to come back to in 
the future. Policy reform must seek to integrate youth into a positive 
safe community that is diverse and does not relegate them to the former 
foster youth compound. Create a way that they are not only being cared 
for and supported but that there are high expectations for them that 
they can and will live up to. We often talk in the field that foster 
youth are our children and that we must treat them as we would our own 
children. We must then have the same expectation for foster youth that 
we have for our own children and the unwavering commitment all parents 
have to help their children achieve their dreams and create a future 
where they are safe, healthy and feel valued by society and their 
community. Our laws and how we allocate funds must reflect this widely 
felt and often repeated commitment. By cutting them off from meaningful 
support, on the day they leave care, rather than contemplating a bright 
future that they are in charge of, they are concerned with where they 
will sleep at night and how they will support themselves. Nice luggage 
does little to remedy the reality of many of these youths' futures. By 
embracing these principles wholeheartedly First Place youth are 
achieving positive outcomes:

    <bullet>  80% of First Place graduates maintained permanent, safe, 
affordable housing after exiting the program.
    <bullet>  83% obtained employment at an average wage of $9.73 per 
hour
    <bullet>  100% of youth who are parents retained custody of their 
children, ending the often intergenerational cycle of foster care 
involvement
    <bullet>  95% of young mothers did not have another child
    <bullet>  94% of participants maintained health insurance and 
sought out wellness care
    <bullet>  70% enrolled in post-secondary education

    We know what we need to do to facilitate the successful transition 
of foster youth to adulthood. The financial costs to achieve these 
outcomes are reasonable and should be seen by all of us as a bargain. 
It costs about $20,000 a year for us to house and provide services to 
former foster youth. We are able to do this in an area that has one of 
the highest costs of living in the country. We truly believe that if it 
can be successfully done here, it can be done anywhere. This cost is 
minimal in comparison to the cost of long term shelter stays, 
institutional care, public benefit use, and incarceration, which foster 
youth who exit care without support are at higher risk for experiencing 
than their peers. It is a wise and necessary investment that has great 
returns in the creation of productive, educated, and responsible 
citizens that contribute to our communities. You may be persuaded that 
youth leaving foster care need and deserve support as they leave state 
care because it is a financially sound and cost-saving decision. I hope 
that you are also persuaded that we as a society are morally obligated 
to provide support and opportunities to these youth who are our 
responsibility and our most valuable resources.

                                 <F-dash>

    Chairman MCDERMOTT. Thank you.
    Ms. Soltis.

   STATEMENT OF JANE SOLTIS, PROGRAM OFFICER, ECKERD FAMILY 
                           FOUNDATION

    Ms. SOLTIS. Good afternoon, Mr. Chairman, Representative 
Weller and Members of the Committee. It is my pleasure to be 
here today.
    The Independent Living Services Advisory Council is a 
legislatively mandated council in Florida that advises the 
legislature as well as the Department of Children and Families 
on the status of independent living services. I am privileged 
to Chair this Council.
    The Eckerd Family Foundation, which I also represent, has 
invested more than $20 million over the last 8 years in 
Florida, North Carolina, and Delaware to enhance foster care, 
juvenile justice, and education programs.
    Youth aging out of foster care is one of the Foundation's 
priorities. We have piloted a successful set of strategies 
called Connected by 25 in Hillsborough County, Florida, and are 
replicating this project in two other counties with our 
partners, Jim Casey and countless other individuals, civic and 
private funders.
    I want to emphasize that this investment of private 
resources is not designed to replace government's essential 
responsibility for child welfare services, but rather to 
enhance independent living services so that the outcomes for 
these youth are improved.
    In our Connected by 25, we have learned that when the 
ordinary citizen is educated about the reality of life for 
these young people, that they have been very responsive. They 
see them as our children, that we should do no less for them 
than we do for our own.
    As a result, we have seen unprecedented public/private 
partnerships developed within our community based child welfare 
system, and we need to support those partnerships.
    Private philanthropy has also risen to the challenge. This 
is not just Government's problem. This is our problem, and we 
all pay for the consequences of not addressing the problem 
through costs to our quality of life, our prisons, entitlements 
and ultimately our future.
    It just makes good economic as well as good moral sense to 
support and prepare these young people.
    A word of caution, however. Private investors will expect 
to see results or outcomes. They will expect a return on their 
investment. They will expect real data in real time, and they 
will expect policies to be driven by data. They will expect 
that the public side of the partnership is doing its job and is 
accountable for its responsibilities.
    Data results and spending the taxpayers' dollars wisely, 
especially on established effective programs, is in our best 
interest here in Washington and at home.
    We must have clear and measurable outcomes for the services 
and funding provided, and everyone must be held accountable to 
those measures.
    The Foster Care Independence Act mandatory data collection 
and performance assessment requirements must be a priority.
    It is clear that educational achievement is one of the most 
reliable predictors of future economic success. If you do not 
finish high school, you do not go to college, you do not go to 
technical school, and without that base, your earning potential 
is severely compromises.
    We know that without a high school diploma, foster youth 
have limited access to Chafee and ETV or waivers that allow 
them free tuition to a State school in Florida. We also know 
there is an intricate web of factors that influence these poor 
educational outcomes, stability, permanent families, and 
transportation are a few.
    When we asked a group of young people at Connected by 25 in 
Tampa how to make a dent in their high school attendance and 
completion rates, which were ten times worse than the normal 
young person in that county, they were able to provide 
solutions.
    Give us one guidance counselor who understands the issues 
of foster care and who will be there for us no matter which 
school we are attending. If we have dropped out of school, give 
us a place where we can get individual tutoring, work at our 
own pace, open end hours that accommodate our work schedules 
and on the bus lines.
    The child welfare and the education systems listened and 
saw a 200-percent increase in school attendance, graduation, 
and enrollment in post-secondary education in 1 year. They 
learned that $50,000 privately funded for the first year for a 
dedicated guidance counselor is a modest investment for such 
great outcomes, and have since embedded the position in their 
system and expanded the strategy to middle school.
    However, we need more aggressive and flexible support for 
postsecondary education. Youth who age out of foster care need 
to support themselves and attend school. They should ensure 
that the use of Chafee and vouchers support part time 
employment and part time school attendance more strongly.
    Safe and affordable housing, we have already talked about, 
and has been clearly identified as an issue. There are barriers 
and rules that preclude access to safe and affordable housing 
options.
    We can identify youth aging out of foster care as a 
designated special population eligible for all Federal housing 
programs, Section 8. We can change the definition of 
``homelessness'' to include foster care youth on discharge from 
legal custody. We can remove all language that prohibits full 
and part time school attendance if aged out of foster care.
    We can increase the cap on Chafee funds for housing and 
increase the amount of ETV for postsecondary students, and then 
we can make sure that eligibility criteria is in language that 
young people can understand because they are really sometimes 
the only ones who are advocating for themselves.
    We need to listen to the young people who tell us willingly 
and publicly their stories and to help explain the solutions 
that we need. They are our best hope for solutions.
    Thank you very much for this opportunity. I would be happy 
to answer questions.
    [The prepared statement of Ms. Soltis follows:]
   Prepared Statement of Jane Soltis, Program Officer, Eckerd Family 
                               Foundation
    Good morning, Mr. Chairman and members of the Committee. It is my 
pleasure to be here today.
    The Independent Living Services Advisory Council (ILSAC) is a 
legislatively mandated council of interested and committed volunteers 
in Florida that advises the Legislature as well as the Department of 
Children and Families on the status of independent living services in 
Florida. I am privileged to chair this Council.
    The Eckerd Family Foundation, which I also represent, is a time-
limited family foundation. Founded by Mr. Jack Eckerd and his wife Ruth 
Eckerd it is committed to improving the lives of vulnerable and 
disconnected young people so that they may become successful adults. 
Eckerd Family Foundation has invested more than $20 million over the 
last 8 years in Florida, North Carolina and Delaware to enhance foster 
care, juvenile justice and education programs.
    While there are a number of issues related to youth aging out of 
foster care, I will focus my testimony on public-private partnerships, 
the need for data and outcomes, education and housing. My esteemed 
colleagues Gary Stangler and Mark Courtney can speak more articulately 
about some of the other strategies that we all concur are key to 
changing the outcomes for these youth.
    Youth aging out of foster care is one of the Eckerd Family 
Foundation's primary priorities and we have piloted a successful set of 
strategies, ``Connected by 25,'' in Hillsborough County, Florida and 
are replicating that project in 2 other counties of Florida with our 
partners Jim Casey Youth Opportunities Initiative, the Annie E. Casey 
Foundation, the Lumina Foundation for Education and countless other 
individuals, civic and private funders.
    The strategies of Connected by 25 include:

    <bullet>  Advocating and supporting educational achievement
    <bullet>  Facilitating and creating access to workforce development 
opportunities
    <bullet>  Providing financial literacy education
    <bullet>  Encouraging savings and asset accumulation
    <bullet>  Creating entrepreneurship opportunities
    <bullet>  Accessing safe, stable and affordable housing
    <bullet>  Ensuring that no child leaves our system without a 
permanent connection or ``family''

    The Stuart and Walter S. Johnson Foundations, private funders in 
California, are implementing the same set of strategies in that state.
    I want to emphasize that this investment of private resources is 
not designed to replace government's essential responsibility for child 
welfare services to children in the care and custody of the state, but 
rather to enhance independent living services so that the outcomes for 
these youth are improved. These children like any others in our country 
have the skills, abilities and heart to be great citizens in our 
communities. They must be given the guidance and support that allows 
them to flourish.
    As Chairman McDermott so aptly stated, ``as the de facto parents of 
foster children we should do no less.'' In our Connected by 25 sites, 
we have quickly learned that the majority of citizens believe that the 
government is taking care of preparing these young people with the 
supports, resources and skills necessary for economic self-sufficiency 
and success. When the ordinary citizen is educated about the reality of 
life for many of these young people, they have been quick to rise to 
the occasion. They see this as a manageable number of kids that we 
should be able to successfully help transition to adulthood and that 
these young people are ``our children.'' That we should do no less for 
them than we do for our own children. As a result of that public 
awareness campaign, we have seen unprecedented public-private 
partnerships with our community-based child welfare system. 
Organizations such as the Rotary, Kiwanis, United Way, Junior Leagues, 
100 Black Men, the Bar Association and faith-based communities have 
come forward to partner in this effort. The private philanthropic 
community has also risen to the challenge. This is as it should be. 
This is not just government's problem . . . this is our problem and we 
pay for the consequences of not addressing the problem through the cost 
to our quality of life, our prisons, entitlements and ultimately our 
future. It just makes good economic as well as good moral sense to 
support and prepare these young people. This sort of public-private 
partnership is one that needs to be encouraged and supported. The child 
welfare system is not equipped to do this alone. Our collective 
challenge is to stimulate more of these partnerships, invite others to 
the table and consider incentives to ensure that they have a meaningful 
seat at that table. It is also clear that youth must have a central 
seat at the table and are viewed not as the problem but experts in 
solution building.
    A word of caution however. Private investors will expect to see 
results or outcomes. They will expect a return on their investments. 
They expect real data in real time. They will expect policy to be 
driven by data. They expect that the public side of the equation or 
partnership is doing its job and is accountable for its 
responsibilities. As the background information on this hearing states, 
``the impact on the outcomes for former foster youth is still uncertain 
because an assessment and data collection system for the program has 
yet to be established in final form by the Dept. of Health and Human 
Services.'' At this time it appears that May 2008 is the target date 
for the first collection of data.
    States like Florida, Michigan and California, have taken the 
initiative to address this unconscionable lack of accountability for 
the public dollars they disburse. While there is no state that has 
found the magic software or reporting system that captures everything 
we want or need to know, those that are working to base their decision 
on sound data and evidence of what works should be commended for their 
efforts. The recent National Governors Association Institute for Best 
Practices Policy Academy on youth transitioning out of foster care 
served to highlight this issue.
    Data and the collection and analyzing of outcomes should be driving 
each state in the development and implementation of policy and practice 
about what is working to change the results for these young people. 
Mark Courtney and his work at Chapin Hall, Gary Stangler and the work 
of the Jim Casey Youth Opportunities Initiative in their Opportunity 
Passport and our own Connected by 25 sites in Florida and California, 
and programs in other states, clearly demonstrate some workable 
solutions. We need to cease putting dollars in programs that have 
proven they do not work despite their best intentions, begin holding 
public and private providers and our courts accountable for what we 
know works and change the tides here. But as any private investor will 
tell you, we need real data in real time and measurable results on 
which to base those decisions. The Eckerd Family Foundation has 
recently commissioned Child Trends to provide us and the policymakers 
of the state of Florida the data on the numbers of the disconnected 
youth in our state so that we have an accurate database on which to 
craft system solutions.
    Establishing and finalizing the Foster Care Independence Act of 
1999, mandatory data collection and performance assessments 
requirements for states should be a priority of the Congress, the 
Administration and the Deptment of Health and Human Services. We must 
have clear and measurable outcomes for the services and funding 
provided and states as well as communities and providers need to be 
accountable to those measures.
    Economic success depends on education and we need to set our 
expectations and sights as high for these young people as we do for our 
own children.
    It is very clear that educational achievement is one of the most 
reliable predictors of future economic self-sufficiency. If you cannot 
finish high school, you cannot get into college or vocational/technical 
training. Without that base, your earning potential is severely 
compromised. Most foster youth do not have the ability to hold part-
time jobs before they turn 18 and age out. Our licensing requirements 
are an obstacle for foster families and group homes in this regard, and 
we know that youth who work part time are much more likely to graduate 
from high school, develop good work skills and ethics and are more 
likely to acquire and maintain employment as adults.
    We also know that without a high school diploma, foster youth have 
limited access to Chaffee and Educational and Training Vouchers. They 
cannot utilize the waivers that allow them free tuition to a state 
school in Florida. We know that youth aging out of foster care have 
poor high school graduation rates. We also know that there is an 
intricate web of factors that influence these poor outcomes including 
safety, stability, permanency, transportation and the ability to attend 
their ``home'' school. These factors cross the systems of child 
welfare, education, transportation and workforce. When we asked a group 
of young people at Connected by 25 in Tampa, Florida how to make a dent 
in their high school attendance and completion rates which were 10 
times worse than the normal young person in the county, they were able 
to provide a solution. Give us one guidance counselor who understands 
the issues of foster care and will be there for us no matter which 
school we are attending. If we have dropped out, give us a place where 
we can get individual tutoring, work at our own pace, which is open at 
hours that accommodate our working schedules and is on the bus line.
    The child welfare and education systems listened and saw a 200% 
increase in school attendance, graduation and enrollment in 
postsecondary education in one year. The child welfare system and the 
school system have learned through this privately funded pilot idea 
that $50,000 for a dedicated guidance counselor/educational advocate is 
a modest investment for such great outcomes and have since embedded the 
position in their system and have expanded the strategy to middle 
school.
    However, we need more aggressive and flexible support for post 
secondary education.
    Youth who age out of foster care need to support themselves 
economically and attend school. States should ensure that the use of 
Chaffee and Educational Training Vouchers support part-time employment 
and part-time school attendance more strongly.
    Safe and affordable housing continues to be a primary issue for 
many of the youth. Most are forced to leave their foster home or group 
home placements on their 18th birthday.
    Can you imagine your child worrying about where they will sleep at 
18 years of age? We know in Florida that 40% of former foster youth 
experience homelessness within 18 months of leaving foster care. And we 
know that without housing, former foster care youth cannot access 
education, employment or training services.
    While federal funding from the Foster Care Independence Act has 
given us the ability to wrap our hands around many of the services 
required for this population, there are barriers and rules that are 
forcing many of our youth to slip through our fingers.
    The reality is that most of the 18 year olds we are talking about 
are in 11th and 12th grade in high school. As you know, most youth from 
intact families can expect ongoing support well into their early 
twenties; however, for foster care youth the legal obligation for 
continued services ends at age 18.
    Our work is not about entitlement, but investment in our foster 
youth. It is our call to action to create a continuum of care services 
on the federal, state and community level. As part of this call to 
action, we are requiring safe, affordable and stable housing options.
    We can remove barriers by advertising and informing on every level 
of the eligibility of foster care youth for these programs. 
Communicating eligibility criteria in language a young person can 
understand, because often they are the only ones advocating for 
themselves--the only ones trying to find a way for themselves.
    Together we can identify youth aging out of foster care as a 
``designated special population'' eligible for all federal housing 
programs.

    <bullet>  Section 8: Foster Youth will be eligible for Section 8 
housing immediately upon discharge from foster care, even if the youth 
is single and a full-time student. Eligibility will continue as long as 
the youth is eligible to receive Chaffee funds and/or Educational and 
Training Vouchers (ETV).
    <bullet>  The definition of ``homeless'' for all federal programs 
should include--foster care youth upon their discharge date from legal 
custody.
    <bullet>  For all federally funded housing programs: Remove all 
language that prohibits full and/or part-time school attendance if the 
youth aged out of foster care--legal custody of the state at the age of 
emancipation.
    <bullet>  Increasing the cap on Chaffee funds for housing: 
Currently no more than 30% can be used on Room and Board--Increase that 
amount to 50% for youth still in high school or obtaining their GED.
    <bullet>  Increase the amount of ETV for postsecondary students 
from $5,000 to $7,500.

    Youth across the nation who have aged out of care, through 
California Youth Connection, Foster Care Alumni Assn, or our own 
Florida Youth Shine, have demonstrated a willingness to volunteer, to 
give back and help fix the problems for those younger. They willingly 
publicly tell their stories in an effort to help explain the solutions 
needed. Their resilience and caring in the face of all that has 
befallen them should serve as an inspiration. We ask you to expand 
provisions empowering the youth and supporting them in becoming their 
own best advocates, for their futures and for the success of those who 
come after them.
    Thank you very much for this opportunity. This concludes my 
testimony and I would be happy to answer questions.

                                 <F-dash>

    Chairman MCDERMOTT. Thank you. Thank all of you for your 
testimony.
    One of the interesting things that I picked up from 
listening to this is this whole question of permanency and how 
you deal with that. I would like to hear first of all if any of 
you have any knowledge about a State that is doing the best job 
in all the factors around this issue of aging out, what State 
it is and what kind of things they have in place.
    Also, your ideas about if a kid is 15 or 16 and is out of 
control, as one of these young men suggested, it is hard to 
adopt. Older kids are hard to adopt. Everybody knows that. The 
statistics are very clear.
    Adoption may not be the issue. Perhaps a court appointed 
guardian ad litem forever. What is the mechanism by which you 
tie a kid to somebody? Some of them found voluntary ones. Some 
found family members. What are the mechanisms or what are the 
programs people are using to try to give that connection. Is it 
just the program itself that you are tied to, such as the Jim 
Casey Foundation or to the Eckerd Foundation, so you go back to 
whoever your contact was there?
    I would like to hear the best practice States and then 
whatever you think about this whole business of giving kids 
permanency.
    Dr. COURTNEY. Mr. Chairman, two things. One is I do not 
think any State is doing the best at all of these things in 
terms of permanency and preparing kids for adulthood.
    Chairman MCDERMOTT. Give me the range. Give me the ones 
that are doing good in this and the ones that are doing good in 
that.
    Mr. STANGLER. I would say the State that is doing very well 
in permanence, including identifying family members and using 
things like family finders and team decisionmaking, et cetera, 
Michigan and Iowa would be two States I would put up there in 
that regard.
    In terms of preparation for adulthood, many of the things I 
have talked about, in terms of economic success, I would look 
at Colorado. I would look at Florida. Those would be the 
States. Connecticut. Those would be the States that I think are 
doing a good job. Maine has greatly lowered the number of kids 
in foster care by finding permanent families along the lines 
you have talked about. Oklahoma is co-locating child welfare 
and child support enforcement staff to identify families for 
these kids.
    There are a number of innovations going on. Those are the 
ones I would throw out.
    Ms. SOLTIS. I will just add that often times there are 
adults in communities who hear about this, who get educated 
about these issues, and they may not have the capability of 
adopting, but they certainly may be interested in becoming 
guardians, being that support, being connected to them.
    They cannot sometimes financially afford to send another 
young person to college and unfortunately, our laws in the past 
have dictated that if you are adopted, then you sometimes do 
not qualify for some of the educational vouchers that we have 
made available, so you have to choose between adoption or the 
tuition assistance.
    There are people who are willing to become guardians and 
become that person, that permanent connection. I think we need 
to support and provide incentives for that as well.
    Chairman MCDERMOTT. Is that in a legal way?
    Ms. SOLTIS. It can be.
    Chairman MCDERMOTT. A guardian? It could be court 
appointed?
    Ms. SOLTIS. It could be court appointed. Often times if you 
talk to the young people, they can tell you the important 
people in their life. It might be a coach. It might be a 
friend's mother. It might be a whole series of people. It is 
not the traditional foster family that we think about.
    Mr. COBBS. Mr. Chairman, I would also like to respond and 
just tell you a little bit about a pilot program that we are 
running for the State of California, where we are really trying 
to attack this issue of permanency for those young people who 
are 18 and transitioning out of the foster care system.
    Very simply what we have done is we have asked them who is 
that permanent connection. We ask the question if you were in 
trouble, if you needed someone to call, if you were sick and 
you needed someone to bring you soup over to your house, who 
would that person be.
    They come up with answers. We go to that person and ask 
would you be willing to allow this young person who is 
transitioning to stay in your household, and we will help 
facilitate that relationship, work out the rules of that 
relationship.
    We have had some success. What we found is that the only 
reason these community supporters will not step up is because 
they have not been asked to step up.
    We do not recruit people, special appointments. We go to 
the young people and say who are these people. We have not been 
turned down when we have gone to coaches and community leaders 
and people in churches and things like that that the youth have 
also identified.
    Dr. COURTNEY. I guess I would like to maybe reframe your 
question in the following way. I think the question for me is 
how do we get States to do all these wonderful things that 
people are talking about. Why do we think States would actually 
do these things if they are no longer legally responsible for 
these young people.
    Which is what happens when we say they age out at 18. That 
is really what we are talking about. We are saying the State 
child welfare agency is no longer legally responsible for the 
care and supervision of that young person.
    Chairman MCDERMOTT. Let me just stop you there. Mr. Stark 
asked a question of me, the answer to which I did not know. 
What did we do when adulthood was 21? Did we age out at 18 then 
or did we take them all the way to 21?
    Part of bringing down adulthood to 18 was we aged them out 
quicker.
    Dr. COURTNEY. I think that is right. It was a long time 
ago, but I think that is right.
    Chairman MCDERMOTT. Is that correct?
    Dr. COURTNEY. That predated--the Federal child welfare 
program really grew out of the welfare program before 1980. It 
was not as clearly legislated as it was after 1980. Yes, that 
is basically what happened.
    Chairman MCDERMOTT. At 18, we really dumped kids. We gave 
them the vote and we said they could go to war and they could 
be on their own when they were 18.
    Dr. COURTNEY. We abdicated our responsibility as parents. 
That is right. Essentially, legally, what we do is we say we 
are going to remove you from your home--it was interesting. You 
have taken us from our home. We did not really want that, so do 
not abandon us. That is essentially what we do. We take on the 
parental role and unlike any parent these days, we essentially 
end that at 18.
    I think the challenge for the handful of jurisdictions that 
do maintain and allow young people to make the choice to stay 
in care--Illinois being the most obvious one, but the District 
of Columbia does that. Puerto Rico does that.
    There are a handful of jurisdictions that do it. They have 
had to struggle with what does it mean for us to be a parent 
after 18, between 18 and 21. It is different, obviously.
    Permanency, you do not want to give up on permanency, but 
you have more young people for whom it is less likely but still 
possible.
    The courts are involved. This was driven in Illinois by the 
courts. The courts basically found themselves in a position 
where the statute allowed them to ask the child welfare agency, 
``wait a minute, you are coming here and telling me you are 
going to discharge this young person, they have no money to 
their name, they have not graduated high school, they have a 
mental health problem, and you are asking me to say we are not 
going to be their parent any more.''
    The courts over time basically refused to do that. What has 
happened over the last 15 to 17 years is the State has become a 
parent.
    I guess I would just frame that question. I think it is a 
crucial policy question. It is very difficult for me to see how 
just kind of tweaking a program that gives money to States 
without actually building some accountability in, and re-
thinking the notion that we going to parent them after age 18, 
what that really will accomplish. It allows the States--it 
gives them some money. They may or may not do something.
    I think there are some interesting things going on out 
there but somebody in the room, I will not mention his name, 
actually said, who was a former child welfare administrator if 
I am not legally responsible for them, they are pretty low on 
my list of priorities, compared to all the kids under 18 who I 
have to care for.
    Chairman MCDERMOTT. Mr. Weller? I have gone beyond my 
point.
    Ms. ASHBY. I cannot help you in terms of a specific State. 
I think these individuals are correct. There probably is no one 
State that has all the answers.
    What I wanted to say was it seems to me the issue is the 
supports that are in place to help the youth themselves and to 
help the families that have the youth in their households as 
they turn 16/17 years old, prior to aging out. Even if the age 
were raised to 21, would we not have the same issues, but 3 
years later?
    What is needed for all young people, and I have a 25 year 
old son who I am still talking to and telling him what he 
should be doing, what people need are various types of support. 
Certainly, young people who are in the situations of the young 
people we heard earlier need a number of different types of 
services.
    Whether or not this means more money, I do not know. What 
we need to do is be able to assess the situation in terms of 
what services are available. Speaking just for the Federal 
Government, there are lots of services offered in terms of 
housing and substance abuse services and health services, but 
the issue seems to be how does an individual get access to 
those.
    How do you know about them in the first place.
    The young lady who was here earlier said she was in her 
second year of college before she found out about the education 
and training vouchers. That should not be.
    Her guidance counselors in high school or her social worker 
when she was in care should have told her. We would not expect 
for her to know enough to seek out that information. There were 
a number of individuals who should have been in her life that 
could have told her about that.
    We have services available but people do not know about 
them. We do not know whether we have enough because no one has 
really evaluated the services that are there.
    Chairman MCDERMOTT. I am going to stop and let Mr. Weller 
have 10 minutes.
    Mr. WELLER. Thank you, Mr. Chairman. As the one who 
controls the gavel, you certainly have all the time you wish, 
particularly since there are only two of us here. I appreciate 
your generosity.
    I also want to thank our panel for your patience and what I 
thought was wonderful testimony by the young people this 
morning. Of course, being interrupted by the vote.
    I appreciate your patience and those who stayed in the 
audience as well in attending.
    Ms. Soltis, you had talked about the challenges and 
benefits of foster kids in finishing high school, getting a 
high school degree. What are the challenges that you see in the 
ability of these young people to be able to finish high school?
    The young man from Illinois said he had gone to eight 
different schools by the time he finished high school.
    What are the challenges?
    Ms. SOLTIS. For some people, eight is not a lot, let me 
tell you. There are young people who will tell you they have 
been to 30 and 40 schools in their time in foster care.
    Mr. WELLER. I have been told it takes a child about 6 
months to get acclimated if that is an accurate figure.
    Ms. SOLTIS. In many places, we still have a situation where 
a young person changes placement and then they have to change 
their school. The school may be on a different kind of 
schedule, they have different expectations, they have different 
kinds of blocks versus scheduled times for classes.
    Every time they move, that becomes an issue. We have heard 
many times from young people in foster care that when they 
change a school, their records do not necessarily always go 
with them. Their birth certificates, their health certificates, 
their Social Security cards, all of that information, and often 
times that precludes them from starting right up in that school 
system.
    Transportation is sometimes an issue. If they want to stay 
in the school they are in, getting there is certainly sometimes 
not a possibility.
    The McKinney/Vanto Act allows kids who are in homeless 
shelters to hopefully stay in the same schools that they are in 
when they become homeless. That is not the case for kids in 
foster care. That could be changed very easily.
    Mr. WELLER. How can we change it? I have seen as we have 
seen, regardless of demographic background, that young people 
or any citizen of our country who has a high school diploma has 
a much better opportunity for life as well as economic 
advancement.
    Specifically, what changes would you suggest?
    Ms. SOLTIS. I think the example of Connected by 25 where no 
matter what high school that young person in foster care was 
in, we know who those young people in foster care are, no 
matter what high school they were in, they had one guidance 
counselor who made sure their records transferred. Sometimes it 
was really just going to the systems and saying this young 
person is really attached in this school, part of clubs, let us 
find a way to keep them, maybe getting bus transportation, to 
let them stay in their own schools.
    If they are staying in their own schools, then they are 
more likely to finish.
    Mr. WELLER. Mr. Cobbs, do you agree with that assessment 
about if they stay in the same school, the more likely they are 
to finish and do better? Is that your perspective as well?
    Mr. COBBS. Yes, that is my perspective as well. We actually 
have a portion of our program at First Place that does exactly 
what they are doing in Florida, where we assign a social 
worker, not within the school system, but to follow that young 
person.
    We have had tremendous success from that program.
    Mr. WELLER. What type of initiative would you suggest that 
we in Congress should consider that would help or allow that 
child to stay in the same school, where they have friends and 
involvement in clubs and involvement in communities and have 
peers and mentors that they have developed relationships with?
    What specific recommendation would you make?
    Mr. COBBS. I think some specific recommendations that I 
would make would be to go a little bit deeper. I think starting 
with allowing young people and requiring that they have the 
ability to stay in the same school. Sometimes when it is 
legislation enacted or that is a policy, then people will 
follow that.
    I also think, she mentioned the moving around and how young 
people move. In the State of California, the average foster 
care kid moves nine times. If it is just nine times, that is 
probably nine different schools.
    What happens is even though in California it is part of the 
legislation that says this young person can go to school, but 
if you move 50 miles, you may be in the same county, but if you 
move 50 miles from where your old school is, then I do not care 
how many bus transportation vouchers they gave you, eventually 
that transportation back and forth to school is going to be 
burdensome for you.
    I think placing young people who are in foster care in 
their communities and working hard on permanency and keeping 
them where they are placed at, then we will begin to see some 
better outcomes toward education. If they are in the same 
communities, they are going to be going to the same schools. 
That is the way that I would begin to kind of approach that 
issue.
    Mr. WELLER. Others on the panel, do you agree it is in the 
best interest of the child to find ways to keep them in the 
same school system?
    Mr. STANGLER. I would say it is important to try to keep 
them in the same school system, but the underlying issue is the 
real problem. Even if you are in the same school, if you are 
moved to eight different sets of strangers in that area, your 
schooling is going to suffer regardless.
    I think my recommendation would be we have to address the 
permanency issue to stop the moving around to really change the 
outcomes.
    Dr. COURTNEY. I think an elegant solution would be to have 
HHS actually implement the well-being parts of the Adoption and 
Safe Families Act 1997 (P.L. 105-89)--remember, they set up 
outcomes for permanency and safety and they have yet to 
promulgate any with respect to well-being, the most obvious 
well-being outcome, along with health perhaps, would be some 
measures around education.
    It seems to me as a nation we should know whether kids in 
foster care are attending school, whether they are moving, 
there are some simple outcome measures you could ask States to 
track. We are not doing that. If you do that, then they know 
what they need to do in order to get kids educated, but they 
are not held accountable for the basic outcomes.
    Mr. WELLER. Not necessarily creating a new program, they 
just need to implement the one they have already been directed 
to create.
    Dr. COURTNEY. Exactly.
    Mr. WELLER. Do you agree with that, Ms. Ashby?
    Ms. ASHBY. That is what I was going to say. Part of the 
Foster Care Independence Act was a data system that would 
record services to children, outcomes, characteristics of youth 
aging out, and that has yet to be implemented.
    HHS still has not put forth any regulations, for example, 
to collect data from States. Several States have data. There is 
no mechanism for that data being populated into the data system 
that was envisioned and actually mandated by the law.
    Dr. COURTNEY. The irony of my study is it came from those 
three States wanting to get ahead of the curve back in 2000 to 
sort of pilot really how States would collect data.
    A number of States, Michigan, for example, were going to 
participate but waited because they wanted to see what the 
Federal Government was going to put out in terms of 
regulations. They are still waiting.
    Implement the law that is there and we would get a long 
way.
    Mr. WELLER. Congress' job on oversight, is it not, Mr. 
Chairman? I have another question I want to ask Ms. Soltis.
    Chairman MCDERMOTT. You are suggesting another hearing.
    Mr. WELLER. I know you like hearings. I do, too, Mr. 
Chairman.
    [Laughter.]
    As we look at hearings, we may want to look at strategies 
to keep kids in school and give them the opportunity to stay 
within the same school system if they can, recognizing there is 
a geographic issue. To me, that would be a worthwhile hearing.
    Ms. Soltis, we discussed earlier and Mr. McDermott raised 
the issue of the idea that many have advocated today about 
extending foster care to the age of 21, beyond the age of 18. 
My State is one of those which already does it.
    Every State and union currently has the option today, do 
they not, to provide or give children the opportunity to stay 
within the foster system until age 21; is that correct?
    Ms. SOLTIS. I believe they have the option. There are very 
few that--I am not sure how many do. I am not sure that often 
times young people are aware that they can do that. It is a 
difficult issue when someone is 18.
    Gary, you might be able to talk more articulately about 
which States allow that.
    Mr. WELLER. I think there are 17, that I was told, that 
currently have implemented programs where it is very clear you 
can stay within the foster care system until age 21; is that 
correct?
    Mr. STANGLER. I do not know the exact number, Mr. Weller. I 
would say it is a handful. I would say fewer than I can count 
on my hand that actually do a good job of extending that 
option.
    The States are all over the place on this. You have the 
court issues involved in terms of does the State law allow the 
court to retain jurisdiction after age 18.
    It is a more complicated answer than I could probably give 
you off the top of my head.
    Chairman MCDERMOTT. I think the fact is that there is no 
Federal money for them to grant but there is the option to use 
Medicaid, which is partially Federal money. I think the States 
have that option. Is that a correct analysis of it?
    Ms. ASHBY. That is correct. That is the 17 States you 
mentioned. Seventeen have adopted what is known as the Chafee 
option for Medicaid. Five others, as we understand it, are 
planning to do that, and there may be one within the last week 
or so that has done so.
    As I understand it, the State legislatures have to meet in 
the other five States to finalize this. The remaining 28 States 
have other options, such as SCHIP or something else where these 
youth can get medical services.
    Mr. WELLER. The Chairman has been generous with the time 
for me. Let me just ask in very simple terms, could each of you 
just tell me why have the States not exercised, those who do 
not allow foster care until age 21, why have they not exercised 
the option when they clearly have the authority today? In 
simple terms.
    Mr. COBBS. Money. The Federal Government shares all the way 
up to age 18 and then stops. I would say that is the biggest 
thing. As Mark pointed out, the fact that they have no legal 
responsibility past age 18. It is hard to make a case for why 
you should spend money.
    Dr. COURTNEY. They go hand in hand. You do not get Federal 
reimbursement unless the court has jurisdiction, except for 
short voluntary placements.
    They are tied in Federal law right now up to age 18. After 
18, you cannot get Federal reimbursement. You can actually look 
at the history. A number of States that used to have statutes 
that allowed young people to stay in care until 21 actually 
moved them back when the Federal reimbursement stopped, so 
their legal jurisdiction ends at 18.
    You need both. Some States did it voluntarily. That is what 
Illinois did. Illinois law allows it, and the courts weigh in 
and decide whether it is in the best interest of the youth.
    Chairman MCDERMOTT. Give us the explanation for how it 
happened in Illinois. Somebody brought a lawsuit. Who was it, 
on whose behalf, and what agency? How did it happen?
    Dr. COURTNEY. My understanding--I used to think that, too. 
Illinois has done this for a long time, way back to the 
19eighties. My understanding is the statute was not definitive 
with respect to when. There was no end date. The statute says 
``with just cause,'' you could keep kids in care after 18 
through 21, and the question was what is ``just cause.''
    What happened over time was an evolution toward the best 
interest standard. In other words, you cannot kick somebody out 
if it is clearly not in their interest and they want to remain 
in care.
    Chairman MCDERMOTT. Who brought the suit? Did the State?
    Dr. COURTNEY. I do not know there was a specific lawsuit. I 
think the statute was there and over time, the courts became 
more active. The Department used to go and say we want to 
discharge this young person and the courts would say okay. In 
Cook County, the Public Guardian's Office, which is the 
defender of the kids, all the kids have attorneys, started to 
go to court and say wait a minute, make a case for this. Why do 
you want to discharge this person, they are going to be 
homeless tomorrow if you discharge them.
    The judges started acting within the statute in keeping 
young people in care. It is still the case in Cook County, it 
is 85 percent of young people in care at 17.5 are still in care 
at 19.5. Downstate, it is more like half and half. Half and 
half is still far in excess of anywhere else in the country.
    Chairman MCDERMOTT. It is on the State buck or the county 
buck?
    Dr. COURTNEY. It is a State run system, so the State is 
paying for all of that.
    Mr. WELLER. You have to be a little sensitive to too much 
litigation. Catholic Charities used to provide foster care 
services in Cook County. They folded their tent and left that. 
They were one of the largest providers and was a loss as a 
result of litigation.
    Chairman MCDERMOTT. Can I ask finally the question that is 
laying here on the table without an answer, why has HHS not 
implemented this piece of legislation?
    You people are part of the system. You must at least be 
able to give me a guess. I am Irish and I was raised in 
Chicago. I have an idea. Tell me what is your best guess?
    It is simply no interest or if we found out the data, we 
would then have to do something about it?
    Ms. ASHBY. I have done several studies, as you know, 
involving child welfare.
    Chairman MCDERMOTT. You chuckle to yourself when you see 
the new letter coming over from Congress saying would you 
please look at the foster care system. You have done it enough 
times. They see you coming.
    Ms. ASHBY. We have made numerous recommendations. The 
result, I will have to say, the result is usually the same. I 
am hesitating here because this is not a GAO answer. It is not 
a GAO answer.
    In order to get things done, you have to have people that 
care, and the whole idea of people in States who will not do 
things to help young people because they are not required to, 
well, these are not the people who should be in those 
positions.
    At HHS, the people I have worked with in child welfare, 
they just do not seem to be very proactive in terms of feeling 
they have much, if any, responsibility. It is a State issue, 
they will tell you. They do not want to burden the States. That 
is quite often their answer. Or they just allow the slow----
    Chairman MCDERMOTT. Gathering data is burdensome?
    Ms. ASHBY. If they require the States to do certain things 
in order to collect the data and collect it in certain ways 
that are consistent across the States.
    They sort of allow these slow mechanisms of bureaucracy to 
not work and years go by.
    Chairman MCDERMOTT. The Congress changes and the Chairmen 
change, and the appropriators change, and it never happens. 
These kids are really forgotten, is what you are saying. They 
know they are like school administrators who know this class is 
going to be gone at graduation and we will have another bunch. 
They will be gone shortly. That is basically what you are 
saying.
    Ms. ASHBY. That is part of what I am saying, but at the 
same time, it is hard for me having sat here this morning and 
hearing the stories of these young people and having gone out 
to States on site visits and met with people involved in the 
child welfare system to believe most people, if they really 
understood the situation, understood the issues, (and there 
were some people that were being hurt, because these children 
are innocent) that they would not do all they could to make 
things better.
    Maybe the people in Washington at HHS need to get out in 
the field and see what is going on. I do not know.
    Chairman MCDERMOTT. I want to thank all of you for coming 
and staying through the break. Although there are two Members 
here, this is an issue that many Members are concerned with. We 
are working on Iraq over on the Floor. It is a little bit of an 
explanation why people are not here, but I want to thank you 
for giving us some ideas.
    I want to ask one other question. How many people in the 
audience are foster kids or were foster kids once?
    [Show of hands.]
    We have a few. I would hope that you would as you watch 
feel free to talk to us about what kinds of things you have 
ideas about, how we might change this.
    I realize sitting here, I did a lot of this. I did child 
dependency questions in courts and I did decisions in divorces, 
who should get the kids and all that kind of stuff.
    I did it, but when you are on the ground doing it day to 
day a lot more about it than you do when you sort of drift away 
up to some other level.
    You can be very useful to us by giving us information. I 
hope that you will not consider the 15 minutes you spent 
talking here as being the sole contribution you can make to 
this.
    Thank you all for coming.
    [Whereupon, at 1:37 p.m., the hearing was adjourned.]
    [Submissions for the Record follow:]
   Statement of Child Welfare League of America, Arlington, Virginia
    The Child Welfare League of America (CWLA), representing public and 
private nonprofit, child-serving member agencies across the country, is 
pleased to submit testimony to the Subcommittee on Income Security and 
Family Support. CWLA commends the Subcommittee and its members for 
focusing on the issue of youth transitioning out of foster care to 
adulthood. We appreciate the Subcommittee's continued focus on youth. 
This hearing is an important follow up a to your hearing on June 19, on 
disconnected and disadvantaged youth.
    Many issues confront young people as they transition from foster 
care to adulthood. Aside from the challenge of becoming independent, 
they face higher levels of unemployment, no health insurance, substance 
abuse and homelessness and many other serious obstacles. These young 
people leave care not because they have been reunified with their 
families, have been adopted, or found another form of permanency, but 
simply because there is an age limit on federal funding.
Youths Leaving Foster Care Due To Age
    Certainly there is no group of America's youth more deserving of 
Congress' attention than those in foster care or those who leave foster 
care after turning age 18. Every year 20,000-25,000 young people exit 
the foster care system.\1\ These young people leave care simply because 
there is an age limit on federal funding. While some states may extend 
this support beyond age eighteen and the Chaffee Independent Living 
Program offers limited funding for transitional services to these young 
people, all too often the end result is that foster children find 
themselves on their own at age eighteen.
---------------------------------------------------------------------------
    \1\ Children who aged out of foster care are captured by the AFCARS 
emancipation data element. Children who exit care to emancipation are 
those who reached the age of majority; CWLA, Special tabulation from 
AFCARS.
---------------------------------------------------------------------------
Barriers to a Secure Adulthood
    Adolescents constitute a major segment of the youngsters the child 
welfare system serves. In 2005, 29 percent of children in care were 15 
years of age or older.\2\ Most youth enter out-of-home care as a result 
of abuse, neglect, and exploitation. Others have run away from home or 
have no homes. Young people transitioning out of the foster care system 
are significantly affected by the instability that accompanies long 
periods of out-of-home placement during childhood and adolescence. 
These young people often find themselves truly ``on their own,'' with 
few, if any, financial resources, no place to live, and little or no 
support from family, friends, and community. The experiences of these 
youth place them at higher risk for unemployment, poor educational 
outcomes, health issues, early parenthood, long-term dependency on 
public assistance, increased rates of incarceration, and homelessness. 
The resulting harm to the youth themselves, their communities, and the 
society at large is unacceptably high.
---------------------------------------------------------------------------
    \2\ Adoption and Foster Care Analysis and Reporting System (AFCARS) 
data submitted for the FY 2005, 10/1/04 through 9/30/05.
---------------------------------------------------------------------------
Housing Needs
    Young people aging out of the foster care system need economic 
security and affordable, safe and stable housing. The 2000 Census 
reported that nearly 4 million people between the ages of 25 and 34 
live with their parents due to economic realities--jobs are scarce and 
housing is expensive. This phenomenon has been identified as 
``adultolescence'', an extended period of adolescence during which it 
is has become common and expected for young people to live with their 
parents. Unfortunately, youth in foster care do not always have the 
option of turning to their families for financial support. Former 
foster youth are often prematurely confronted with the harsh reality of 
the gap between the wages they earn and the cost of housing. As a 
result, young people aging out of the foster care system are becoming 
homeless at disconcerting rates.
    Twenty-five percent of foster youth stated they have experienced 
homelessness at

least one night within 2.5 to 4 years after exiting foster care.\3\ In 
fact, three in ten of the nation's homeless adults report foster care 
history.\4\
---------------------------------------------------------------------------
    \3\ Cook, R. (1991). A national evaluation of Title IV-E foster 
care independent living programs for youth, phase 2. Rockville, MD: 
Westat.
    \4\ Roman, N.P., & Wolfe, N. (1995) Web of failure: The 
relationship between foster care and homelessness. National Alliance to 
End Homelessness.
---------------------------------------------------------------------------
Education Needs
    Similarly, the correlation between out-of-home care and low 
academic performance has been documented nationwide. For children in 
foster care, schools should offer an opportunity at continued stability 
while most of that child's life is being turn inside out. In addition 
to the abuse and neglect they experience, these children must deal with 
the consequences of being removed from their homes and communities. 
This often times includes separation from siblings and may include 
making several moves from home to home. For these children and youth 
their lives now include dealing with a child welfare agency and court 
system.
    Schools should be safe havens for children during times of 
transition and instability, but poor coordination and communication 
between schools, agencies and other parties may result in added 
instability and at times, no school at all. With no federal law to 
ensure school stability and access to supportive services for children 
in foster care there is often as much movement among schools as there 
is in living arrangements.
    There are many challenges for these children. A child who moves to 
a different home may all of a sudden find they are now in a new school 
district. This all too often means they must wait for a transfer of 
school records before a new school allows them to continue their 
education. In some instances, a child may have to wait for a transfer 
of medical records to document they meet any health care requirements 
such as immunizations. All of these barriers mean a delay in meeting 
their education needs, and these foster children are being left behind 
not just in education, but in the stability they vitally need. These 
children and youth not surprisingly fall behind academically, 
cognitively, and socially. They often need to repeat courses and are 
unable to access the support services that could improve education 
outcomes.
    Although all children are entitled to education services under 
federal, state, and local laws, the specific educational needs of 
children and youth in care often go unmet. The rate at which foster 
youth complete high school (50%) is significantly below the rate at 
which their peers complete high school (70%). The rate at which 
college-qualified foster youth attend postsecondary education (20%) is 
substantially below the rate at which their peers attend postsecondary 
education (60%).\5\ However, it is important to note that 70% of former 
foster youth express the desire to attend college.\6\ The impact on 
future earnings is enormous. The census Bureau reports college 
graduates make $24,000 more per year than those with high school 
diplomas.\7\
---------------------------------------------------------------------------
    \5\ Wolanin, T. (2005). Higher education opportunities for foster 
youth: A primer for policymakers. Washington, DC: Institute for Higher 
Education Policy.
    \6\ McMillen, C., Auslander, W., Elze, D., White, T. & Thompson, R. 
(2003). Educational experiences and aspirations of older youth in 
foster care. Child Welfare, 82, 475-495.
    \7\ Census Bureau data underscore value of college. (October 2006). 
Available online at http://www.census.gov/Press-Release/www/releases/
archives/education/007660.html. Washington, DC: U.S. Census Bureau.
---------------------------------------------------------------------------
Health Needs
    In addition, for young people leaving foster care, lack of health 
care poses a substantial challenge. According to a recent study, 
approximately twenty-five percent of foster care alumni or adults who 
had experienced foster care later experienced post traumatic stress. 
The general population by comparison experienced post traumatic stress 
at a rate of four percent.\8\ Earlier this year at a briefing conducted 
by CWLA and sponsored by the Subcommittee Chair, Representative Jim 
McDermott, Dr. David Rubin, MD, MSCE, Director of Research and Policy, 
Safe Place, Center for Child Protection and Health Children's Hospital 
of Philadelphia, indicated that only half of children with behavioral 
problems in foster care receive services, up to one-third of children 
failed to receive appropriate immunizations, and one in eight were not 
receiving preventive care.\9\
---------------------------------------------------------------------------
    \8\ Pecora, P.J., Kessler, R.C., Williams, J., O'Brien, K., Downs, 
A. C., English, D., White, J., Hiripi, E., White, C. R., Wiggins, T., & 
Holmes, K. (2005). Improving family foster care: Findings from the 
Northwest Foster Care Alumni Study. Available online at http://
www.casey.org/Resources/Publications/NorthwestAlumniStudy.htm. Seattle, 
WA: Casey Family Programs.
    \9\ CWLA briefing, May 21, 2007. Sources: GAO, 1995; Burns et al. 
JAACAP, 2004; Rubin et al. Pediatrics 2004; Hurlburt et al. J Gen 
Psychiatry 2004; Harman et al. Arch Ped Adol Med 2000; Halfon et al. 
Pediatrics 1992 MD MSCE
---------------------------------------------------------------------------
    The Chafee program allows states to extend Medicaid coverage to 
former foster children between ages 18 and 21. Despite Medicaid's 
tremendous advantage for youth in foster care, only 17 states had 
implemented the extension as of December 2006.
    Given the high rates of physical and mental health problems 
extensively documented among children and youth in foster care, access 
to health services is a critical factor as young people transition to 
adulthood. Because most children and youth in foster care are covered 
by Medicaid, use of the expansion option would allow a state to readily 
facilitate the transfer of a youth's Medicaid eligibility from one 
category to another without any gap in coverage as they exit foster 
care. Medicaid coverage should continue for all youth in foster care 
until at least age 21.
    Keeping medical records up to date and accessible is another 
challenge for young people involved with child welfare. Advances have 
been made in electronic record keeping, but more are needed.
Legislative Recommendations
Support Through Age Twenty-One
    The 110th Congress has an opportunity to make significant progress 
in improving the lives and outcomes for this segment of disconnected 
and disadvantaged youth. Senator Barbara Boxer (D-CA) introduced the 
Foster Care Continuing Opportunities Act, S. 1512. This legislation 
would simply amend the current law that defines foster children to age 
eighteen. States would have an option to extend this to age twenty-one. 
This extension would allow these youth more time to appropriately 
prepare for transitioning to adulthood. It is imperative that youth 
work in partnership with their caseworker to create an effective plan 
for transitioning out of foster care. An effective transition plan 
focuses on the development of independent living skills, including 
securing housing, developing a financial plan, obtaining and 
maintaining employment, continuing education, and creating social 
networks and connections.
    In an effort to close the gaps that allow so many youth to fall 
through the cracks, it is necessary to have effective collaboration and 
coordination. Creating connections, developing effective transition 
plans and integrating services will prevent the intersection of foster 
care with homelessness, health issues, incarceration, unemployment, 
pregnancy and early parenthood. Instead, these partnerships along with 
a solid transition plan, will allow these resilient youth to become 
thriving, productive, and contributing members of society.
Support Independent Living
    For youth transitioning out of foster care, expanding eligibility 
for critical support for independent living services will ensure a 
successful transition to independence and self-sufficiency, and reduce 
the numbers of young people who become homeless, unemployed, 
incarcerated, and/or at high risk of becoming victims and victimizers. 
To accomplish this improvement and expansion, funding for the Chafee 
Foster Care Independence Program needs to be increased significantly.
McKinney-Vento Homelessness Assistance Act/Education Reform
    The reauthorization of the McKinney-Vento Homelessness Assistance 
Act as part of the reauthorization of the No Child Left Behind (NCLB) 
Act provides an opportunity to better address the needs of children and 
youth in foster care. McKinney-Vento provides access to essential 
federal education protections and rights for children and youth who are 
homeless. Children and youth who are eligible for McKinney-Vento have 
access to supports for school success that many children involved in 
child welfare lack: school stability or immediate enrollment if 
stability is not possible, school staff charged with ensuring their 
prompt enrollment, and more. While these protections currently apply to 
a subset of children involved in foster care, the current definition is 
not clear and states provide coverage differently and in a limited way 
for children in foster care. The reauthorization of McKinney-Vento 
provides an opportunity to ensure these protections are available to 
all children in foster care, with special accommodation for the needs 
and family dynamics that face children in foster care.
Funding for Tuition Vouchers
    The Education and Training Voucher (ETV) program provides 
assistance of up to $5,000 per year for the cost of attendance at an 
institution of higher education for youth who age out of foster care or 
are adopted after age 16. Funding for this program has never reached 
the amount requested by President Bush--$60 million--which itself is 
not enough to meet the need. The ETV program began receiving funds in 
2003 and was set at $42 million, and has been increased slightly in 
subsequent years. The benefits of a college education are significant. 
Funding for the ETV program should be expanded to at least the level 
proposed by the President.
    Further improvements to the ETV program are needed, including 
requiring technical assistance for states to make sure the funds are 
fully utilized. Also, it should be required that any ETV funds not used 
in one state be transferred to other states' ETV programs rather than 
being returned to the federal treasury.
Access To Health Care
    The Medicaid Foster Care Coverage Act of 2007, H.R. 1376, has been 
introduced by Representative Dennis Cardoza (D-CA-18). This bill 
addresses a critical issue for young people leaving foster care, lack 
of health insurance. As stated previously, given the high rates of 
physical and mental health problems, access to health services is a 
critical factor as young people transition to adulthood. While some 
states have taken the option to extend Medicaid coverage to age 21, we 
agree with the growing number of advocates that the best way to assure 
this coverage is simply to require Medicaid coverage for these former 
foster youth.
    Studies have revealed that when compared to the general population, 
in addition to severely lower rates of graduation from college and 
employment and higher instances of homelessness, foster care alumni 
experienced a disproportionate amount of both physical and mental 
health issues, including post-traumatic stress disorder and major 
depression. Compounding this problem is the fact that 33% of foster 
care alumni lack health insurance--a rate almost twice as high as the 
general population.\10\
---------------------------------------------------------------------------
    \10\ Pecora, P.J., Kessler, R.C., Williams, J., O'Brien, K., Downs, 
A. C., English, D., White, J., Hiripi, E., White, C. R., Wiggins, T., & 
Holmes, K. (2005). Improving family foster care: Findings from the 
Northwest Foster Care Alumni Study. Available online at http://
www.casey.org/Resources/Publications/NorthwestAlumniStudy.htm. Seattle, 
WA: Casey Family Programs.
---------------------------------------------------------------------------
    Current law does provide mechanisms by which to cover this 
vulnerable population with the support needed as they leave the care of 
the child welfare system. Some states, for example, have implemented 
the Chafee option to extend Medicaid to youth aging out through the 
Foster Care Independence Act of 1999. Strides have been made, but 
because young people who age out of the system often lack financial 
resources and a place to live, and have little or no support from 
family, friends, and the community there is much more work to be done. 
By extending Medicaid coverage to former foster youth until the age of 
21, we would be guaranteeing a critical piece of the equation that 
would help them make a successful transition to adulthood--
comprehensive health care.
    In addition, actions over the past several years have undercut the 
state's ability to use Targeted Case Management services (TCM). CWLA 
has great concerns about these actions and we feel it undercuts access 
to care to the entire child welfare population. This is not a cost 
saving issue, but is rather an issue of access to health care. We are 
also concerned about future regulatory action that may restrict state 
Medicaid systems use of rehabilitative services. We urge Congress to be 
vigilant and in fact to take action to stop any regulations that 
overreach and have the effect of restricting access to care by youth 
and all children in foster care.
Data Collection Needs
    Congress should provide the resources necessary for the 
implementation of the National Youth in Transitions Database. This new 
initiative is a tremendous opportunity to provide valuable information 
that will inform future improvements in services to young people. The 
funds for this implementation should be a priority for Congress and 
should not come at the expense of existing services or supports or 
reduce services to adolescents receiving Chafee and ETV funding.
Support for Kinship Care
    Finally, CWLA would be remiss if we did not highlight one 
legislative solution which is showing growing bipartisan support, 
kinship care. Kinship care is an important permanency option for child 
welfare systems. In some instances, support for these grandparent and 
other relative families can provide a vital support for these youth. In 
1997, the Adoption and Safe Families Act (ASFA) was adopted by this 
Subcommittee and many of the members of this Congress voted for it. It 
recognizes kinship placements as a critical permanency option. We now 
have bipartisan bills in both houses, S. 661 in the Senate and H.R. 
2188 in the House, to extend Title IV-E funding to these kinship 
placements. CWLA strongly believes that extending Title IV-E support in 
this way can play a vital role in assisting young people leaving the 
foster care system and can help before they reach the age of eighteen.
CONCLUSION
    CWLA appreciates the opportunity to offer our comments to the 
Subcommittee in regard to youth transitioning out of foster care. As 
this Subcommittee moves forward, we look forward to a continued 
dialogue with its members and all Members of Congress. We hope this 
hearing serves as a building block for future efforts that will create 
the means for reforms that result in increased successful transitions 
for these youth.
                                 <F-dash>

                   Statement of Everychild Foundation
    The Problem: The ``Transition Cliff''

    <bullet>  Many children with abuse and neglect histories never 
reunite with their families or find alternative permanent homes; this 
population of abused children graduate or ``emancipate'' from the child 
welfare system
    <bullet>  Children who emancipate from the foster care system face 
disproportiately higher rates of:
    <bullet>  Unemployment
    <bullet>  Lower Educational Attainment
    <bullet>  Incarceration
    <bullet>  Dependence on public assistance
    <bullet>  Substance abuse
    <bullet>  Non-marital childbirth
    <bullet>  Other high-risk behaviors.\1\
---------------------------------------------------------------------------
    \1\ http://www.covdove.org/Inside/Statistics.htm, Covenant House 
California Statistics (retrieved February 2006).
---------------------------------------------------------------------------
    <bullet>  The lack of a ``safety net'' for these former foster 
youth--now young adults--means that they truly struggle to ``make ends 
meet'' often ultimately becoming a more burdensome and larger cost to 
society than if a much smaller, up-front investment had simply been 
made to better prepare and advise them during transition and the years 
preceding it.
    <bullet>  One shocking statistic best explains how the system has 
failed them: over 70% of all State Penitentiary inmates have spent time 
in the foster care system according to the May 12, 2006 Select 
Committee Hearing of the California Legislature. (This includes group 
homes and informal out of home placements/arrangements.)
    <bullet>  The public knows little or nothing about the difficulties 
facing this group of young adults.
    <bullet>  The population of emancipated foster youth face unique 
challenges such as:
    <bullet>  Lack of stable or affordable housing leading to 
homelessness
    <bullet>  Lack of employment opportunities
    <bullet>  Lack of medical care / coverage
    <bullet>  Mental health problems
    <bullet>  Early or unplanned pregnancies
    <bullet>  When provided with information about the poor prospects 
for this population, most people say that the age at which the average 
young person is completely on their own is 23; 1/3 of respondents say 
it is 25 or older.\2\
---------------------------------------------------------------------------
    \2\ http://www.financeproject.org/Publications/
foster%20care%20final1.pdf

    This presentation includes a compilation of recent statistics (by 
no means exhaustive) to illustrate the significant ramifications of 
failing to assist these young adults.
Our position is that there are steps that the government and community 
        can take to help ensure that these youths make a smooth 
        transition and become productive member of the community.
The direct public expense of not doing so is enormous, according to 
        various experts the authors queried who work closely with 
        emancipated foster youth. consider these typical annual costs 
        they cited:
    <bullet>  Housing an emancipated foster youth in a program 
providing support services (mental health, educational and vocational 
counseling, job placement, financial literacy and life skills training, 
mentoring) such as Hillsides in Pasadena--$20,000--$25,000.
    <bullet>  Incarceration for the same young adult--between $55,000 
and $115,000 (depending upon the type of facility), according to the 
State's Safety and Welfare Remedial Plan filed in April of this year.
    <bullet>  Residence in a mental health facility--$215,000.
    <bullet>  The Basics:
    <bullet>  Nationally, about 20,000 youth aged 16 or older make the 
transition from foster care to legal emancipation each year.\3\
---------------------------------------------------------------------------
    \3\ http://www.casey.org/MediaCXenter/MediaKit/FActSheet.htm, Child 
Welfare Fact Sheet published by Casey Family Programs (based on data 
from a period ending September 30, 2001).
---------------------------------------------------------------------------
    <bullet>  From January 1, 2004 to December 31, 2004, 4,255 children 
emancipated from foster care in California.\4\
---------------------------------------------------------------------------
    \4\ Child Welfare Service Reports for California (2005). Retrieved 
in February 2006 from University of California at Berkeley Center for 
Social Services Research Website. URL: http://cssr.berkeley.edu/
CWSCMSreports/. See also, http://calwv.org/jjds/chap6.html, Juvenile 
Justice in California, Part II: Dependency System, Chap. VI, Prepared 
by the League of Women Voters of California, July 1998.
---------------------------------------------------------------------------
    <bullet>  Of these 4,255 emancipating youth 1,402 were located in 
Los Angeles.
    <bullet>  Children who emancipate from the child welfare system are 
unlikely to find safe, affordable housing.
    <bullet>  Within 2-4 years of emancipation, 25% of emancipated 
youth have been homeless for at least one night.\5\
---------------------------------------------------------------------------
    \5\ April 2003 Press Release from the Office of the Governor of 
California, reprinted on http://www.buildingc3.com/item.asp?id=196. See 
also Finessa Ferrell, Life After Foster Care, http://www.ncsl.org/
programs/pubs/slmag/2004/04OctNov_Fostercare.pdf (2004).
---------------------------------------------------------------------------
    <bullet>  In California, 65% of youth leaving care do so without a 
place to live.\6\
---------------------------------------------------------------------------
    \6\ Issue Brief, Ensuring Access to Healthy Young Adults Program 
for Transitioning Youth, citing a California Department of Social 
Services 2002 Study: Report of the Housing Needs of Emancipated Foster/
Probation Youth; California Department of Social Services. (2002) 
Report on the Survey of the Housing Needs of Emancipated Foster/
Probation Youth. Independent Living Program Policy Unit, Child and 
Youth Permanency Branch.
---------------------------------------------------------------------------
    <bullet>  Nearly 40% of transitioning youth will be homeless within 
eighteen months of discharge.\7\
---------------------------------------------------------------------------
    \7\ U.S. General Accounting Office. (1999) Foster Care: 
Effectiveness of Independent Living Services Unknown. (GAO/HEHS-00-13). 
Washington, D.C.: Government Printing Office. See also, Juvenile 
Justice in California Part II: Dependency System, 1998, http://
calwv.org/jjds/chap6.html.
---------------------------------------------------------------------------
    <bullet>  In Los Angeles and Alameda counties, 50% of emancipated 
youth will be homeless within six months.\8\
---------------------------------------------------------------------------
    \8\ Covenant House of California statistics available at http://
www.covdove.org/Inside/Statistics.htm (2004).
---------------------------------------------------------------------------
    <bullet>  Without housing, youth are less likely to complete their 
education, find employment, and gain access to health care, all of 
which jeopardize their ability to make a successful transition to 
independence.\9\
---------------------------------------------------------------------------
    \9\ Los Angeles County Economy and Efficiency Commission. (2002) A 
Review of Emancipation Services. Los Angeles, CA: Author. Available 
online at http://eec.co.la.ca.us/pubfiles/cntyops/
0202_EmancipationServices.htm.
---------------------------------------------------------------------------
    <bullet>  Studies found that between 44-77% of emancipating youth 
have completed high school as compared to 93% of non-foster care youth 
\10\
---------------------------------------------------------------------------
    \10\ Id.
---------------------------------------------------------------------------
    <bullet>  Research shows that only 1% to 5% of foster youth ever 
graduate from college.\11\
---------------------------------------------------------------------------
    \11\ Finessa Ferrell, Life After Foster Care, http://www.ncsl.org/
programs/pubs/slmag/2004/04OctNov_Fostercare.pdf (2004).

    Employment Problems: Children who emancipate from the child welfare 
---------------------------------------------------------------------------
system are unlikely to find employment opportunities.

    <bullet>  Studies show that approximately 51% of youth are 
unemployed within 2-4 years of emancipation.\12\
---------------------------------------------------------------------------
    \12\ April 2003 Press Release from the Office of the Governor of 
California, reprinted on http://www.buildingc3.com/item.asp?id=196. One 
study showed that 23% of California former foster care youth were 
unemployed within a 13-month period.

    <bullet>  According to the California Department of Social 
Services, as of December 2001, about 50% of emancipated foster youth 
were not employed.\13\
---------------------------------------------------------------------------
    \13\ http://www.familiesforchildren.org/statistics/htm.
---------------------------------------------------------------------------
    <bullet>  If employed, former foster care youth earn significantly 
lower wages than their low-income peers.
    <bullet>  aOne study found that emancipated foster youth earned an 
average of $6000 per year, which is well below the national poverty 
line of $7890.
    <bullet>  Over a three-year period, no more than 45% of these 
foster youth reported earnings in any one quarter.

    The Impact of Failing Our Emancipated Youth: The Cost of Benefits 
and Incarceration

    <bullet>  The State must bear the following significant economic 
and other costs of youth who end up incarcerated: \14\
---------------------------------------------------------------------------
    \14\ See http://www.lao.ca.gov/1995/050195_juv_crime/kkpart6.html.
---------------------------------------------------------------------------
    <bullet>  Criminal justice costs (i.e., operation of criminal 
justice system in terms of police, prosecution, courts, probation, 
incarceration, parole etc.)
    <bullet>  Medical costs borne by the government
    <bullet>  Property damage
    <bullet>  Loss of productivity to society
    <bullet>  Loss of work time by victims, their families and the 
offender
    <bullet>  
    <bullet>  Loss of property values in areas of high crime
    <bullet>  Pain and suffering of crime victims and society

    The Impact of Failing Our Emancipated Youth: The Cost of Benefits 
and Incarceration
    <bullet>  40% of former foster youth are a cost to the 
community.\15\
---------------------------------------------------------------------------
    \15\ Id.
---------------------------------------------------------------------------
    <bullet>  The cost to the community occurs within 2-4 years of 
emancipation because 40% of emancipated youth have been on public 
assistance or incarcerated by that time.\16\
---------------------------------------------------------------------------
    \16\ April 2003 Press Release from the Office of the Governor of 
California, reprinted on http://www.buildingc3.com/item.asp?id=196.
---------------------------------------------------------------------------
    <bullet>  Several studies reveal that girls who emancipate from 
foster care are far more likely (approximately 3<greek-e>) than their 
peers to have a child by 19.\17\
---------------------------------------------------------------------------
    \17\ See http://www.teenpregnancy.org/resources/reading/pdf/
Fostering_Hope.pdf.
---------------------------------------------------------------------------
    <bullet>  Approximately 50% of females in the foster care system 
receive AFDC/TANF Medi-Cal within one to six years of emancipation. In 
contrast, approximately 6% of all females age 19-29 in California 
received TANF in 1999.\18\
---------------------------------------------------------------------------
    \18\ Youth Emancipating from Foster Care in California: Findings 
Using Linked Administrative Data, July 31, 2002, Summary of Findings by 
the Research and Evaluation Branch, Research and Development Division 
of the California Department of Social Services.

---------------------------------------------------------------------------
                                 <F-dash>

     Statement of Job Corps Partnering with the Foster Care System
    This statement is submitted on behalf of the Job Corps program 
which, as authorized by the Workforce Investment Act (WIA) of 1998, is 
charged with providing education and training for economically 
disadvantaged youth ages 16-24, who face multiple barriers to 
employment. One such group is homeless, runaway, or foster care youth 
(section 144(3)(C), Subtitle C). The most recent data from the 
Department of Health and Human Services (HHS) show that over 500,000 
American children live in foster care. Each year, it is estimated that 
between 19,000 and 25,000 of these children, ages 18-21, ``age out'' of 
the foster care system, and are forced to live on their own.
    Job Corps is an open entry, open exit residential national 
education and training program. The program has been in existence for 
43 years and serves approximately 60,000 youth annually. There are 122 
Job Corps centers located in 48 states, the District of Columbia, and 
Puerto Rico. Job Corps is legislatively mandated to maintain a capacity 
of approximately 44,000 youth. Currently Job Corps has approximately 
4,000 slots annually that go unfilled in the program. This presents an 
unparalleled opportunity for both the Job Corps program and emancipated 
foster care youth. For eligible foster care youth, Job Corps can 
provide transitional housing, job training, primary health care, and 
referrals to community organizations and state agencies.
    Job Corps has been actively involved with making connections with 
the foster care system and is ideally suited to service foster care 
youth in need of additional education and training. Job Corps Outreach 
and Admissions offices have been directed to access the foster care 
system in their area by connecting with state agencies and programs. 
Each Outreach and Admissions operator has been provided with a state by 
state directory of Foster Care programs which includes state 
coordinators, child welfare Youth Advisory Boards (YAB) and resources 
to educate Job Corps staff on the various assistance programs in their 
area. Currently Job Corps has approximately 166 foster care students 
enrolled in the program and is actively engaged in efforts to increase 
foster care youth enrollment.
    In addition to educating Job Corps staff on partnering 
opportunities with the foster care system, outreach and admissions 
providers educate eligible foster children about Job Corps. The program 
has also tried to ease the transition of current students who were 
foster children upon separation from the program. Foster children that 
separate from the Job Corps program, who are eligible for placement 
services; have a special case note placed in their electronic file, 
which helps their career transition specialist work to obtain 
additional federal funds and grants for assistance with independent 
living, known as the John H. Chafee Foster Care Independent Living 
Program.
    To date Job Corps has strengthen its relationship with the foster 
care system by accomplishing the following:

    <bullet>  Established a relationship with Casey Family Programs
    <bullet>  Casey Family Programs presented at the Job Corps National 
Conference, November 6, 2006
    <bullet>  Job Corps had an exhibit at the Casey Family Programs 
Conference, Oct 29-31, 2006
    <bullet>  Job Corps released a Program Instruction Notice, 
September 8, 2006, providing guidance to the Job Corps field on 
connecting to the Foster Care system
    <bullet>  Presented at the Independent Living Conference in Indiana 
in June 2007
    <bullet>  Scheduled to speak at the September 2007 It's My Life 
Conference

    Job Corps continues to explore new ideas to better connect to the 
foster care youth system. Job Corps' future plans to better connect 
are:

    <bullet>  Continue developing and strengthening the partnership 
with Casey Family Programs and other foster care organizations
    <bullet>  Develop a Technical Assistance Guide for Job Corps field 
staff
    <bullet>  Develop a list of best practices and model programs to 
replicate
    <bullet>  Continue to conduct and expand outreach activities to all 
foster care youth
    <bullet>  Explore MOU possibilities between DoL & HHS

    Over the years, Job Corps has helped to guide more than two million 
youth to opportunity and success. As a result of our commitment to 
achievement, training, and education, Job Corps has helped young 
Americans establish their place in the workforce and become 
contributing citizens in their communities. Job Corps stands ready to 
work with the foster care system, Congress and local communities to 
provide assistance and program services to emancipated foster care 
youth.

                                 <F-dash>

  Statement of Kevin Drollinger, Epworth Children and Family Services,
                          St. Louis, Missouri
    Mr. Chairman and members of the committee:
    As the Executive Director of Epworth Children and Family Services 
in St. Louis, Missouri, I am pleased to see Congress addressing the 
critical issues facing foster care youth around the country. For more 
than 100 years, Epworth has provided a wide array of services to at-
risk youth and their families--first as an orphanage in the late 1800s 
and now providing education, therapeutic services, intensive and day 
treatment programs, and transitional living, independent living, family 
support and crisis shelter services.
    In our region, the critical issues facing youth about to age out of 
foster care are widely apparent. As of March 2007, the Missouri 
Department of Social Services reported 9,818 children in the state's 
foster care system. Of those, an estimated twenty-two percent--just 
over one out of every five children--are age 16 or older. Paralleling 
national statistics, these teens face monumental challenges as they 
become emancipated adults. Half of all foster teens in the St. Louis 
region age out of foster care either homeless or become homeless in 
later life. Less than half possess a high school diploma or its 
equivalent and more than 80 percent of former foster care females 
become pregnant and have children before the age of 21.
    While we help many of these teens navigate the complex foster care 
system and develop the daily living skills needed to become 
contributing adults in the community, they often express feelings of 
frustration and isolation, not knowing where to turn for guidance and 
further resources. Many have changed temporary homes, residential 
treatment centers or group homes multiple times, have transferred to 
several schools throughout the course of their education (and even 
throughout a single school year), and are passed from one case manager 
and therapist to another throughout their time in foster care. These 
teens, expected to be fully independent and thriving after leaving 
foster care at age 18 or even 21, are faced with the difficulties of 
finding jobs and a place to live, understanding basic finances, and 
obtaining regular medical care.
    In December 2004, nine visionary philanthropic organizations came 
together to see if pooled resources and collaborative efforts could 
``re-invent'' the wheel and provide foster teens with centralized 
resources and guidance to help them acquire the daily living skills 
necessary to thrive as adults. With an initial investment of $600,000 
over three years, these organizations then brought together nonprofit 
organizations such as Epworth and began to identify the gaps in 
services for older foster teens.
    After working for more than 18 months, the St. Louis Aging Out 
Initiative debuted in late 2006, with Epworth serving as the lead 
service agency. The initiative establishes a youth-friendly, 
centralized resource center for older foster teens where they can learn 
about the many resources available and talk with teen peer advisors 
about their concerns. Starting with teens as young as 16 years old, the 
Center will provide guidance up to age 25. Referral information is 
available via on onsite computer and individual services are provided 
monthly in groups and individual meetings. The Center also operates a 
24-hour helpline. With a positive youth development approach of 
``nothing about us, without us,'' the Center also has a Youth Advisory 
Board and encourages foster youth to collectively determine the 
services needed and how to best address concerns. Among the goals 
identified--to assist the majority of youth involved in the Center to 
obtain a GED or high school diploma; to create ``Life Binders'' for all 
participants that include important documents such as a birth 
certificate, immunization records, family and personal medical history, 
and school transcripts; and to educate youth so that they are adept at 
self-advocacy skills that enable them to self-direct their own care and 
placement, secure a job or enrollment in post-secondary education; and 
handle personal finances.
    National literature and research shows promise for this approach. 
If true independence is measured by age 25, instead of age 16 or 18, 
foster youth have a better chance to thrive. By linking and 
prioritizing the services that foster youth desire and need, we provide 
a critical service to the community at large.
    Our local approach to this national issue has already sparked 
national attention. In July 2007, we were awarded a $500,000 matching 
grant from the prestigious Robert Wood Johnson Foundation to further 
establish the Aging Out Project. Efforts already are under way to link 
more service providers into the Center so that foster youth have an 
increasing number of resources to help them become independent.
    Through the St. Louis Aging Out Initiative, our eyes are on 
education, employment, and independent living. We also have worked with 
other social service organizations throughout Missouri and advocated 
for expansion of healthcare benefits for older foster care youth. 
According to the U.S. Department of Health and Human Services (AFCARS 
Report, 2005a), fewer than one-third of all states offer former foster 
youth ages 18 to 21 access to Medicaid coverage. In July 2007, Missouri 
Governor Matt Blunt signed a bill expanding healthcare coverage to 
Missouri foster care youth up to age 21. Now efforts are under way to 
have all states pass similar measures.
    Federal and state governments spend significant monies on 
supporting foster care youth until age 18. The notion that these teens, 
who have been through so much in their lives already, are able to 
magically become adults with no support, is simply not realistic. 
Stronger mentor programs, improved transferability of educational 
services and records, and collaborative community efforts such as the 
St. Louis Aging Out Initiative should be encouraged across the country. 
And because national and local statistics already document the 
challenges facing older foster teens, comprehensive programs to help 
improve graduation levels and teach sustainable daily living skills 
should be encouraged and supported.
    As Congressman Jim McDermott (D-WA), Chairman of the Subcommittee 
on Income Security and Family Support noted in mid-July, federal and 
state governments function as ``de-facto parents of foster children.'' 
It is prudent that Congress as well as state leaders regularly evaluate 
whether or not these children need guidance even after they are 
emancipated from state care. Congressman McDermott says a concerted 
effort should be made to determine whether programs meet ``that 
obligation, or whether we are simply showing these kids the door 
without sufficient support, resources, and skills to succeed.''
    If we are to believe in the initial premise for bringing children 
into state custody--for their safety, health, and stability--then all 
of us should be mindful of our duty to support them into adulthood.
    It is our experience at Epworth as well as in the start of the 
Aging Out Initiative, that foster youth do, indeed, need support, 
resources and skills development after age 18. The sad facts are that 
foster youth who are not supported and guided as they find their place 
in society become new entrants into social welfare system as adults. 
With Congress focusing on the ``no child left behind'' axiom in 
education, it is just as important to focus on the ``no child left 
behind'' in foster care. As de-facto parents, we should do our utmost 
to ensure they have the chances and resources they need to find their 
own individual strengths and thrive.
    I thank you for this opportunity to add my written comments to the 
oral testimony given to the subcommittee on this crucial foster care 
issue.
    Headquartered in Webster Groves, Epworth Children and Family 
Services has offered therapeutic and education services for at-risk 
youth and their families since it was founded more than 140 years ago. 
Originally a Methodist-founded orphanage based in Warrenton, Mo., 
Epworth has grown to offer a full array of services, including 
intensive residential and day treatment services, educational programs, 
and individualized and family therapy. The organization also operates 
acclaimed transitional living and independent living programs and has a 
24-hour youth emergency service hotline and shelter for teens. Epworth 
is accredited by the Joint Commission on Accreditation of Healthcare 
Organizations (JCAHO) and is a charter member of the Missouri Coalition 
of Children's Agencies (MCCA). In 2000, Epworth was the first social 
service agency in Missouri to be honored with the Missouri Team Quality 
Award.

                                 <F-dash>

                              Kids Are Waiting: Fix Foster Care Now
                                                      July 12, 2007
    Dear Chairman McDermott, and Members of the Subcommittee:
    The Kids Are Waiting: Fix Foster Care Now campaign thanks you for 
the opportunity to submit this written statement for your July 12, 2007 
hearing's record, on the subject of services and outcomes for children 
who age out of the foster care system. Kids Are Waiting (KAW), a 
project of The Pew Charitable Trusts, is a national, nonpartisan 
campaign dedicated to ensuring that all children in foster care have 
the safe, permanent families they deserve by reforming the federal 
financing structure that governs our nation's foster care program. The 
campaign applauds the Subcommittee on Income Security and Family 
Support for your dedication to our nation's abused and neglected 
children. This hearing--indeed the series of hearings you are holding--
contribute greatly to identifying the areas in need of reform, as well 
as providing the essential forum in which to consider meaningful 
solutions.
    At the heart of supporting teens who age out of the foster care 
system, must be a determined, relentless effort by policy makers, 
service providers, and community members to find a safe, permanent, 
loving family for each of them. In the case of the 24,000 teens who age 
out each year, never was it more true, that ``an ounce of prevention is 
worth a pound of cure.''
    As the Members of the Subcommittee are aware, there are more than 
513,000 children in foster care. Each year, thousands are exited from 
the system to face life on their own without the benefit of belonging 
to a permanent family. Tragically, despite an over all decrease in the 
number of children entering foster care in recent years, the number of 
teens aging out is increasing.
    In May of this year, KAW, in partnership with the Jim Casey Youth 
Opportunities Initiative, published a new report on the very topic the 
subcommittee is addressing today. ``Time for Reform: Aging Out and On 
Their Own'' reports a 41% increase in the number of teens aging out of 
foster care from 1998 to 2005--more than 24,000 for the last year in 
which government statistics are available.\i\
---------------------------------------------------------------------------
    \i\ Kids Are Waiting and Jim Casey Youth Opportunities Initiative. 
Time for Reform: Aging Out and On Their Own. May 2007. Accessed July 
11, 2007: http://kidsarewaiting.org/reports/files/AgingOut.pdf
---------------------------------------------------------------------------
    Outcomes for youth who age out of foster care are grim, and 
transitions to adulthood and independence are often rocky. As our 
report details:

    <bullet>  One in four will be incarcerated within the first two 
years after they leave the system.\ii\
---------------------------------------------------------------------------
    \ii\ Mark E. Courtney, Amy Dworsky, Sherri Terao, Noel Bost, 
Gretchen Ruth Cusick, Thomas Keller, and Judy Havlicek. Midwest 
Evaluation of the Adult Functioning of Former Foster Youth: Outcomes at 
Age 19, Chapin Hall, 2005.
---------------------------------------------------------------------------
    <bullet>  Over one-fifth will become homeless at some time after 
age 18.\iii\
---------------------------------------------------------------------------
    \iii\ Northwest Foster Care Alumni Study, Casey Family Programs, 
1998.
---------------------------------------------------------------------------
    <bullet>  Approximately 58 percent had a high school degree at age 
19 compared to 87 percent of a national comparison group of non-foster 
youth.\iv\
---------------------------------------------------------------------------
    \iv\ Courtney, M.E. & Dworsky, A. (2005).Midwest evaluation of the 
adult functioning of former foster youth: Outcomes at age 19. Chicago: 
Chapin Hall Center for Children.
---------------------------------------------------------------------------
    <bullet>  Of youth who aged out of foster care and are over the age 
of 25, less than 3 percent have their college degrees \v\
---------------------------------------------------------------------------
    \v\ Pecora, P.J., Kessler, R.C., Williams, J., O'Brien, K., Downs, 
A.C., English, D., White, J., Hiripi, E., White, C.R., Wiggins, T., and 
Holmes, K. (2005). Improving family foster care: Findings from the 
Northwest foster care alumni study. Seattle, WA: Casey Family Programs.
---------------------------------------------------------------------------
    <bullet>  compared with 28 percent of the general population.\vi\
---------------------------------------------------------------------------
    \vi\ National Census Bureau. ``Educational Attainment in the United 
States: 2004.'' Accessed April 12, 2007: http://www.census.gov/Press-
Release/www/releases/archives/04eductableA.xls

    Despite the good intentions and sometimes valiant efforts of most 
social workers, judges, foster parents and others, the reality remains 
that the foster care system is plagued with issues that conspire to 
keep children in the system too long, and away from the permanent, 
loving families they deserve.
    As today's hearing points out, much more needs to be done to ensure 
that adequate support is in place for those who may age out of the 
system without a permanent family. A number of policies have been 
identified to better serve young adults who age out of foster care, 
including: extending foster care and Medicaid eligibility up to age 21 
for all youth and providing services under the Chafee Foster Care 
Independence act to all youth who leave care, not just youth aging out 
between ages 18 and 21.
    While KAW appreciates the enormous importance of benefits to help 
foster youth transition successfully to adulthood, our campaign's main 
focus is to highlight the urgent need for reform of federal financing 
policies, namely Section IV-E of the Social Security Act. Current 
policies are far too complex and outdated. All too often they work 
against what's best for children and families. These rules can prevent 
case workers and other professionals from connecting children and 
families with the services to help them stay together, to keep children 
from entering care in the first place.
    Under the current financing structure, 61% of all federal money 
allocated for child welfare services is mandated to be used for out-of-
home foster care payments and related administrative and training 
costs. This leaves less than 40% of federal funds available to assist 
states in providing essential services tailored to meet the needs of 
their communities--services such as foster care prevention, family 
reunification, foster and adoptive parent recruitment, subsidized 
guardianship and post-placement services.
    Federal policies should make certain those who do enter the system 
don't grow up in foster care. No child should age out of the system on 
their own. Congress can be part of the solution. By changing the way 
the federal government pays for services, we can help states prevent 
some children from entering foster care, while helping others leave the 
system more expeditiously to families that have been reunited, or, when 
that is not possible, to new families through adoption, or sometimes 
permanent guardianship.
    In 2004, the national, non-partisan Pew Commission on Children in 
Foster Care recommended a reliable federal financing system with both 
increased flexibility and accountability as a means to prevent children 
from languishing in foster care. New federal financing policies, 
combined with recently enacted state court improvements, would provide 
professionals who serve children and families with better tools to help 
more families stay together, ensure children in foster care exit the 
system for safe, permanent families, and reduce the number of youth who 
age out each year.
    Specifically, KAW promotes the following policy options, 
recommended by the Pew Commission, to address the problem of growing 
numbers of youth aging out of our foster care each year:
    1. Establish a federal foster care financing system that States can 
rely on to be sufficient and flexible. Today's federal IV-E financing 
incentives favor foster care over other services that could keep 
families together, reunify them quickly and safely, and, when that is 
not possible, help children leave foster care to join safe, permanent 
families through adoption or guardianship. Addressing the inflexibility 
of current federal IV-E funding is critical to ensuring that case 
workers and other professionals can deliver services that are tailored 
to meet the needs of each child and family they serve. For example, 
services such as family counseling or referrals for drug treatment 
programs can both prevent the need for foster care or help some 
children reunify with their families.
    With more flexible funds, states and tribes could help find more 
children permanent families through activities such as increased and 
improved foster and adoptive parent recruitment, or help new permanent 
families be successful when reunification is not possible by providing 
more post-placement supports.
    2. Help more children leave foster care by supporting federal 
guardianships for relatives and other caregivers. In most states, 
relatives and others who become permanent, legal guardians for a child 
in foster care lose federal financial assistance and services once the 
child exits foster care (some adoptions receive federal support). 
Although some relatives decide to adopt their kin, adoption is not a 
viable option for others. For example, it may not be appropriate to 
terminate parental rights for a parent with significant disabilities 
who physically cannot parent, but wants to remain in the lives of the 
children who love her. Or an older youth who maintains close ties with 
his or her birth parents may not want those parental rights terminated. 
An estimated 20,000 children living in long-term arrangements with 
relatives today could leave foster care if federal foster care funds 
could be used to support guardianship. Legislation to address support 
for relatives has been introduced in the 110th Congress: The Kinship 
Caregiver Support Act (S. 661/ H.R. 2188).
    3. Reward states for reducing the number of children in foster care 
and achieving all forms of permanence. States should be rewarded for 
reducing the number of children in foster care, rather than punished by 
losing federal funds for case workers. Under the current system, states 
lose money for caseworkers when the caseload declines. States should be 
allowed to reinvest savings from safely reducing their foster care case 
loads into their child welfare programs.
    4. Make all children eligible for federal foster care support. The 
link between eligibility for federal foster care support under Title 
IV-E to eligibility for the now-defunct Aid to Families with Dependent 
Children program should be removed. Social workers should be focused on 
helping children find safe, permanent families, rather than wasting 
hours chasing down paperwork related to a parent's eligibility for a 
program that hasn't existed for 10 years. Native American children 
under the jurisdiction of a tribal government are also not eligible to 
receive the benefits of Title IV-E, since tribes are not eligible to 
apply for this federal program. Tribal governments should be allowed to 
apply for Title IV-E funds directly and operate the program for 
children under their care.
    Each day we wait for foster care financing reform, 67 additional 
children leave the system, entirely alone, because we have failed to 
find them families they can count on. Foster children are America's 
children. They deserve our best efforts to provide them with loving, 
supportive families, for a happy and safe childhood, and a brighter 
future.
    We reiterate our gratitude to the Chairman and other Members of the 
Subcommittee for their leadership on behalf of children in foster care. 
The KAW campaign stands ready to be of assistance to you and your staff 
as foster care financing reform solutions are considered during this 
session of the 110th Congress.

            Respectfully submitted,
                                              Jennifer Cole
                                                  Campaign Director

                                 <F-dash>

       Statement of North American Council on Adoptable Children,
                          St. Paul, Minnesota
    As Chairman McDermott stated in an announcement of today's hearing, 
``When most children reach the age of 18, their parents continue to 
support and help them during their transition into adulthood. As the 
de-facto parents of foster children, we should do no less. We need to 
evaluate whether we are meeting that obligation, or whether we are 
simply showing these kids the door without sufficient support, 
resources and skills to succeed.''
    We absolutely have an obligation to support youth who age out of 
foster care. But first and foremost, we have a responsibility to ensure 
that they have a permanent family who will be there to help them with 
their transitions and with the joys and challenges of their young adult 
and adult lives. If we are able to ensure that more children can leave 
foster care quickly and safely to join permanent, loving families--or 
to provide preventive supports and services that can keep families 
together and prevent children from entering foster care in the first 
place--then we will have fewer young people who age out of foster care 
on their own.
    Youth who age out of care face enormous challenges. Pennsylvania 
resident Jessica has a sadly typical story. Jessica's mom was a drug 
addict and prostitute whose boyfriends abused Jessica. As a young teen 
she entered foster care and was placed in a group home. ``No one ever 
talked about adoption,'' Jessica remembers. ``I wanted a family and I 
would have considered adoption, but no one ever asked.''
    ``The scary part was when I turned 18,'' explains Jessica. ``I had 
nowhere to go. They told me, ?When you turn 18, basically, you're 
done.' '' Jessica adds, ``When I left, I was unprepared to be on my 
own. I didn't know anything about finances. I had gone to independent 
living classes, but I couldn't remember anything.'' Jessica spent 
several years working and drinking, and soon became pregnant. It wasn't 
until Jessica's daughter's paternal grandparents took her under their 
care as a young adult that she finally had the family she needed and 
deserved.
    We at the North American Council on Adoptable Children (NACAC) 
believe that, of the many barriers that keep children and youth from 
achieving permanence, the following are some of the most significant. 
First and foremost, the federal child welfare financing system relies 
too heavily on funding and placing children in foster care rather than 
investing in preserving and rebuilding families or better supporting 
new permanent families for children who cannot return safely home. 
Below we detail four ways to invest in families to prevent youth from 
aging out of care: (1) implement federally supported guardianship; (2) 
provide support to birth families; (3) increase access to adoption 
assistance; and (4) fund post-permanency support.
    Over the past three years, NACAC has worked with youth from across 
the country to tell their stories about experiences with the foster 
care system. The stories about what these youth have endured have 
guided our thinking and understanding about the federal solutions that 
would work best to ensure that no youth leaves care without the 
connections that they say make a difference in their lives and their 
futures. In general, the system at every level--local, state and 
federal--should do a better job of listening to and respecting the 
voices of youth and their ideas about ways to improve their individual 
and collective situations. We've had the privilege of working with some 
of the most resilient youth imaginable, yet we know that there are 
countless others who have no voice and no future. The following four 
recommendations would go a long to change the trajectory of bad 
outcomes of youth aging out of care.
Implement Federally Supported Subsidized Guardianship
    About one-quarter of foster children are cared for by grandparents 
or other relatives.\1\ Right now, almost 20,000 of these children 
cannot return to their birth families and have been with their 
relatives for at least a year.\2\ These stable, loving kin families 
could provide a perfect permanent family for many foster children, but 
the children remain stuck in foster care simply because adoption is not 
the right choice for their family. These youth will age out of foster 
care unless we offer them a better permanency option.
---------------------------------------------------------------------------
    \1\ Generations United. (2006). All children deserve a permanent 
home: Subsidized guardianships as a common sense solution for children 
in long-term relative foster care. Washington, DC: Author.
    \2\ Children and Family Research Center. (2004). Family ties: 
Supporting permanence for children in safe and stable foster care with 
relatives and other caregivers. Urbana-Champaign, IL: School of Social 
Work, University of Illinois at Urban-Champaign.
---------------------------------------------------------------------------
    Illinois resident Rob knows firsthand the value of guardianship. 
Placed in foster care due to his mother's mental health, he and his two 
sisters eventually ended up in a subsidized guardianship placement with 
his aunt. One of the first children served through Illinois' 
guardianship waiver, Rob found safety, stability, and love with his 
aunt while maintaining ties to the mother he loves. For Rob, 
guardianship was a lifesaver that should be available to more children 
and youth. He explains, ``I was able to find my miracle through 
subsidized guardianship, but other foster children are not so lucky. 
The federal government should provide funding to states for children 
who leave foster care to live permanently with grandparents, aunts, 
uncles, or other guardians. In many cases, if relatives choose to 
become legal guardians rather than foster parents, they lose federal 
foster care assistance, which pays for things like food and clothing. 
That just isn't right.''
    California resident Anne is raising her two teenaged grandsons, who 
will soon age out of care. She would love to become their legal 
guardian, but relies on the support she gets in foster care. One of the 
boys has moderate hearing loss, sensory motor integration problems, 
difficulty in school, and Asperger's syndrome. The other was sexually 
abused and remains angry and traumatized today. Although she is 
committed to caring for the boys forever, Anne doesn't want to adopt 
them because they are--and will always be--her grandsons. Guardianship 
under California's KinGAP program wasn't a good option because the boys 
would lose the extra supports and services that meet their special 
needs. So, they remain in foster care, and the family contends with 
ongoing court visits and caseworker oversight. ``I would have loved to 
have taken the boys out of foster care and become their guardian,'' 
explains Anne. ``But I could only have done that if the boys would have 
been able to continue to receive support for their special needs. I 
couldn't have afforded to pay for all those services on my own.''
    Subsidized guardianship allowed Rob to leave care with a place to 
call home, both legally and emotionally. Unfortunately, Anne's 
grandsons will not experience this legal permanency and will transition 
to adulthood knowing that they spent their teenage years as foster 
children. All children deserve the option of federally supported 
guardianship so they do not have to age out of care without legal 
permanency.

    Recommendation: Federal waivers have proven the efficacy of 
subsidized guardianship. In the nine years since Illinois implemented 
its guardianship program, 9,596 children have left foster care to 
legal, supported guardianships.\3\ While waivers allow states to 
experiment with needed innovations, they are merely temporary 
solutions. We now need subsidized guardianship to be an approved 
permanency option, included in the Title IV-E program like adoption 
assistance. Children in stable foster placements with relatives and 
other committed caregivers would benefit from greater federal support 
for guardianship, allowing children to leave care, eliminate costly 
caseworker visits, and reduce unnecessary court oversight. A federally 
supported guardianship program--such as the one proposed in the Kinship 
Caregiver Support Act--could help almost 20,000 children leave foster 
care to a permanent family right now. Thousands more could be served 
each year in the future.
---------------------------------------------------------------------------
    \3\ Personal communication with Leslie Cohen. (March 2007). 
Children and Family Research Center.
---------------------------------------------------------------------------
Provide Support to Birth Families
    Many youth who age out of foster care return to their birth 
families--the only families they have ever known. For a significant 
proportion of children and youth in foster care, a return home is the 
right permanency option. Their families, however, often need supportive 
services to address the issues that brought them into the child welfare 
system in the first place. The Green Book states: ``It is generally 
agreed that it is in the best interests of children to live with their 
families. To this end, experts emphasize both the value of preventive 
and rehabilitative services and the need to limit the duration of 
foster care placements.'' \4\ Federal funding does not reflect this 
priority--90 percent of federal funding can be used by states only 
after Title IV-E-eligible children have entered foster care or been 
adopted.\5\
---------------------------------------------------------------------------
    \4\ U.S. House of Representatives, Committee on Ways and Means. 
(2004). 2004 green book: Section 11,--child protection, foster care, 
and adoption assistance. [Online]. Available: http://
frwebgate.access.gpo.gov/cgi-bin/
multidb.cgi?WAISdbName=108_green_book+2004+Green+Book 
+%28108th+Congress%29&WAISqueryRule=%28%24WAISqueryString%29+AND+%28rept
type %3D%24sect+OR+repttype%3D%24sect1+OR+repttype%3D%24sect2%29&WAIS 
queryString 
=duration+of+foster+care+placements&WAIStemplate=multidb_results.html& 
Submit.=Submit &WrapperTemplate=wmprints_wrapper.html&WAISmaxHits=40. 
[Retrieved May 7, 2006.]
    \5\ In FY 2006 the appropriation for Title IV-E foster care and 
adoption assistance programs is $6.48 billion while the funding for 
Title IV-B Parts 1 and 2 (Safe and Stable Families Program) is only 
$721.7 million.
---------------------------------------------------------------------------
    Since so much federal funding is for children who have entered 
care, states do not have sufficient resources to invest in birth family 
support and reunification. In recent years, we have seen the percentage 
of foster children who reunite with their birth families go down--from 
62 percent in 1998 to 54 percent in 2005.\6\
---------------------------------------------------------------------------
    \6\ U.S. Department of Health and Human Services. (2006). AFCARS 
report #10 (Preliminary FY 2005 estimates). [Online]. Available: http:/
/www.acf.dhhs.gov/programs/cb/stats_research/afcars/tar/report13htm 
[Retrieved February, 2007].
---------------------------------------------------------------------------
    This lack of support can translate into slow or non-existing 
support to struggling birth families, and certainly contributes to 
youth aging out of care. Michael of West Virginia was separated from 
his brothers and sister and moved more than 18 times during six years 
in care. At 18, Michael aged out of foster care with no permanent 
family, as did one of his brothers. His sister was adopted and his 
youngest brother remains in care. Michael reflects, ``In my opinion, 
foster care destroyed our whole sense of family in the end. We can't 
sit down together and feel like we are siblings. It becomes more like, 
`Oh, I know that person' but it's not like, `Oh, he's my brother.' ''
    Now 21, Michael wishes the state had done more to help his mom keep 
the family together: ``If the state had invested the same money they 
spent putting us in all those placements into weekly visits with our 
mother and had given her skill lessons, it might not have escalated to 
us needing to go into permanent foster care.''
    Stephanie from Washington State was placed in foster care because 
of her mother's addiction to drugs. Recalls Stephanie, ``It was hard 
not knowing if I was safe, walking the streets at midnight because my 
mom was worried somebody was after her, having to look after my little 
brother because my mom was on house arrest, trying to find something to 
eat.''
    While Stephanie and her brother were in foster care, Stephanie's 
mother received extensive services. She participated in in-patient and 
out-patient drug treatment, self-esteem classes, anger management, 
parenting and nutrition classes, AA meetings, Bible study, daily 
shelter meetings, and group and individual counseling.
    Once Stephanie was reunited with her mom and brother, her life got 
better: ``I became more outgoing, I was more comfortable with myself, 
and my grades improved. I was in plays and musicals at church.'' 
Stephanie says, ``If I could wish for anything it would be that our 
family could have gotten help sooner. I don't know what life would have 
been like if I had stayed in foster care or been adopted, but I know if 
I didn't have my family around me--my mom, my brother, my grandparents, 
and my cousins--I would be devastated. My family means everything to 
me.''
    Kelly of Maryland is the mother of three young children who are 
thriving today. Life was not so good five years ago: Kelly was addicted 
to drugs and her children entered foster care as a result. After 
struggling to kick her habit, Kelly found a program that helped her put 
her life back together. Kelly explains, ``I had everybody pulling for 
me as far as my social worker and my counselors at the program trying 
to help me get immediate Section 8 housing.'' She continues, ``They 
also funded my counseling, and they got me parenting classes. Life in 
recovery is so good and so wonderful,'' Kelly says. ``Honestly, I don't 
have any desire to go back to that way of life. I'm grateful for my 
life today.'' Today, Kelly works with other birth parents to ensure 
that they can be reunified with their children
    Kelly and Stephanie, sadly, are not typical in that their families 
were able to receive the comprehensive services they needed in order to 
be safely, permanently reunited. A recent survey of child welfare 
administrators found that substance abuse and poverty are the most 
critical problems facing families being investigated for child 
maltreatment.\7\ In some areas, substance abuse is an issue for one-
third to two-thirds of the families involved in child welfare.\8\ 
Unfortunately, only 10 percent of child welfare agencies report that 
they can find drug treatment programs for clients who need it within 30 
days.\9\ Almost no drug-addicted parents can access drug treatment 
programs with a mother-child residential component, and few are able to 
participate in comprehensive programs that address issues of parenting 
and housing along with substance abuse. For families dealing with 
poverty and housing issues, support is also hard to come by. As the 
National Center for Child Protection Reform notes, ``Three separate 
studies since 1996 have found that 30 percent of America's foster 
children could be safely in their own homes right now, if their birth 
parents had safe, affordable housing.'' \10\
---------------------------------------------------------------------------
    \7\ National Center on Child Abuse Prevention Research. (2001). 
Current trends in child abuse prevention, reporting, and fatalities: 
The 1999 fifty state survey. Chicago: Prevent Child Abuse America.
    \8\ U.S. Department of Health and Human Services. (1999). Blending 
perspectives and building common ground: A report to congress on 
substance abuse and child protection.  Washington, DC: U.S. Government 
Printing Office.
    \9\ U.S. Department of Health and Human Services. (1999). (See 
complete citation above.)
    \10\ National Coalition for Child Protection Reform. (2004). Who is 
in ``the system'' and why [Online]. Available: http://www.nccpr.org/
newissues/5.html [May 7, 2006].
---------------------------------------------------------------------------
    Investing in at-risk families has been shown to work. Indiana had a 
federal IV-E waiver through which counties provided community- and 
home-based alternatives that sought to reduce foster care usage. The 
waiver demonstration showed that such investments work: 45.6 percent of 
children assigned to the waiver group never entered placement compared 
to 38 percent of children in the control group, and 77 percent of 
children in out-of-home care in the waiver group reunified with a 
parent compared with 66 percent of children in the control group.
    Also using a IV-E waiver, Delaware demonstrated that investing in 
substance abuse treatment had positive outcomes for children: the 
project's foster children spent 14 percent less time in foster care 
than similar children who did not participate in the waiver, and total 
foster care costs were reduced.\11\ Certain counties in North Carolina 
used a federal child welfare waiver to cut down on out-of-home 
placements by investing in court mediation, post-adoption services, 
intensive family preservation services, and other interventions.\12\
---------------------------------------------------------------------------
    \11\ U.S. General Accounting Office. (2002). Recent legislation 
helps states focus on finding permanent homes for children but long-
standing barriers remain. Report to Congressional Requestors. [Online]. 
Available; http://www.gao.gov/new.items/d02585.pdf. [Retrieved May 7, 
2006].
    \12\ Usher, C., Wildfire, J., Brown, E., Duncan, D., Meier, A., 
Salmon, M., Painter, J. & Gogan, H. (2002). Evaluation of the Title IV-
E waiver demonstration in North Carolina. Chapel Hill, NC: Jordan 
Institute for Families, University of North Carolina.
---------------------------------------------------------------------------
    Recommendations: Currently, for every dollar that the federal 
government spends on family preservation and post-permanency support, 
nine dollars are spent on IV-E children who are in foster care or who 
have been adopted from care. The federal government must significantly 
increase its investment in Title IV-B Parts 1 and 2, and provide states 
with increased flexibility in how they spend federal child welfare 
monies. Many of the foster children aging out of care today can attest 
to the fact that if the state had spent more money on keeping their 
families together, they could have saved on costly and unnecessary 
foster care placements.
    In addition, if states successfully reduce the use of foster care, 
they should be able to reinvest saved federal dollars into preventive 
and post-permanency services to ensure that more families--whether 
reunited, adoptive, or guardianship--can stay together. Currently, when 
states reduce the number of IV-E eligible children in foster care, the 
federal government reduces its payment to the state. We recommend that 
the federal government provide states with an amount equal to the money 
saved in Title IV-E maintenance payments, training, and administration. 
this would provide an incentive to keep or move children out of care, 
while also beginning to address the vase imbalance in federal funding.
Protect and Expand Adoption Assistance
    Adoption from foster care can be a bright light for the future for 
many of the young people who otherwise would have aged out of care. 
Between 1998 and 2004, more than 330,000 foster children were adopted 
into loving, caring families. But adoption is not the end of the story. 
Children who have been abused or neglected--and bounced from foster 
home to foster home--do not emerge unscathed. The government has a 
moral obligation to make a long-term commitment to adoptive and 
guardianship families who take into their homes foster children who 
have languished in care for far too long, many of whom are older and 
have multiple special needs.
    Adoption assistance (or subsidy) is one critical support for 
families who adopt children with special needs from the foster care 
system. Subsidies help strengthen these new families and enable many 
foster parents to adopt children already in their care by ensuring that 
they do not lose support as they transition to adoption.
    Michigan resident Vernard adopted his son Alex when he was three. 
``Alex had been in 10 placements before I got him,'' says Vernard. 
Because of Alex's diagnosis of reactive attachment disorder and other 
special needs, Vernard recalls, ``I made absolutely sure I received 
adoption medical subsidy prior to the adoption, because I knew 
accepting even a minimum amount of subsidy would be in Alex's best 
interest. I knew that if Alex required residential treatment or out-of-
home placement--due to his multiple placements, and the neglect and 
physical and sexual abuse he experienced--there was no way I could 
afford $300 to $400 a day or even trained respite support.'' Alex 
receives a $300 monthly subsidy, but during their first four years 
together, Vernard spent more than $850 per month to meet Alex's needs, 
including four different therapies to help Alex.
    Currently, the federal government shares in a portion of adoption 
assistance costs only for children whose birth family income is below 
the 1996 Aid to Families with Dependent Children income standards. In 
contrast, states are obligated to provide protection to every abused or 
neglected child, regardless of family income. Unfortunately, a funding 
system that ties adoption assistance to outdated income guidelines has 
resulted in a system in which far fewer children are eligible for Title 
IV-E federal support. In 1998, 53 percent of foster children were 
eligible for federal support, but by 2005, the percentage had dropped 
to 46 percent--or 35,000 fewer Title IV-E eligible children. This 
number is projected to decline by another 5,000 per year.\13\ The loss 
of IV-E eligibility often translates into the eventual loss of IV-E 
adoption assistance eligibility.
---------------------------------------------------------------------------
    \13\ Kids Are Waiting. (2007). Fix the Foster Care Lookback.
---------------------------------------------------------------------------
    As a result of this declining federal support, states and 
localities must share a greater burden for foster care and adoption. In 
some states, this has severely limited the amount of funding that can 
go to prevention or adoption support. Recent state legislation 
demonstrates the need for rapid federal action on this issue. In 2005, 
as allowed by federal regulations, Missouri enacted legislation that 
would have instituted a means test for state-funded adoption assistance 
agreements and would have ended more than 1,000 existing adoption 
assistance agreements. Although a federal district court found the law 
unconstitutional on May 1, 2007, other states may follow Missouri's 
example in an attempt to save funds. Such short-sighted policies will 
relegate more children to foster care, rather than helping them leave 
care to a permanent family.
    A recent study by Barth et al. suggests that such adoption 
assistance cuts are not cost-effective: ``[C]uts in subsidy amounts 
could reduce the likelihood of adoption and ultimately increase costs 
for foster care.'' \14\ In contrast, a new study suggests that a small 
increase in adoption assistance would result in increased adoptions, 
again saving money by reducing higher foster care costs.\15\
---------------------------------------------------------------------------
    \14\ Barth, R., Lee, C., Wildfire, J., & Guo, S. (2006). A 
comparison of the governmental costs of long-term foster care and 
adoption. Social Service Review, 80 (1).
    \15\ Hansen, M., & Hansen, B. (2006). The economics of adoption of 
children from foster care. Child Welfare, 85(3)
---------------------------------------------------------------------------
    In the long run, adoption--even well-supported adoption--saves 
money and ensures that young people don't age out of care without a 
place to call home. The Barth et al. study demonstrates that the 50,000 
children adopted each year save the government from $1 to $6 billion, 
when compared to maintaining those children in long-term foster care. 
Savings result from reduced administrative costs, medical courts, court 
expenses, compared to the costs of seeking adoptive families and 
providing adoption assistance.\16\
---------------------------------------------------------------------------
    \16\ Barth et al. (2006). (See complete citation above.)
---------------------------------------------------------------------------
    Recommendations: Since 1988 NACAC has advocated for an elimination 
of the link between birth parent's income and eligibility for Title IV-
E adoption assistance. It makes no sense to tie a child's eligibility 
to the financial status of parents whose parental rights have been 
terminated. State and federal assistance should be required to ensure 
support after adoption for every abused and neglected child--not just 
every child born into a poor family. As proposed by Senator Jay 
Rockefeller, the Adoption Equality Act of 2007 would extend Title IV-E 
adoption assistance to every child with special needs adopted from 
foster care. The House should pass a companion bill. Such legislation 
would also save states money currently spent on costly income-
eligibility determinations. The savings could then be invested in 
supporting families after permanency or preventing foster care 
placements in the first place.
    Adoption assistance is designed to help an adoptive family meet as 
child's needs without creating an undue financial burden on the family. 
Therefore, a program in which the federal government provides support 
to all children with special needs adopted from foster care must 
maintain the federal prohibition against using the adoptive family's 
income to determine eligibility.
Fund More Intensive Post-Permanency Support
    Adoption from foster care can ensure that young people do not age 
out of care without a permanent and loving family. Unfortunately, some 
youth who age out of care today are coming from disrupted adoptive 
placements that did not receive enough support. Adoption assistance is 
a necessary support for children adopted from foster care, but it is 
often not enough. As Babb and Laws detail, children adopted from foster 
care face a variety of special needs: mental illness, fetal alcohol 
spectrum disorder, attention deficit hyperactivity disorder, emotional 
disabilities, attachment disorder, as well as physical 
disabilities.\17\ Groze and Gruenewald agree that ``[f]amilies face 
enormous challenges and strains in adopting a special-needs child.'' 
\18\
---------------------------------------------------------------------------
    \17\ Babbs, A., & Laws, R. (1997). Adopting and advocating for the 
special needs child: A guide for parents and professionals.  Westport, 
CT; Bergin & Garvey.
    \18\ Groze, V., & Gruenewald, A. (1991). Partners: A model program 
for special-needs adoptive families in stress. Child Welfare, 70 (5), 
581-589.
---------------------------------------------------------------------------
    While adoptions doubled from 1997 to 2004, the federal investment 
in post-adoptive services failed to keep pace. More people are adopting 
more children, and the children are often older, have been in care 
longer, and face daunting special needs. The Center for Advanced 
Studies in Child Welfare notes that older children and children with 
disabilities are at highest risk for adoption disruption.\19\ Few 
states or counties have the comprehensive services necessary to meet 
parents' needs as they raise children who have been abused and 
neglected and have resulting physical and emotional special needs. We 
at NACAC have met far too many families who are deeply committed to 
their adopted children, but are unable--or barely able--to meet their 
children's mental health needs.
---------------------------------------------------------------------------
    \19\ Center for Advanced Studies in Child Welfare. (1998). CASCW 
practice notes # 4: Post-adoption services. [Online]. Available: http:/
/ssw.che.umn.edu/img/assets/11860/PracticeNotes_4.pdf [Retrieved: May 
7, 2006].
---------------------------------------------------------------------------
    In 1998, Pam and Tom from Louisiana adopted two-and-a-half-year-old 
Danielle from foster care. Because of the horrible abuse she had 
suffered, Pam explains that by age four Danielle ``was doing things 
like biting the upholstery leather out of my van, growling at me, 
destroying furniture, and trying to hang herself with a clothes hanger 
in the closet.''
    Danielle was on a waiting list for mental health services for more 
than six years. A few months ago, Danielle was admitted to a 
psychiatric hospital and was diagnosed bipolar-manic and psychotic. ``I 
am willing to do whatever it takes to care for my children,'' says Pam. 
``But I know now I can't do it alone.'' Danielle's adoption subsidy is 
not nearly enough to cover her expenses. The family could use a trained 
personal care attendant, in-home therapy, family therapy, and short-
term respite care. Unfortunately, due to lack of funds, many of these 
services are not currently available through Louisiana's adoption 
assistance program.
    Corvette of New York adopted nine-year-old Malik from foster care. 
``He hallucinates and sees spiders even though there are no spiders,'' 
says Corvette. When Malik starts to see spiders, he panics and loses 
control. Not long ago, Malik needed to be admitted to hospital in-
patient treatment for more than two weeks. Corvette has a deep, abiding 
love for Malik, but knows love isn't enough to heal his past hurts and 
meet his special needs. She relies on Medicaid, monthly adoption 
assistance, and other services to provide medication, therapy, a 
medical school setting for Malik, training for her, and more. These 
services enable her to keep Malik at home, which is considerably less 
expensive than the residential treatment he might otherwise need.
    Post-adoption and post-permanency supports cut down on the risk of 
disruption and dissolution. Most adoptions succeed, but as many as 10 
to 25 percent of public agency adoptions of older children disrupt 
before finalization, and a smaller percentage dissolve after adoption 
finalization.\20\
---------------------------------------------------------------------------
    \20\ National Adoption Information Clearinghouse. (2006). 
Postadoption services: A bulletin for professionals. [Online]. 
Available: http://naic.acf.hhs.gov [Retrieved May 2006].
---------------------------------------------------------------------------
    Recommendations: Funding of Title IV-B must be increased, and the 
new funding should cover post-permanency support. Currently, good post-
adoption programs are providing basic information, support, training, 
and other services to families in many areas. It is not enough. More 
resources are needed for adoption-competent mental health services and 
case management programs that will ensure that children with difficult 
histories and current mental health and behavior problems do not 
needlessly return to foster care or devastate their new families. If we 
want adoption and guardianship to be truly permanent, and to prevent 
children from aging out of care with no permanent family, we must find 
the resources to provide in-depth, sometimes intensive support to these 
permanent families. It is far more economical--not to mention better 
for children and families--to provide these services now to ensure that 
children don't return to foster care.
Conclusion
    Much needs to be done to provide supportive services to youth who 
are leaving foster care with no connection to a family. The government 
that has taken responsibility for them must continue to meet its 
obligation to ensure that these youth are ready for life on their own, 
and to provide supportive services for those youth who are not yet 
ready. But the best way to ensure that youth are going to make it 
successfully into young adulthood is to make sure that they have a 
permanent, legal family of their own. As we all know, families are 
there for youth long after age 18, and can do much more than a 
bureaucracy ever could to help youth handle the stresses of their lives 
to come.
    It is time to reform the federal child welfare financing system to 
facilitate the achievement of the goal we all have for children and 
youth--that they have a safe, loving family to be there for them 
forever.

                                 <F-dash>
         Statement of Patricia K. Jennings, Roswell, New Mexico
    I am a mother of 5, the wife of State Senator Tim Jennings (D), Co-
Chairman of Senate Finance Committee and Chairman of Tax and Revenue 
Stabilization Committee, an advocate for people with disabilities, and 
the Executive Director of the New Mexico Medical Insurance Pool and 
past-chairman of the National Association of Comprehensive Health 
Insurance Programs (NASCHIP). I authored the Pool legislation in 1987 
when I could not purchase health insurance coverage for my oldest 
child, Courtney, who has Down's Syndrome. I have also lobbied the New 
Mexico Legislature and successfully lowered the school age to three for 
children with disabilities prior to the federal legislation passing. I 
have assisted in writing IDEA regulations and have been very involved 
in policymaking for the past 29 years.
    In my spare time, I volunteer as a mediator between families of 
children with disabilities or at-risk needs, and the state or other 
systems. In 1991, the Roswell Independent School District requested 
that I assist them in negotiating with a very difficult family with an 
extremely difficult child. That is when I met the cute little second 
grader named Josh. However cute he might have been, Josh was in no way 
like the typical second grade boy. He had serious behavior and learning 
issues and acting out included trying to stab a bus driver with a pair 
of scissors he had hidden in his socks. Negotiations between the family 
and the schools had failed, so the schools and family agreed that I 
would serve as the treatment guardian for Josh, and I was appointed by 
the courts by Judge Chip Johnson.
    After a few months, the family finally agreed to place this 
extremely troubled child into the Children's Psychiatric Unit at the 
University of New Mexico Hospital. After months of work, Josh was 
released to a therapeutic foster treatment center in Albuquerque. While 
there, he was sexually abused by another young boy in the center. It 
was quite a while before anyone learned of this, though, and he had 
already moved into another setting before we found out. Josh was moved 
to a therapeutic foster treatment home in Belen, much to his parents' 
dismay. However, the setting was the best part of Josh's troubled life 
to this day. After many months, the provider and the therapeutic foster 
family began inquired about the possibility of adopting Josh. Everyone 
who knew Josh and his family were in full agreement that the worst 
possible outcome for Josh's success would be for him to return home, 
ever. With the parent's horrible emotional treatment of Josh, and 
refusal to get any assistance from anyone in order to learn more 
appropriate ways to parent, there was no hope for Josh's future within 
the family.
    This simple inquiry caused the biological parents to begin to 
threaten and constantly harass the provider agency until the agency 
decided to remove Josh from the therapeutic treatment home in Belen to 
another provider in Roswell where Josh's family lived. This was against 
the wishes of the therapists, the foster family and myself, but the 
agency wanted to wash their hands of this very difficult family. The 
new foster family had to participate with visitation schedules with the 
biological family, which was extremely disruptive to Josh's progress 
and the therapeutic foster family was not able to work with Josh. His 
behaviors worsened.
    Eventually, the second therapeutic foster family failed and Josh 
had to be moved to yet another setting. He was never placed in a family 
with children. Josh was also now being educated in a building separate 
from all other children. He was well known to the school system as the 
most dangerous child in Roswell.
    As Josh became older, his contacts with other children gave me 
concern that he would act out sexually toward another child if given 
the right opportunity. A psychological evaluation was ordered for Josh 
to determine his potential for sexually abusive behaviors toward other 
children. The psychologist determined that he posed no threat to others 
in that regard. However, I disagreed, and Josh was receiving therapy to 
address these concerns.
    Within a few weeks of the evaluation, Josh was at a therapy session 
at a counseling office where the secretary's seven or eight year old 
son was playing in the waiting room while waiting for his mom to get 
off work. Josh was the last patient and the two boys ended up alone 
together in the men's restroom where Josh proceeded to sexually assault 
the young boy.
    Josh was arrested and eventually placed in the New Mexico State 
Hospital in a program that I had recommended to the Judge. It was 
another excellent placement for Josh where he truly learned more 
appropriate behaviors and responded well with not only the staff, but 
with other boys from across the state that were very similar to Josh. 
He was there for a number of years, which was the only stable 
environment he had experienced since leaving his family's home at 
seven.
    Shortly before Josh's eighteenth birthday, the hospital released 
him back to his parents. This was done with no notice to the schools, 
the mental health system in Roswell, or anyone else. Once a child lands 
in the criminal justice system, the rest of the systems in a state that 
are designed to work with such a child are completely disregarded.
    Josh's family had not lived with Josh for over eleven years. He was 
quickly thrown out of the house and onto the streets of Roswell. He had 
nothing but the clothes on his back. I had no notice that any of this 
had occurred. I was with my children when we saw Josh on the street one 
day. We stopped to visit and see how he was doing. We were appalled. He 
was thin, hungry, dirty, sick and depressed. My children begged me to 
take him home, but I could not risk their safety for Josh.
    My husband and I have tried for 4 years now to get help for Josh. 
We have him in an apartment and on SSDI and Medicaid. He can not work 
without intensive supported employment services, which he is not 
eligible for. He did not qualify for the Developmental Disabilities 
Waiver because his IQ is about 70, too high to be determined DD. His 
learning disabilities and inability to read or write well enough to 
fill out a job application still did not help him to qualify. We have 
accessed independent living centers, the Division of Vocational 
Rehabilitation, the Children Youth and Families Department, the 
Department of Health and the Human Services Department. No one can 
help.
    Today, Josh remains in a little run down apartment. We have 
provided him with furniture and the necessities of living. He can not 
work, has no friends, walks for miles to get anywhere and is frequently 
beaten and robbed of coats, bikes or whatever he is in possession of. 
We at least have him in a place that is safe. He comes by our office 
and we take him grocery shopping and deliver him and his groceries to 
his apartment. We provide him with phone cards for his cell phone so he 
can call us if he needs us. We have tried to get him to get 
appointments with the Division of Vocational Rehabilitation, but he is 
unable to remember to keep his appointments. He needs someone with him 
to help him do the day to day living tasks, although he can manage to 
heat up food and clean his apartment to some degree.
    Josh is the perfect example of why we need services for those who 
age out of the foster care system. He is a young man waiting for the 
next tragedy to happen to him. Our community has invested so much in 
this young man during his pre-eighteen years with high dollar therapy, 
therapeutic foster care, hospitalizations, and education. One could say 
it has been successful since he has never killed anyone and is not now 
in jail. That was what we most worried about when Josh was little. He 
has not abused a child since turning eighteen, and maybe he won't ever 
again. He has not stolen or injured anyone that we know of. But the 
state has failed Josh. He has potential, just as my daughter with Down 
Syndrome. With supported employment and assisted living, Josh's life 
after his sentence to the state hospital could have turned out 
completely different. He could be gainfully employed, healthy and most 
of all, not a danger to himself or others in this community.
    In a recent trip to China, our delegation asked to see a home for 
children who have no families. We found that China is taking care of 
these children until they are gainfully employed. They do not release 
them from the ``welfare house'' until they have been educated and in a 
job where they can support themselves, and they must have a roof over 
their head. This is vastly different than here, where we release them 
to fend for themselves.
    I think we in the United States of America can and should do 
better. If you need ideas on what to do, I would be happy to provide 
some.
    If you have any questions or wish to discuss this further, please 
feel free to contact me. I truly wish I could have been there in 
person, but I did not know about this hearing until tonight when I was 
reviewing schedules regarding risk pool funding. Thank you for this 
opportunity to submit this information on this very critical issue.

                                 <F-dash>
     Statement of Seattle University's Fostering Scholars Program,
                          Seattle, Washington
    The Fostering Scholars Program at Seattle University welcomes the 
opportunity to submit written testimony for the Committee Hearing on 
Children Who Age Out of the Foster Care System.
Seattle University
    With just over 7,000 students, Seattle University is the largest 
independent university in the Northwest. With a 29 percent student of 
color population, it is also one of the most diverse universities in 
the West. Seattle University is guided by its mission:
    Seattle University is dedicated to educating the whole person, to 
professional formation, and to empowering leaders for a just and humane 
world.
    Through its Fostering Scholars Program, Seattle University supports 
one of the most underrepresented and underprivileged groups in higher 
education--youth who age out of the foster care system. In Washington 
State, where only three out of ten foster youth graduate from high 
school before emancipating from foster care and only 25 percent of 
foster youth enroll in a postsecondary program immediately after high 
school (Washington State Department of Social and Health Services 
(DSHS) Performance Report, 2005), the need for higher education to 
improve its outreach to and support of these students is obvious. By 
developing an integrated program of support for former foster youth at 
Seattle University, the Fostering Scholars Program works to improve the 
prospects of foster youth, and to transform the poor outcomes we often 
witness from children emancipating from our nation's foster care 
system.
Foster Youth and Higher Education
    The nation's support of the growing population of youth in foster 
care is lacking by any measure and as a result, thousands of young 
people are not reaching the educational and life outcomes that they 
each deserve. The sobering statistics on former foster youth employment 
confirm the narrow scope of opportunity that awaits undereducated 
youth. In a recent study, within one year of emancipation, 43 percent 
of former foster youth were employed and 45 percent were looking for 
work. Of those employed 47 percent were making wages at or below the 
poverty line. The prospects for this group do not improve with time: at 
four years after emancipation, 50 percent of former foster youth were 
unemployed. (Foster Youth Transition to Independence Study, Office of 
Children's Administration Research, DSHS, 2004).
    Despite these grim statistics however, there are many indications 
that these young people intrinsically understand the value of 
education. Their educational aspirations do not mesh with their record 
of low academic achievement. In one survey, researchers found that 
despite little promotion of college in the foster care system, more 
than half of all Washington foster youth surveyed had plans to obtain 
either a bachelor's or associate degree (Foster Youth Transition to 
Independence Study, Office of Children's Administration Research, DSHS, 
2004). Nationally, foster youth face a similar predicament: high 
aspiration coupled with the reality of low achievement. Seventy percent 
of the 20,000 young adults who emancipate from foster care each year 
want to go to college. If we do not change the way we support the 
ambitions of former foster youth, the vast majority of our most 
vulnerable young people will never have the benefit of a college 
education.
Why Former Foster Youth Need Extra Support to Attend College
    It is well documented that because they experience high rates of 
school instability and other risk factors associated with school 
failure (such as early childhood maltreatment and neglect and learning 
disabilities), foster youth often perform poorly in school and are 
rarely well prepared for college. As Burley and Halpern documented in a 
2001 study of foster youth in Washington State, compared with non 
foster youth twice as many foster youth repeated a grade, changed 
schools during the year, or enrolled in special education programs 
(Educational Attainment of Foster Youth: Achievement and Graduation 
Outcomes for Children in State Care, Washington State Institute for 
Public Policy, 2001). Of those foster youth exiting care in 2004, 35.4 
percent received some type of special education services (DSHS 
Performance Report, 2005).
    In addition to academic needs, foster youth also have unique 
social, emotional health needs. In their ten-year study of 479 foster 
care youth and review of 659 case records, Pecora and his colleagues 
report that a disproportionate number of former foster youth have 
clinical levels of depression, social phobia, panic disorder, post-
traumatic stress disorder, or drug dependence. Overall, former foster 
youth are twice as likely as youth not in foster care to have mental 
health problems (Pecora et al, 2005).
    Beyond the academic and health related barriers to obtaining a 
college education, there are several other unique barriers that arise 
for foster youth who aspire to attend college. For example, it is not 
uncommon for students who have aged out of foster care to become 
discouraged or drop out when their on-campus residence or dining 
facility closes for the holiday or summer break and they are left with 
nowhere to go. Understanding and addressing this and other complexities 
of a foster youth's life is critical for institutions of higher 
education who seek to promote college success for former foster youth.
Fostering Scholars Program
    In June, 2006, Seattle University welcomed its first seven 
Fostering Scholars and will welcome four additional Scholars in 2007. 
Once on campus, scholarship recipients receive year-round room and 
board; full tuition and fees; health insurance; personal support; a 
program of cohort and leadership development; work-study jobs; access 
to tutoring, therapy and counseling as needed; and the benefit of an 
emergency fund. Students also receive guidance from the Fostering 
Scholars Director in accessing the myriad of student development 
programs on campus, ranging from Office of Multicultural Affairs 
programs to intramural sports and from student academic support 
services to community service opportunities. While enrolled at Seattle 
University, Fostering Scholars are expected to make progress toward a 
degree and the attainment of life and leadership skills needed for 
independent and fulfilled living.
    Private donations and a generous grant from the Stuart Foundation, 
a national leader for children and youth, make these program components 
possible. Additionally, Seattle University's partnerships with state 
leaders in foster care advocacy, Treehouse and the College Success 
Foundation, are critical to the program's success. In order to create 
viable options in higher education for former foster youth, Seattle 
University is committed to forging community and governmental 
partnerships to help prepare foster youth for attending and graduating 
from college. Seattle University recognizes how important educational 
access is for all young people today, and is committed to making the 
college dream possible for the most vulnerable of our youth--those 
exiting the foster care system. The Seattle University Fostering 
Scholars Program urges Congress to affirm its commitment to children 
and youth in care by strengthening and expanding programs, such as the 
Education and Training Voucher (ETV), aimed at supporting the college 
aspirations of youth aging out of foster care.
    Thank you for the opportunity to submit a written statement on 
behalf of Seattle University's Fostering Scholars Program.

                                 <all>

</pre></body></html>
